<html>
<title> - EXAMINATION OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS BENEFITS DELIVERY AT DISCHARGE AND QUICK START PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                 EXAMINATION OF THE U.S. DEPARTMENT OF
                 VETERANS AFFAIRS BENEFITS DELIVERY AT
                   DISCHARGE AND QUICK START PROGRAMS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           February 24, 2010

                               __________

                           Serial No. 111-63

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
                         WASHINGTON : 2010
55-231


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001




                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

DEBORAH L. HALVORSON, Illinois       DOUG LAMBORN, Colorado, Ranking
JOE DONNELLY, Indiana                JEFF MILLER, Florida
CIRO D. RODRIGUEZ, Texas             BRIAN P. BILBRAY, California
ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           February 24, 2010

                                                                   Page
Examination of the U.S. Department of Veterans Affairs Benefits 
  Delivery at Discharge and Quick Start Programs.................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     2
    Prepared statement of Chairman Hall..........................    27
Hon. Doug Lamborn, Ranking Republican Member.....................     1
    Prepared statement of Congressman Lamborn....................    28

                               WITNESSES

U.S. Government Accountability Office, Daniel Bertoni, Director, 
  Education, Workforce, and Income Security Issues...............     4
    Prepared statement of Mr. Bertoni............................    28
U.S. Department of Defense, Hon. Noel C. Koch, Deputy Under 
  Secretary of Defense (Wounded Warrior Care and Transition 
  Policy)........................................................    10
    Prepared statement of Mr. Koch...............................    36
U.S. Department of Veterans Affairs, Diana Rubens, Associate 
  Deputy Under Secretary for Field Operations, Veterans Benefits 
  Administration.................................................    23
    Prepared statement of Ms. Rubens.............................    47

                                 ______

American Veterans (AMVETS), Raymond C. Kelley, National 
  Legislative Director...........................................    19
    Prepared statement of Mr. Kelley.............................    42
Disabled American Veterans, John L. Wilson, Assistant National 
  Legislative Director...........................................    20
    Prepared statement of Mr. Wilson.............................    43
Iraq and Afghanistan Veterans of America, Thomas Tarantino, 
  Legislative Associate..........................................    15
    Prepared statement of Mr. Tarantino..........................    38
Veterans of Foreign Wars of the United States, Gerald T. Manar, 
  Deputy Director, National Veterans Service.....................    17
    Prepared statement of Mr. Manar..............................    40

                       SUBMISSION FOR THE RECORD

American Federation of Government Employees, AFL-CIO, and AFGE 
  National Veterans Affairs Counsel, statement...................    49

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Daniel Bertoni, Director, Education, Workforce, 
      and Income Security Issues, U.S. Government Accountability 
      Office, letter dated March 25, 2010, and response letter 
      and attachment, dated April 16, 2010.......................    52
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Hon. Noel Koch, Deputy Under Secretary of 
      Defense, Office of Wounded Warrior Care and Transition 
      Policy, U.S. Department of Defense, letter dated March 25, 
      2010, and DoD responses....................................    55
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Thomas Tarantino, Legislative Associate, Iraq 
      and Afghanistan Veterans of America, letter dated March 25, 
      2010, and IAVA responses...................................    58
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Gerald T. Manar, Deputy Director, National 
      Veterans Service, Veterans of Foreign Wars of the United 
      States, letter dated March 25, 2010, and VFW responses.....    60
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Raymond C. Kelley, National Legislative 
      Director, AMVETS, letter dated March 25, 2010, and AMVETS 
      responses..................................................    64
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to John L. Wilson, Assistant National Legislative 
      Director, Disabled American Veterans, letter dated March 
      25, 2010, and DAV responses................................    65
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Diana Rubens, Associate Deputy Under Secretary 
      for Field Operations, Veterans Benefits Administration, 
      U.S. Department of Veterans Affairs, letter dated March 25, 
      2010, and VA responses.....................................    68

 
                 EXAMINATION OF THE U.S. DEPARTMENT OF
                 VETERANS AFFAIRS BENEFITS DELIVERY AT
                   DISCHARGE AND QUICK START PROGRAMS

                              ----------                              


                      THURSDAY, FEBRUARY 24, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                  Subcommittee on Disability Assistance and
                                          Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Rodriguez, and Lamborn.
    Mr. Hall. Welcome to the Subcommittee on Disability 
Assistance and Memorial Affairs Subcommittee hearing on 
Examination of the U.S. Department of Veterans Affairs (VA) 
Benefits Delivery at Discharge (BDD) and Quick Start Programs.
    Could I ask everyone, please, to rise for the Pledge of 
Allegiance?
    [Pledge of Allegiance.]
    Mr. Hall. Thank you, all. Ladies and gentlemen, we are here 
today to examine the Benefits Delivery at Discharge or BDD and 
Quick Start programs, two components of the pre-discharge 
program, which were established by the U.S. Departments of 
Defense (DoD) and Veterans Affairs to streamline 
servicemembers' transition from active duty to veteran status.
    And because of the scheduling problems that we have here in 
the House with multiple Committee meetings, I am going to 
recognize Ranking Member Lamborn for his opening statement, 
first.
    Mr. Lamborn.

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Well, thank you, Mr. Chairman. I appreciate 
your flexibility in doing this. Normally, I am very happy to go 
second here. But I do have to be at another Subcommittee where 
I am also the Ranking Member, so it is one of those times when 
I wish I could be in two places at once.
    I also welcome everyone today to this hearing on the 
Benefits Delivery at Discharge and Quick Start Programs. These 
programs are focused on the concept of providing a seamless 
transition from military service to civilian life.
    I, along with Chairman Hall, my fellow Subcommittee 
Members, and many of you here are long-time advocates for 
creating a seamless transition. Therefore, I am sure we can all 
recognize the inherent value of beginning the VA claims process 
while service medical records are readily available and proof 
of service-connection is easily established.
    Allowing veterans to file VA compensation claims prior to 
separation from active duty is simply a logical approach. BDD 
is more efficient than the traditional VA claims process and it 
eliminates many problems that are created by the time gap that 
often exists between discharge and application for benefits.
    Among the requirements to establish eligibility for VA 
compensation, veterans must be able to show that a condition 
was incurred during service and that there is a continuity of 
treatment between that incurrence and the current condition for 
which they are filing.
    Obviously with BDD there is no time gap, so it alleviates 
the need to show continuity of treatment. This saves both the 
veteran and the VA a lot of time and effort obtaining private 
treatment records. One can imagine that such efforts can become 
quite extensive for claims filed several years subsequent to 
service.
    In 2008, full Committee Ranking Member Steve Buyer 
requested a U.S. Government Accountability Office (GAO) 
assessment of the BDD program. GAO's findings confirmed that 
allowing claims to be filed prior to discharge is more 
efficient than the traditional VA claims process.
    While I am optimistic about the overall assessment of the 
program, I encourage VA to make every effort to improve the 
program and increase access to BDD sites. I believe that 
processing as many claims as possible in this manner will have 
a positive impact throughout the entire system.
    Thank you and I yield back. And once again, thank you, 
Mr. Chairman.
    [The prepared statement of Congressman Lamborn appears on 
p. 28.]

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Thank you, Mr. Lamborn.
    By way of background, any member of the Armed Forces who 
has seen active duty, including those in the Guard and Reserve, 
are eligible to apply for VA disability benefits prior to 
leaving military service through the BDD or Quick Start pre-
discharge programs. During the application process, 
servicemembers can get help in completing forms and preparing 
other required documentation from VA personnel located at their 
bases.
    Additionally, this pre-discharge program combines, both, 
the health exam required by DoD upon exiting the military and 
the VA disabilities assessment exam into one single exam. Once 
a BDD or Quick Start claim is approved, veterans may begin 
receiving benefits within 2 or 3 months, instead of the 6 to 7 
months it would typically take if they had applied after 
discharge under the traditional disability claims process.
    Participation in the BDD program is open to servicemembers 
who are within 60 to 180 days of being released from active 
duty and who are able to complete their scheduled VA medical 
examinations prior to leaving their points of separation. The 
Quick Start program is available to servicemembers within 1 to 
59 days of separation from service or servicemembers who do not 
meet the BDD criteria requiring availability for all 
examinations prior to discharge.
    The BDD program started as a pilot program in 1995 at three 
Army bases and three VA regional offices (ROs). In 1998, VA and 
DoD fully rolled out the BDD program.
    Last Congress, my friend Congressman Peter Welch of Vermont 
introduced H.R. 2259, legislation to expand the BDD program to 
members of the National Guard and Reserves, which was 
incorporated in the National Defense Authorization Act for 
2008, Public Law 110-181. This statute ensures that Guardsmen 
as well as Reservists can participate in the VA/DoD pre-
discharge program.
    In the last 15 years, over 170,000 servicemembers have 
availed themselves of the BDD and Quick Start process. The 
programs have expanded from 3 military bases to more than 153 
locations in the United States, Germany, and South Korea.
    According to VA, the majority of pre-discharge claims, 
46,856 claims to be exact, were processed in 2009 in a 
paperless environment, with an average processing time of 95.5 
days. It is VA's stated goal to process all compensation and 
pension claims in a paperless environment eventually, and the 
Subcommittee is committed to helping VA achieve this.
    I, along with Congressman Rodriquez, and other Members of 
this Committee and Congress, requested that GAO prepare a 
report to assess the effectiveness of these programs, Quick 
Start and BDD, and I look forward to hearing from the GAO about 
its report, about its recommendations, how they have been 
implemented, and what, if any, impact they have had upon the 
pre-discharge program.
    We also look forward to feedback from veteran service 
organizations as well as the VA and DoD on what, if any, 
resources are needed that we in Congress can provide to fully 
realize the full potential of these two programs.
    The examination of VA and DoD's pre-discharge program 
follows up our last hearing concerning the implementation of 
the Veterans' Benefits Improvement Act of 2008, which was 
codified in Public Law 110-389. That law paved the way for a 
number of initiatives also targeting the VA claims backlog, 
which is an issue that concerns us all. It is my hope that the 
BDD and Quick Start programs that we are considering today, 
coupled with the electronic claims system and other business 
process transformation efforts in Public Law 110-389, which are 
currently underway at VA, will together significantly transform 
the VA claims processing system so that someday, someday soon 
we may play Taps for the VA compensation and pension (C&P) 
backlog.
    I would like to remind our panelists that the complete 
written statements you have submitted are being made a part of 
the hearing record. Please limit your remarks to 5 minutes so 
that we can have sufficient time for questions and avoid the 
dreaded buzzer for the votes that will be called at some 
unknown time.
    Our first panel consists of David Bertoni, Director of 
Education, Workforce, and Income Security Issues with the 
Government Accountability Office.
    Mr. Bertoni, welcome. You are now recognized for 5 minutes.
    [The prepared statement of Chairman Hall appears on p. 27.]

STATEMENT OF DANIEL BERTONI, DIRECTOR, EDUCATION WORKFORCE, AND 
 INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Bertoni. Thank you very much. Good afternoon, Mr. 
Chairman. I am pleased to be here to discuss the Benefits, 
Delivery at Discharge and Quick Start programs which represent 
a collaborative effort by the Departments of Veterans Affairs 
and Defense to expedite the disability claims process for 
servicemembers. These programs streamline access to VA 
disability benefits by allowing many servicemembers to file and 
initiate claims development prior to discharge, thus shortening 
the time it takes to receive benefits. Last year over 51,000 
claims were filed through both programs.
    My statement today draws on our prior work and focuses on 
two areas, an assessment of VA's overall management of the BDD 
program and steps VA and DoD have taken to expand access to 
both BDD and Quick Start.
    In summary, although VA awards benefits more quickly under 
BDD than through the traditional claims process, gaps in 
program management and accountability remain. We found that 
VA's BDD timeliness measure excludes time spent and claims 
development prior to a servicemember's discharge. Thus, VA has 
limited information on a frequently problematic phase of the 
process.
    Conversely, claims development activities are included in 
VA's timeliness measure for traditional claims. Personnel, 12 
of the 14 intake sites we reviewed, noted significant claims 
development challenges, including difficulty in scheduling and 
completing exams and gathering additional medical evidence. We 
continue to believe that tracking the time and resources spent 
on claims development could help VA mitigate any barriers to 
program efficiency and servicemember participation.
    We also found that VA implemented two key initiatives, 
consolidation of BDD claims processing activities in two 
locations and paperless claims processing, without fully 
evaluating their effectiveness over prior practices.
    While we support VA's efforts to achieve greater 
efficiencies, we continue to believe ongoing evaluation is 
necessary to optimize results for these initiatives. And 
finally, we identified gaps of VA's monitoring activities for 
this program. At the time of our review, VA reviewed BDD 
operations in only 16 of 40 Regional Offices and reviewers 
rarely examined these cases to ensure they were properly 
developed and they lacked protocols to do so. Per our 
recommendation, VA has since taken steps to increase the scope 
and quality of site visits.
    In regard to improving servicemember access to expedited 
services, VA and DoD have taken a number of actions, most 
notably establishing the Quick Start Program for 
servicemembers, such as National Guard and Reservists who are 
generally unable to complete the BDD application and medical 
exams prior to discharge.
    We have recommended and VA has begun to collect additional 
data to assess whether Quick Start is meeting servicemember 
needs. However, as with BDD, VA has no plans to track the time 
spent developing these claims.
    VA and DoD have also coordinated to increase program 
awareness of BDD and Quick Start through VA benefit briefings 
and DoD has established an 85 percent participation goal for 
those briefings. However, our work shows that DoD needs better 
metrics for capturing servicemember participation, as well as a 
service delivery plan for meeting its targeted goal.
    Despite these efforts, during our site visits, we 
identified numerous implementation challenges associated with 
local DoD and VA agreements intended to prevent redundancies 
and servicemember inconvenience in obtaining required medical 
exams. These challenges were often due to turnover on base 
command, communication breakdowns and resource constraints, 
sometimes resulting in multiple unnecessary medical exams and 
delayed claims development.
    However, in response to our findings and recommendation, VA 
and DoD have begun to explore local office best practices to 
address challenges to the cooperative exam process.
    And in closing, I want to strongly emphasize that at a time 
when so many servicemembers are being discharged with injuries 
and the current conflicts in Iraq and Afghanistan, 
opportunities exist to improve, both, the BDD and Quick Start 
programs as long as both VA and DoD maintain a sharp focus on 
accountability and follow through on recommended actions.
    Mr. Chairman, this concludes my remarks. I am happy to 
answer any questions you may have. I am within my time.
    [The prepared statement of Mr. Bertoni appears on p. 28.]
    Mr. Hall. Good job setting an example for all witnesses to 
come.
    Mr. Bertoni. I've set a high bar.
    Mr. Hall. And maybe for the Chairman himself.
    Thank you, Mr. Bertoni. You point out that VA has 
established only one performance measure for BDD and Quick 
Start programs, which is tracking participation in the 
programs. VA does not track for these claims, as it does for 
general compensation claims, how much time a veteran has to 
wait for a final decision, the average days that it takes to 
complete all work to reach a final decision or the percentage 
of claims with no processing errors.
    How do you think additional performance measurements, such 
as those mentioned, could assist VA in fully implementing these 
programs?
    Mr. Bertoni. I think the rationale is that they had the 
STAR-review process, which is a systematic technical accuracy 
review where they sample a number of cases. Our concern is that 
this review is not capturing enough of these type of 
specialized cases to give them a good enough reading on what is 
going on.
    So in general, you need good management information data to 
improve your program. You need to know how accurate your cases 
are, how consistent you are rating cases, how much time they 
are being taken to be processed, how long they sit in a 
particular phase.
    Right now, there are three entry points for getting VA 
benefits, the traditional method, the DES--the DoD VA 
Disability Evaluation System pilot, which down the road might 
go worldwide, and there is BDD and Quick Start. For the other 
two programs, I can look at the metrics and I can track from 
time of entry, from time of application to the time those 
benefits are delivered and get a good sense of what is going on 
at all phases. That is not the case with BDD and Quick Start.
    Mr. Hall. Your testimony also notes that VA tracks days it 
takes to process traditional claims starting with the date that 
a veteran first files a claim. Whereas, it tracks days to 
process BDD claims starting with the date of discharge of that 
servicemember. This approach does not count the time that VA 
spends developing the claim while the servicemember is still in 
active duty or still under the DoD's purview.
    The VA claims it does not measure the full claim processing 
time because it lacks legal authority to provide compensation 
until a servicemember is discharged and becomes a veteran. Do 
you have any suggestions that might allow VA to track the time 
to process the entire disability claim, including that time 
before discharge and how might this improve the BDD and Quick 
Start programs?
    Mr. Bertoni. Absolutely. I agree they don't have the legal 
authority to pay the claim but they have the legal authority to 
develop the case, and if a person applies for benefits while a 
servicemember, the clock ticks, the VA representatives develop 
that case, it gets to a point where it is rating ready and you 
stop the clock. So if that is 1, 2 or 3 months, that is the 
development phase.
    Six months down the road, once that person discharges, the 
clock starts again. That is the rating phase, whatever that 
takes, the 76 days. We put those two pieces together. That is 
development. That is the entire time for the case to be 
developed. So it is not a matter of not having legal authority 
to pay. They can develop a case before they are able to pay. It 
is a matter of doing it.
    And again, it is happening with the DES pilot right now 
between DoD and VA. They are tracking from date of referral to 
date of payment and it is possible and we believe it is 
reasonable for them to be doing, to make this process more 
transparent, and it is certainly to give them the metrics and 
the data that they can make adjustments down the road.
    One thing they have not been able to do is to reach their 
60-day optimal goal at the back end. Perhaps that is due to 
problems at the front end with development, but they are not 
tracking it, they are not looking at it. If they were, they 
might be able to make the adjustments to reach that 60-day goal 
at the front end.
    Mr. Hall. Right. Well, thank you, sir. We have a few 
examples that have come before the Committee and the 
Subcommittee where VA and DoD have maybe not been as 
cooperative or may not have allowed the overlap of work to 
happen that would enable a seamless transition in several 
different areas, and since we have representatives from both 
DoD and VA here, maybe we will get a chance to talk about that.
    But you note in your testimony that most VA and DoD 
Memorandums of Understanding (MOUs) require a VA physician to 
administer the joint physical exam required by BDD and Quick 
Start. You also mentioned that only 7 percent of those MOUs 
surveyed permit disability exams to be administered by either a 
VA or DoD physician. Do you suggest that MOUs need to be 
expanded to permit DoD physicians or contracted physicians to 
conduct these exams as well as VA docs? How does the 
effectiveness of this program suffer as a result of this 
limitation?
    Mr. Bertoni. I think, again, I will just hearken back to 
the pilot, the DES pilot, though that is right now basically, 
it is primarily the exams are coming from VA staff. Even in 
this program, I think 90 percent of the exams are being 
conducted by either VA staff or contracted with VA. I think the 
thinking is they have the broader expertise to assist in making 
the fit/unfit decision for the military, but also to assess and 
compile all the other potential injuries that that person might 
claim down the road for VA benefits.
    At the same time, there is leeway in those agreements for 
DoD physicians, DoD contractors or some type of hybrid approach 
between VA and DoD to do, sort of, share those duties.
    I think that what it comes down to in a lot of respects is 
resources. And right now VA has stepped up and I am not sure if 
they have asked or what the dialogue is between VA and DoD as 
to expanding the role on DoD's end.
    Mr. Hall. Well, the dialogue between Secretary Shinseki and 
Secretary Gates has certainly been, I think, at a deeper level 
and a more cooperative level than what I have noticed in 
previous cases of Secretaries of both Departments. Hopefully 
that cooperative relationship will translate down through both 
Departments.
    You also noted in your testimony that VA has implemented 
two initiatives to improve BDD and Quick Start, but that they 
did not fully evaluate either. These include VA's consolidating 
claims, processing activities into two regional offices and 
creating a paperless claims processing system. Do you know why 
VA has not evaluated these measures and what the implications 
might be of not doing that?
    Mr. Bertoni. I think the position was that they--I think in 
one of the meetings, as far as the electronic processing goes, 
it was a proof of concept. It appeared to work. We decided to 
rule it out. And now that is ruled out, it didn't make any 
sense to go back, cease and desist and evaluate it. We gave 
them that. At the end of the day we said that is fine, but we 
still think that you need to go back in and develop an 
evaluation plan for both of these efforts: What level of 
performance are you shooting for; what metrics are you going to 
measure against in terms of how you are trending; and, 
ultimately, how are you evaluating this?
    This is basic principles of pilot planning, basic 
principles of business reengineering processes. We didn't see 
it. We would hope that they agree to look at this and monitor 
it. I don't know what they are doing right now, but I believe 
they have gone back and are looking at some of the aspects of 
both of those programs. Our recommendations are open. Down the 
road we will look further into it and see if we can close them 
out.
    Mr. Hall. Thank you.
    Mr. Rodriguez, would you like to ask a question?
    Mr. Rodriguez. Yes. Thank you. Let me first apologize for 
being late.
    Let me ask you--I know you have addressed this issue many 
times in the past from the GAO perspective and made 
recommendations and we have had a lot of difficulty in the 
transition between DoD and VA. We have pumped in a lot of money 
trying to get the DoD and the VA to come together and I think 
somebody explained that DoD has another great system; however, 
and the VA has a great system, they just don't talk to each 
other. I was wondering if you had any thoughts about what we 
need to do next after my 12 years on the Committee, this 
dialogue occurred even before I arrived here. What do we need 
to do to or what kind of studies do we need to do to get us to 
the next level?
    At one point we had talked about getting a private entity 
to come in from the outside and try to do the same first and 
now, as you have done, the GAO reports indicate a number of 
areas where a variety of programs could be tracing data more 
effectively. What other GAO studies could be utilized that 
would give us a better handle as to how to do this? From your 
perspective, what other GAO studies or reports could be helpful 
for us coming to grips with this and now moving forward with 
the VA and trying to get it to the next level?
    Mr. Bertoni. Okay. Let me just say, we have been at the 
ground floor at both the DES the pilot, as well as looking at 
the BDD program for quite some time. So I would say, in terms 
of two large bureaucracies coming together and trying to merge 
or meld two processes that, I think, both think they do very 
well, I think there are just external forces--Walter Reed, the 
current wars, oversight on your part, GAO--basically involved 
here are sort of, I don't want to say forcing, but helping them 
to work together. And I could say in, both, the BDD program as 
well as the DES pilot, there is a lot of cooperation between 
the two entities, not always consistent in terms of how they 
view every aspect, but I would say, very productive in terms of 
their cooperation.
    In terms of information, we have received and the 
cooperation we have received in both those efforts, it has been 
exceptional, so I just want you to know that.
    I think, as far as further improvement, these two programs, 
the BDD and the DES pilot, they are very close, so I am sorry--
I know it is BDD, but I want to bring that in also.
    They just need to keep working to sort of, to refine the 
machine, and I think this report that we issued, we essentially 
said BDD and Quick Start is a good program. It has many 
positive attributes. It just needs to be refined and tweaked. 
And if you do some of these things, it will be a better program 
in terms of service delivery.
    In terms of other reports, we have a body of work. I would 
much rather think about that and perhaps submit something to 
you at a later time.
    Mr. Rodriguez. I would like to see those ideas because a 
lot of times you react to what we come out with but you might 
have a better feel as to what might be helpful to improve 
services as we provide more resources. And at some point we 
felt, and we should have for good reason that we weren't 
providing them with the necessary resources.
    But as we move forward with resources, we expect them to be 
held accountable. Can you provide me or the Chairman, with some 
ideas as to how we can go about additional studies that could 
be done to allow for more recommendations and how best to do 
this?
    Because as elected officials, our biggest problem is not 
only the bureaucracy out there, but I am sure that this is the 
same case for the Secretary.
    Mr. Bertoni. Sure and, just, I am in the process now of 
drafting a report for this Committee, looking at training for 
VSRs and RVSRs. That is going to be very important in terms of 
the fact that they have hired 4,200 staff over the last several 
years. These folks are the folks that are being placed in these 
rating centers, in these processing centers. They are the ones 
that are going to have to move this work, are crucial to 
accuracy, consistency and timeliness of the work.
    So I think that is an important piece we are doing it. We 
will be out shortly. We also have some work. We just issued and 
under way, looking at how they can expedite the backlog 
problem, so I will have my staff get in contact with you.
    Mr. Rodriguez. With the understanding that, we have only 
dealt with about 8 million veterans from 23 million in the 
country, we have to continue to push forth on the outreach to 
our veterans. Okay. Thank you.
    Mr. Bertoni. And the BDD program is a good tool for the 
outreach and education to sort of bring that service into play 
earlier in the servicemember's life.
    Mr. Hall. Thank you, Mr. Rodriguez. I would just say that I 
think we all are in agreement that these are good programs that 
are positive steps for our veterans and we are trying to figure 
out how to make them better.
    As part of that quest, and noting that VA has created a 
pre-discharge Web site so that servicemembers can initiate 
Quick Start or BDD claim electronically, I wanted to ask you in 
closing whether you think this paperless system should be 
expanded to permit all claims to be processed or initiated 
electronically. How much effect do you think that would have 
upon the stubborn claims backlog?
    Mr. Bertoni. In terms of having accessibility via the Web 
site, I think that is--all modern business is heading in that 
direction. You know, commerce and transactions, that is how it 
is happening today. We have servicemembers coming back, these 
young individuals who have, you know, they are very familiar 
with that kind of public service delivery. So any time you can 
do that, open up another portal for quick service, we would 
support that.
    We have not got in and looked at the actual functioning of 
that system, so the jury's out there.
    What was the other part of your question?
    Mr. Hall. That was it. Thank you.
    Thank you, Mr. Bertoni. I appreciate very much your 
testimony and look forward to your next progress report, and 
you are now excused with our gratitude.
    Mr. Bertoni. We will follow up on recommendations and keep 
you apprised.
    Mr. Hall. We will absolutely try to do our best.
    Because of scheduling and travel plans, we are going to ask 
the Honorable Noel Koch, Deputy Under Secretary of Defense, 
from the third panel, to come up and be our next panel all by 
himself. He is the Under Secretary for Wounded Warrior Care and 
Transition Policy at the U.S. Department of Defense, and we 
will just take you, Mr. Under Secretary, out of order so you 
can make your plane.
    As usual, your statement is a part of the written record of 
this hearing, so feel free to improvise as you wish for 5 
minutes.
    You are now recognized, sir.

   STATEMENT OF HON. NOEL C. KOCH, DEPUTY UNDER SECRETARY OF 
  DEFENSE (WOUNDED WARRIOR CARE AND TRANSITION POLICY), U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Koch. Thank you, Mr. Chairman, and thank you very much 
for your consideration and realigning the witnesses. It is a 
great pleasure, as always, to be before this Committee, and as 
you already have my testimony, this is, of course, this is an 
area in which we are, we are a junior partner and, in fact, 
with the Veterans Administration and happy to be.
    So our job and our responsibility is, for the most part, to 
make sure that our veterans--or not veterans but pre-veterans, 
people who are prior to separation, who will be separating, are 
fully informed on the programs and the benefits that are 
available to them.
    And so as Mr. Bertoni has indicated, this is very much a 
work in progress. The programs, themselves, are 
unexceptionable, I think. There is always room for improvement, 
but I think that the programs themselves are excellent. The 
question is, are we--how is it working on the execution side?
    So in the interest of improvement, one of the things that 
we did, as you know, I think, Mr. Chairman and Members, our 
responsibility is to focus on wounded warriors and their care 
and their transition either back to active duty or to veteran 
status. And of course, many of them do go back on active duty.
    And so that, it would appear that our charter is somewhat 
limited to those people and, of course, the programs that we 
are talking about are much broader and encompass all the 
servicemembers that we have.
    So, but, from the perspective, from the place that we stand 
in this process, we do touch, I think, morally wounded 
warriors, but everybody across the board.
    As you are familiar with the Transition Assistance Program 
(TAP), this was started during the Gulf War. It is 20 years 
old, or more than 20 years old now. And it was very much 
outdated and so last November we went away for a week, took 
this thing apart completely, along with our colleagues in this 
endeavor, and put it back together and updated it so that it 
accommodates people who are not very much, very well 
accommodated previously, our National Guardsmen and our 
Reservists who are very much engaged in the fight today.
    And so in other areas of communication, again, this seems 
to be the entire issue is how do we make our people aware of 
what is available to them. And I have now visited many, many 
hospitals and warrior transition units and met with hundreds 
and hundreds, literally of, just our clients and people we are 
responsible for, constituents, and it is a constant source of 
partly amazement and partly disappointment at how little aware 
they are. And so before we get to the challenging questions, I 
think we can stipulate that we are not doing as well in this 
communications effort. The numbers don't show it and the 
anecdotal revenues doesn't show it, and so we are working very 
hard to correct that and to find a way to communicate.
    And, Mr. Chairman and Members, you will appreciate this. 
This is partly a generational issue. They don't communicate the 
way people my age communicate. They don't refer to these thick 
manuals that we put out, that they are just chock full of 
information, which nobody reads.
    Even Web sites are becoming somewhat antiquated in the eyes 
of some of our younger servicemembers and so we have, and I 
have indicated in my testimony, we are moving into social 
media, such as Facebook.
    It is very successful. We have two Marines on the space 
station who are friends of ours on Facebook, and we have other 
people like this, and we are working with Twitter, and we are 
finding some success here.
    Now, how successful are we? These programs are too 
embryonic at this point for us to make a judgment to say, okay, 
we know this is working, the baseline still remains to be 
established and I am about to run out of 5 minutes, and so I 
will be happy to take your questions. Thank you.
    [The prepared statement of Mr. Koch appears on p. 36.]
    Mr. Hall. Thank you, sir. I appreciate your work and your 
testimony and your brevity and also your written submission, 
during which, you point out that servicemembers learn of BDD 
and Quick Start programs during the TAP briefings.
    However, GAO states that only the Marines have made these 
briefings mandatory. We have learned that while DoD policy 
requires commanders to allow servicemembers to attend TAP 
sessions upon the Member's request, in some cases 
servicemembers have not been released from their other duties 
in order to attend TAP briefings.
    So given this, why are the TAP briefings not made mandatory 
for all of the service branches? And further, why not make BDD 
and Quick Start available for all servicemembers as a part of 
the normal discharge process?
    Mr. Koch. Let me answer the first part of your question, 
Mr. Chairman, first. This--you have touched on a very sore 
point here, and it is a sore one with me particularly because 
we would like to make just about everything that constitutes a 
benefit or a prospective benefit for the servicemembers 
mandatory, for them to be aware of these things.
    And in some cases we have been successful in making that 
happen. In other cases we have not. There are contravening 
priorities here. In some cases, you know, we have limited 
manpower and where some of these things can be done in theater, 
they are also fighting a war in theater, and so it becomes 
difficult to persuade the higher authorities to make certain 
programs mandatory because the commanders object to that, and 
so to some extent it becomes almost a local option.
    We want it to be mandatory for the servicemember to have, 
to be able to be told about it, and then if they want to avail 
themselves of the additional information to be briefed or 
counseled, whatever arrangements are provided for them, then 
their commanders, it should be mandatory for the commanders to 
release them so that they can avail themselves of this benefit. 
We have not, in every case, been able to do that, and I think 
we will just continually chip away at it.
    I am sorry. The second question, I believe, was why are the 
benefits delivery in Quick Start not available to all of them. 
Quick Start, as you know, essentially focused more on the 
benefit accrues to the Reservists and that National Guardsmen, 
more usefully than to our active components. And the reason for 
it is, of course, they don't know. There is a shorter fuse on 
this, a shorter timeline for them to get into the system and 
the reason is because they don't necessarily know when they are 
going to be up for rotation.
    As far as the BDD is concerned, this is available to 
everybody. It is just that not everybody needs to have these 
benefits. They are not necessarily all hurt in any way that 
would give them access, and in other cases they just don't want 
to bother with it. And the third case, as I indicated in my 
oral testimony, in some cases I am sure there are people that 
simply don't know about it because we have failed to reach 
them.
    Mr. Hall. Well, I appreciate that. I think we all share the 
goal that you just stated of having the knowledge of these 
programs made available and passed on to every servicemember, 
be they active duty, Guard or Reserve.
    I am still curious as to why the Marines have made the 
Transition Assistance Program briefings mandatory and the other 
services have not. I don't know. Maybe we need to get that 
answer from somebody else. But it is two schools of thought 
obviously.
    The Quick Start program was created to ensure that our 
soldiers serving in active duty who come from Guard and Reserve 
units can also take advantage of the benefits of the pre-
discharge program. Are we offering Quick Start at Guard bases? 
In particular, I am curious whether my own constituents 
serving, for instance, in the National Guard at Camp Smith and 
New York and the Hudson Valley, can get a Quick Start exam when 
they return and demobilize there?
    Mr. Koch. Mr. Chairman, I think I am going to have to get 
back to you on that question because I think it is a split 
issue. In some places it is available and other places it is 
not available.
    [The DoD subsequently provided the following information:]

     The Department of Veterans Affairs provides information on the 
Quick Start program at military installations where demobilization/
deactivation of National Guard and Reserves takes place and there is a 
VA presence. National Guard and Reservists can file their Quick Start 
claim while still on Active Duty; however, the examination to meet the 
requirements of Quick Start cannot be accomplished in the limited time 
during demobilization/deactivation.

     Once the servicemember has completed and submitted the Quick Start 
application a VA representative can schedule the member for the Quick 
Start examination prior to their release from Active Duty. The actual 
examination occurs after the servicemember has returned to home 
station.

    Mr. Hall. Maybe when you get back to us because other 
Members, I am sure, would like to know for their districts, how 
that decision is made and what, you know, what percentage of 
bases and where they are and, you know, how is it decided that, 
you know, which base will have a Quick Start examination 
available.
    And lastly, I want to ask you, the Subcommittee has taken a 
particular interest in servicemembers suffering from post-
traumatic stress disorder (PTSD), traumatic brain injury (TBI) 
and military sexual trauma (MST) to make sure that they receive 
the benefits to which they are entitled. The full VA Committee 
on the House side has examined how some servicemembers 
suffering from these disabilities take their own lives before 
they get help, or in spite of getting help, or tragically, we 
have a record number of veterans and soldiers who are still in 
uniform committing suicide or attempting suicide.
    With this in mind, could you offer some thoughts about the 
steps we are taking during the pre-discharge process to screen 
for PTSD, TBI, MST and possible depression or other 
psychological states that might lead to suicidal tendencies?
    Mr. Koch. Yes, sir. Let me try to provide a blanket answer 
to that if I may. We try to screen for these disabilities 
before the servicemember moves on to--for example, when they 
come back from theater, they are tested to see if they are 
exhibiting symptoms of post-traumatic stress or other 
psychological and mental health issues that might be 
debilitating. And we just don't have our arms around it. I am 
sorry. Again, I could probably give you a very eloquent long 
answer that wouldn't make a whole lot of sense and by the time 
you distilled it, it would come down to the fact that we are 
still just not very good at this.
    One of the problems is, I can tell you in my generation 
coming back from Vietnam, there are a lot of things that people 
look for in terms of symptoms, maybe symptoms of post-traumatic 
stress, but they also may be symptoms of the fact that you are 
just coming home hot, you don't want to be here in many cases. 
You know, you want to be back down range, you want to be with 
your unit, you want to be with your friends, you don't want to 
face the complexity of the life that you are going back to.
    There are a lot of reasons why people come home in ways and 
upset and exhibit symptoms that may be construed as post-
traumatic stress or other--you know, TBI is the result of, you 
know, that is different. We know what that is. But diagnosing 
post-traumatic stress is a very--is a problem of a different 
magnitude and while the symptoms that you are looking at really 
are not symptoms, but are being misread, that does not preclude 
that individual from suffering from post-traumatic stress 15 or 
20 years later and you are not going to catch it at the front 
end.
    And so where we have very good as it--dealing with 
traumatic amputations, providing the necessary prosthesis, the 
counseling and everything that helps people get back on their 
feet after they have lost their legs. We can do that. And even 
traumatic brain injury is something that we know we can work 
with this to some degree of feeling like we are making 
progress. In the area of post-traumatic stress, I don't know 
that anybody is going to come up there and say, they are pretty 
happy, I think we have finally got our arms around it. If they 
tell you that, you know, you ought to have them under oath.
    Mr. Hall. I appreciate your candor and honesty, sir. And it 
is nice to hear anybody from government or business or anywhere 
say, honestly, we don't have our arms around it. This is 
something that we all are trying to improve as much as 
possible, but nobody at this point, I don't think, expects that 
we will have a foolproof way of identifying those people in 
that kind of trouble.
    But before you leave, I just wanted to ask if you have any 
suggestions or approaches that you are trying or that you 
suggest that we might, on the Congressional side, be able to do 
to help make that identification?
    Mr. Koch. Well, your funding is--at least we are happy with 
our fundings. That may be something, if you are people tell 
you, that we are satisfied with what we have, we are satisfied 
with your support, we are grateful for your questions and for 
your--because it stimulates our thinking.
    There is one thing that, I guess, you and all of our 
colleagues could help us with and, you may notice when you hear 
Admiral Mullen or other senior military leadership talk about 
the problem that we just finished discussing, they don't refer 
to disorder and I would like to see if we could, first, if we 
could get this out of the Diagnostic and Statistical Manual of 
Mental Disorders manual.
    When we talk about post-traumatic stress disorder, we are 
automatically creating a problem for that individual, because 
it is a term that connotes dysfunctionality, it connotes 
something that is weird, if you like, in that person, and that 
is a great disservice to the individual because when you begin 
with the notion that it is a disorder, which I think it should 
not be called that, then you get quickly to this issue of 
stigma, which is just a kinder word for prejudice and it is a 
short jump from prejudice to discrimination in a job market and 
these people shouldn't----
    Mr. Hall. Thank you, sir. You are echoing the statement of 
a father of a young veteran who took his own life who testified 
before this Subcommittee and suggested that it be called post-
traumatic stress injury or post-traumatic stress syndrome which 
it use to be. Anything but disorder because of the fact that it 
attaches a stigma to it.
    Mr. Koch. Thank you.
    Mr. Hall. To what is actually a human response to an 
inhuman experience or living through conditions and events that 
most human beings don't have to deal with.
    So I appreciate your testimony and your suggestions and I 
hope you have a safe travel, sir. Thank you very much for your 
testimony.
    Mr. Koch. Thank you, Mr. Chairman.
    Mr. Hall. Mr. Under Secretary, you are now excused.
    Mr. Koch. Thank you, Counsel.
    Mr. Hall. I will go back to our scheduled program and ask 
Panel 2 to join us now, please, including Thomas Tarantino, 
Legislative Associate, Iraq and Afghanistan Veterans of America 
(IAVA); Gerald T. Manar, Deputy Director of the National 
Veterans Service, Veterans of Foreign Wars of the United States 
(VFW); Raymond C. Kelley, the National Legislative Director of 
AMVETS; and Mr. John L. Wilson, Assistant National Legislative 
Director for Disabled American Veterans (DAV).
    Gentlemen, thank you for your patience. Your written 
statements are in the record, and Mr. Tarantino, you are now 
recognized for 5 minutes.

STATEMENTS OF THOMAS TARANTINO, LEGISLATIVE ASSOCIATE, IRAQ AND 
   AFGHANISTAN VETERANS OF AMERICA; GERALD T. MANAR, DEPUTY 
 DIRECTOR, NATIONAL VETERANS SERVICE, VETERANS OF FOREIGN WARS 
 OF THE UNITED STATES; RAYMOND C. KELLEY, NATIONAL LEGISLATIVE 
   DIRECTOR, AMERICAN VETERANS (AMVETS); AND JOHN L. WILSON, 
  ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, DISABLED AMERICAN 
                            VETERANS

                 STATEMENT OF THOMAS TARANTINO

    Mr. Tarantino. Mr. Chairman, thank you very much and on 
behalf of Iraq and Afghanistan Veterans of America's 180,000 
members and supporters, I would personally like to thank you 
for the opportunity to speak before you today and express our 
views of our membership on some very important issues.
    As an Operation Iraqi Freedom veteran with 10 years of 
service in the Army, I have seen firsthand the difficulties 
many face when transitioning from being a servicemember to a 
veteran. For the wounded warrior torn from service due to their 
extraordinary sacrifice, or the young veteran who spent most of 
their formative years in uniform, the transition can be very 
difficult. And all too often, we leave behind the structured, 
accessible care and benefits of the military when seeking 
benefits to the Department of Veterans Affairs, where we are 
left largely on our own devices.
    In response to the need for a more seamless transition from 
servicemember to veteran, the VA and the Department of Defense 
have embarked on several initiatives that allow servicemembers 
to walk off post with their benefits in hand. However, the 
potential of these programs has yet to be fully realized. And 
their full impact will not be felt until the VA begins 
aggressive outreach to servicemembers and the DoD makes 
transition programs uniform and mandatory.
    When I left the Army in 2007, I had absolutely no idea of 
the scope and availability of the benefits that I was entitled 
to as a veteran. In fact, it never even occurred to me to seek 
benefits and health care from the Department of Veterans 
Affairs just for the general wear and tear of a decade of 
military service. If it weren't for an old Sergeant Major that 
was attending the Army Civilian Alumni Program with me, I would 
have never even applied.
    And we cannot rely on word of mouth to spread this 
information. The DoD and the VA must integrate their outreach 
and ensure a smooth transition of services before a 
servicemember is ready to leave the uniform behind. Otherwise, 
more men and women are going to fall through the cracks.
    Now, as you mentioned, the Marine Corps mandates TAPS 
programs, I believe, within 90 days of separation, and the Army 
conducts their Civilian Alumni Program within 30 days of 
separation. Both of these programs are useful for what they 
are, but they really begin far too late to utilize the Benefits 
Delivery at Discharge Program. And neither program has 
comprehensive or mandatory briefings about the availability of 
VA services.
    The VA must begin to see itself as a military alumni 
program. Many of us remember that guy in the cheap suit from 
our college alumni society who greets us on freshman year and 
continues to pester us throughout college and for years 
afterward. It may have been kind of annoying, but the message 
was communicated clearly and it was consistent. The VA needs to 
be communicating at least that effectively with our veterans. 
There should be absolutely no excuse for any veteran not 
knowing what services are available to them when they separate. 
And only when the VA integrates its outreach and education 
efforts with the DoD will benefits programs reach their full 
potential.
    Now, early outreach also requires VA boots on the ground. 
To effectively utilize Quick Start services the VA must have a 
presence, physically, at all military installations in order to 
provide access and information to the benefits and services 
that servicemembers have earned. Additionally, the VA should 
offer training to AGR members of the National Guard and Reserve 
so that there can be benefits counselors and educate 
servicemembers who do not have the same interaction with the 
military services as do their active duty counterparts.
    Just as the VA must rethink the way it conducts outreach, 
the DoD must understand that it has an inherent responsibility 
to its servicemembers to set them up for success whether they 
retire from service or they choose to leave before retirement. 
The military is a lifestyle. It is not a job. And those who 
choose this life must be afforded every opportunity to excel 
both while in uniform and when they put the uniform away. The 
DoD must mandate comprehensive and structured Transitional 
Assistance Programs that integrates the VA benefits and 
services.
    Now, in addition to integrating outreach and training, we 
also need to address the expedience and accuracy of the 
benefits process. The Benefits Delivery at Discharge Program 
generally provides more accurate and timely benefits to 
separating servicemembers than the standard benefits approval 
process. However, this is largely due to the co-location of the 
servicemember with their respective records and the DoD medical 
facility.
    Many of the processing issues that plague the standard 
system still do exist, but they are mitigated by the fact that 
the servicemember is still in uniform, has full access to DoD 
care and services while waiting for their rating, thus reducing 
the time it takes to develop their claim during these programs.
    I think we all know that receiving a disability rating at 
the VA can be a long and confusing process for a veteran. And 
often, veterans must wait for a rating that does not accurately 
reflect what they are entitled to. The VA currently uses a 
disability evaluation process that was outdated long before 
many Iraq and Afghanistan veterans were even born. And this has 
lead to a situation where hundreds of thousands of veterans 
must navigate an antiquated system that focuses on quantity 
over quality of processed claims. And consequently, 17 percent 
of cases do not accurately compensate veterans for their earned 
benefits. And as we all know, this leads to months, if not 
years, of delayed payments.
    And IAVA applauds some of the innovative initiatives that 
the VA and the DoD have undertaken to solve this problem, such 
as the pilot that integrates the Virtual VA into the Benefits 
Delivery at Discharge process and the Six Sigma pilot at the 
Little Rock Regional Office for the traditional claims process.
    But now it is time to take it to the next level. You know, 
the Virtual VA is a step in the right direction, but it has to 
integrate with the Veterans Health Administration as well as 
the Board of Appeals process if it is ever to be actually 
effective. And informational Web sites, VA.gov and within the 
DoD are great, but today's veteran expects services through 
their Web sites in addition to information.
    Mr. Hall. Mr. Tarantino if you would summarize with these 
bullet points and----
    Mr. Tarantino. I mean basically----
    Mr. Hall. I appreciate it. Thank you.
    Mr. Tarantino. Basically, IAVA, along with the other 
veterans organizations, are pushing to reform the disability 
process as a whole. We want to change the work culture at the 
VA to emphasize quality over quantity, we want a modern 
information technology (IT) system, and we want a more 
transparent application process where that emphasizes customer 
service and removes unnecessary steps.
    Thank you very much for the opportunity.
    [The prepared statement of Mr. Tarantino appears on p. 38.]
    Mr. Hall. Thank you, Mr. Tarantino. I am sorry to interrupt 
you, but we have votes coming up and I am hoping to get all of 
our panelists' testimony before that happens.
    Mr. Manar, you are now recognized.

                  STATEMENT OF GERALD T. MANAR

    Mr. Manar. Mr. Chairman, thank you for this opportunity to 
speak before the Subcommittee. On behalf of the 2.1 million men 
and women of the Veterans of Foreign Wars of the United States 
and our auxiliaries, we appreciate the opportunity to present 
our views and concerns regarding the VA Benefits Delivery at 
Discharge and Quick Start Programs.
    In the past 20 years, DoD and VA have made significant 
strides to ensure that our newest veterans are better prepared 
for life after discharge than any generation of veterans that 
preceded them. Unfortunately, we believe that VA fails to reach 
tens of thousands of those leaving active duty and most members 
of the Reserve and National Guard. Further, the quality of the 
ratings given those warriors is often poor.
    The VFW began placing National Service Officers on select 
military installations in 2001. Today, we have nine Pre-
Discharge Claims Representatives serving servicemembers at 16 
military installations. We also have National Service Officers 
in San Juan and Las Vegas who work at nearby military bases and 
help servicemembers who qualify for the BDD and Quick Start 
Programs. Last year our service officers briefed over 14,400 
servicemembers and helped over 8,400 file disability claims. 
They received over $9 million in benefits shortly after 
discharge.
    VA reports that it received 51,000 claims from the BDD and 
Quick Start programs in 2008, up from 47,000 the year before. 
Further, it reports that nearly 60 percent of those it briefed 
filed claims.
    If 51,000 claimants represent 60 percent of those briefed, 
then VA is briefing only about 85,000 servicemembers. However, 
with over a hundred thousand personnel leaving active duty and 
another hundred thousand released from the Reserves and 
National Guard each year, it is clear that a large number of 
those who serve our Nation are not receiving critical 
information through VA's outreach effort.
    The most interesting observation to be made from this data 
is that it appears VA is a victim of its own success. While 
51,000 claims submitted under the BDD and Quick Start program 
may constitute only a small part of VA's annual claims receipt, 
VA devotes a significant portion of its workforce to educating 
servicemembers, as well as developing and rating those claims, 
thereby reducing its ability to deal with the rest of the 
workload.
    We do not suggest that VA or DoD lessen their efforts in 
helping servicemembers prepare for life after the military. It 
is absolutely the right thing to do. However, it is important 
to recognize that doing so comes at a cost. We applaud Congress 
for encouraging these programs, and we support VA and DoD in 
their efforts to ensure that every servicemember has an 
opportunity to adequately prepare for their lives after 
discharge.
    As we see it, VA has several challenges to resolve if it 
hopes to increase the number of servicemembers it reaches and 
the quality of the service it provides them.
    There are too many servicemembers who are not adequately 
briefed about their benefits prior to discharge. Further, VA 
has been slow to expand the BDD program to additional 
installations. Since 2004, VA has expanded its presence at 
military bases from 139 to only 153 bases. VA must move more 
quickly to expand to other military installations.
    Veteran service organizations are critical partners in the 
BDD program. VA personnel often do little more than help 
servicemembers fill out a claim form. VFW service officers 
usually spend an hour with each servicemember, they go through 
the service treatment records page by page, identifying chronic 
problems which may be granted service connection and ensure 
that those conditions are documented on the application. 
Finally, they provide answers about what to expect in dealing 
with VA.
    As helpful as veteran service officers are, you would think 
that DoD would welcome us with open arms. Gaining the 
permission of DoD to work on base requires careful and extended 
negotiations with both base commanders and the VA. That's 
because VA does not anticipate that service organizations may 
be able to provide service officers to help. As a consequence, 
space, always at a premium, is often difficult to find.
    As VA and DoD expand the BDD program to other 
installations, we urge them to reach out to veteran service 
organizations to determine whether we're able to provide 
service officers to help them help servicemembers.
    Finally, in our experience, quality of disability ratings 
is no better in BDD and Quick Start cases than it is for other 
veterans. In November 2009, Winston-Salem, San Diego, and Salt 
Lake City, the offices where these claims are processed, had 
substantive error rates ranging from 17 to 22 percent. By VA's 
own admission, and we view these numbers with a great deal of 
suspicion based on our own experience, one out of every five 
decisions it makes are wrong.
    There are 29 Members in the House Veterans' Affairs 
Committee. If you all submitted claims for benefits from the 
VA, nearly six of you would have ratings which were in error.
    We encourage Secretary Shinseki and his management team to 
focus this year on changing the culture in the Veterans 
Benefits Administration (VBA) so that quality is the rule not 
the exception.
    I thank you for this opportunity to testify on these 
important programs, and I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Manar appears on p. 40.]
    Mr. Hall. Thank you, Mr. Manar.
    Mr. Kelley, you are now recognized.

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Thank you, Mr. Chairman. Due to time 
constraints, I'm going to limit my discussion to the BDD 
program only.
    Despite the fact that tens of thousands of servicemembers 
have used the BDD program at more than 150 locations, there are 
issues that must be addressed to improve the program, not only 
for the veterans who utilize it, but also for DoD and VA. If 
there continues to be impediments and inconsistencies in the 
departments that facilitate the program, it's value will be 
lost.
    The concept of a single separation physical seems simple 
enough; however, physicals can be facilitated by either DoD, 
VA, a contractor, or a combination of the three. The national 
agreement between VA and DoD sets guidelines for local MOUs 
that will determine who will be responsible for the physical. 
However, there have been some challenges at the local level in 
communicating and following the content of the local MOU.
    A 2008 GAO report found that more than half of all BDD 
intake sites visited had challenges in administering a single 
comprehensive exam. Often it was the lack of communication that 
failed to reach DoD personnel at the lowest level, therefore, 
duplicate exams continued to take place. Often local leadership 
and commands did not understand the program, and, therefore, 
ignored the MOU and continued to administer two exams.
    Resources were also identified as a challenge for local BDD 
facilities. In some locations, DoD physicians were not 
qualified to conduct exams that would meet both DoD and VA 
requirements. In other locations when DoD is required by the 
local MOU to conduct the exam, no provisions were put in place 
to accommodate the increase in time and resources it would take 
to conduct the exam.
    These and other issues make it difficult for bases offering 
BDD to meet time frames set by the program. These MOUs must be 
disseminated and understood by all personnel who are effected 
by the MOU to insure proper implementation. Also, if there are 
implementation issues, the MOU must be revised to better meet 
the needs of the BDD sites.
    Because VA does not control or enforce the local BDD sites, 
AMVETS believes VA cannot expect--cannot be expected to account 
BDD development time in their timeliness of claims process. 
However, AMVETS believes it is important to track the BDD 
process from intake so efficiencies can be identified and best 
practices can be developed. A plan should be put in place that 
will allow VA to track the development process of BDD claims 
and conduct periodic reviews so efficiencies can be determined.
    Enforcing--informing servicemembers of this program 
continues to be difficult. Again, local commands' understanding 
and support for the program greatly affect participation. If 
the military command does not see the value in the program, 
they will not be as likely to disseminate the information to 
the troops. VA and DoD must make a concerted effort to educate 
base command structures so there will be a buy-in to the 
program.
    The Transition Assistance Program should be an excellent 
way to communicate the BDD program to transitioning 
servicemembers, as well. However, only the Marine Corps 
mandates that TAP participates--participants attend the VA 
presentation. Since this portion isn't mandatory, 
servicemembers have the perception it isn't important, leading 
to low participation. The VA benefits portion of TAP should be 
mandatory.
    AMVETS also believes each regional office should have the 
authority to rate BDD claims. We understand that as a pilot 
program, it was practical to have only two offices rate these 
claims. But now with more than 150 intake locations, allowing 
ROs to rate claims should increase the timeliness of 
adjudication.
    AMVETS is also concerned that BDD enrollees must fill out 
different forms--BDD enrollees must fill out a different form 
than veterans who file a traditional claim. These are stark 
differences in the two forms--there are stark differences in 
the two forms, most notably the length of the form and the 
depth of the questions asked. The BDD form is shorter and lacks 
instructions. Also the respondent's burden of time for filling 
out the BDD form is half of that of the traditional form. This 
is due, in part, to the degree of explanation that is required. 
For example, each form asks the veteran to state what 
disabilities they are claiming. The BDD form provides a small 
block with only four notebook-style lines for the veteran to 
state their claim. But in the traditional form, the veteran is 
provided with an entire page asking for specific details. A 
study must be conducted to determine if providing 
servicemembers with a reduced form has any adverse effects on 
the development and the final rating of these claims.
    Mr. Chairman, this concludes my testimony. And I will be 
happy to answer any questions that you have.
    [The prepared statement of Mr. Kelley appears on p. 42.]
    Mr. Hall. Thank you, Mr. Kelley.
    Mr. Wilson, you are recognized for 5 minutes.

                  STATEMENT OF JOHN L. WILSON

    Mr. Wilson. Thank you, sir. Mr. Chairman and Members of the 
Committee, I am glad to be here today on behalf of the Disabled 
American Veterans to address the Department of Veterans Affairs 
Benefits Delivery Discharge and Quick Start programs.
    VA and DoD collaboration to establish single separation 
exam programs has generally been successful. According to a GAO 
report entitled, ``Better Accountability and Access Would 
Improve the Benefits Delivery at Discharge Program,'' of 
September 2008, and the February 2010 GAO report on the same 
subject, veterans may begin receiving benefits within 2 to 3 
months instead of the typical 6 or 7 months if they had applied 
after discharge under the traditional disability claims 
process.
    While the programs can generally be viewed as successful, 
there are concerns with performance measures and program 
management. For example, VA's FY 2009 Performance and 
Accountability Report, or PAR, has only one supporting measure 
for BDD and Quick Start. It does not separate BDD and Quick 
Start data despite their specific eligibility differences and 
population focus. VA also does not include BDD claim 
development time, as a rule, as was discussed earlier.
    While the timeliness of receipt of benefits after discharge 
is useful, excluding the time spent on development of claims 
makes it difficult to correct negative trends and adopt 
positive ones. This most recent GAO report draws the same 
conclusion as Disabled American Veterans.
    An important next step for a seamless transition of all 
military personnel would be implementation of a mandatory 
single comprehensive medical examination in order to complete 
military separation. It seems logical.
    The DoD and VA have made positive strides in transitioning 
our Nation's military to civilian lives and jobs at their work 
with the Department of Labor's Transition Assistance Program 
and Disabled Transition Assistance Program. These TAP and DTAP 
programs have improved but challenges remain. The prospect of a 
servicemember after multiple deployments returning stateside to 
be placed on medical or administrative hold has dissuaded some 
from going to these briefings and from filing disability 
claims. Also, while receiving information has improved, quick 
processing time may allow some individuals to fall through the 
cracks. This is of particular concern for DTAP participants 
where those with severe disabilities may already be getting 
health care from a VA spinal cord injury center despite still 
being on active duty. Since they are no longer located near a 
military installation, they are often forgotten in the 
transition systems process. DTAP has not had the same level of 
success as TAP, and closer coordination from the DoD, VA, and 
VETS is critical to improving this disparity.
    In conclusion, the BDD and Quick Start programs are a 
generally effective tool. Their effectiveness could be even 
greater should the DoD and VA incorporate our suggestions.
    It has been a pleasure to appear before you this afternoon. 
I will be happy to answer any questions you may have.
    [The prepared statement of Mr. Wilson appears on p. 43.]
    Mr. Hall. Thank you very much, Mr. Wilson. And I will ask 
each of you to answer this, if you would. Both BDD and Quick 
Start are generally considered to be successful programs and 
good ideas. That being said, if there was one thing you would 
change in these programs, what would it be? Mr. Tarantino.
    Mr. Tarantino. Mr. Chairman, I think you are correct. They 
are excellent programs, and they are great ideas. The fact that 
it took 12 years just to get to the not-quite full 
implementation is a little bit insane.
    I think if I would change that, I would roll it out 
completely, and I would make sure that every single 
servicemember knows that these programs exist and are able to 
easily apply for them, that it is command supported, and it's 
part of transition assistance, not just 60 or 90 days out, but 
6 months to a year out when they are actually looking at that 
decision, thinking about their retention options.
    Mr. Hall. Thank you. Mr. Manar.
    Mr. Manar. Well, I could say, ``Ditto,'' but let me expand 
on a couple of other things, and that is quality. As I spoke 
earlier, quality is really poor in the VA rating program. And I 
think if we could change one thing, it would be that the 
quality of rating decisions be improved substantially.
    No one in this room would even think about buying a car, 
for instance, where 20 percent of its parts were defective or 
where you had a chance that one out of every five cars would 
stop working as soon as you left the dealership.
    So I think the VA--the one thing we need here is vastly 
improved quality of rating decisions.
    Mr. Hall. Mr. Kelley.
    Mr. Kelley. I think that, to continue to add, having MOUs 
at the local level that work and insuring that those MOUs work. 
So if the DoD is tasked with providing these physicals, that, 
okay, that's what the MOU says, but do they have all the 
resources that they need on that base to facilitate that in a 
timely manner and with the resources that they need? And I 
think that's the biggest thing, and perhaps educating DoD 
leadership on the importance of this BDD program.
    Mr. Hall. Mr. Wilson.
    Mr. Wilson. Building on that, I would say mandatory 
physical exams. For active duty personnel, it's not a problem. 
For the Guard and Reserve, demobilization makes this difficult. 
But nonetheless, the resources should be made available to keep 
every Guardsman or Reservist on active duty--on active duty 
orders until they are able to get their separation physicals. 
At that time, and only then, should their paperwork be 
certified and they are eligible to then separate from the 
service.
    Mr. Hall. Okay. Thank you so much for your testimony. You 
have been most helpful. We will submit more questions to you in 
writing, if you don't mind. And I think we can move on with the 
information you have given us, and go to our final witness 
before these votes are called.
    So Mr. Tarantino, Mr. Manar, Mr. Kelley, and Mr. Wilson, 
you are all excused. Thank you, again, very much, for your 
service to our veterans.
    Our third panel now consists of Diana Rubens, Associate 
Deputy Under Secretary for Field Operations, Veterans Benefits 
Administration, U.S. Department of Veterans Affairs, 
accompanied by Mr. Bradley Mayes, Director of Compensation and 
Pension Service at the VBA, U.S. Department of Veterans 
Affairs. Thank you both for your patience and thank you to all 
of our previous witnesses for their concise testimony.
    Ms. Rubens, welcome and you are now recognized.

STATEMENT OF DIANA RUBENS, ASSOCIATE DEPUTY UNDER SECRETARY FOR 
   FIELD OPERATIONS, VETERANS BENEFITS ADMINISTRATION, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY BRADLEY G. 
  MAYES, DIRECTOR, COMPENSATION AND PENSION SERVICE, VETERANS 
  BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Rubens. Thank you, Mr. Chairman. Thank you for your 
support on the issues for veterans benefits.
    It is my pleasure today to discuss our ongoing nationwide 
Benefits Delivery at Discharge and Quick Start pre-discharge 
programs. As you mentioned, Mr. Mayes has joined me here today.
    These two programs are really just elements of our strategy 
to provide that transition assistance to separating or retiring 
servicemembers and to engage those servicemembers in the claims 
process prior to discharge. A pre-discharge claim is any claim 
received from a servicemember prior to release from active 
duty.
    VBA's goal is to ensure that each and every servicemember 
separating or retiring from active duty who wishes to file a 
claim with VA for a service-connected disability benefit will 
receive assistance in doing just that.
    We have talked a lot about the fact that the BDD program is 
open to servicemembers who are within 60 to 180 days of being 
released, as well as the Quick Start being available to those 
servicemembers with 59 days or less prior to separation.
    One of the things that I think is interesting is that 
during the fiscal year 2009, our BDD and Quick Start claims may 
have represented just 20 percent of all our original 
compensation claims received nationwide. But during the same 
period, approximately 65 percent of separating servicemembers 
who filed their claims within 1 year of separation came through 
the BDD and Quick Start programs. So we think that our profile 
using these programs has been high. We know that we'd like to 
improve it, but we think we're doing pretty well at this point.
    The timeliness for our processing for both BDD and Quick 
Start claims is much better than our general workload, and we 
believe that that is because we are getting that head start on 
the claim before that servicemember gets out of the Service.
    As mentioned previously, one of the things that we have 
worked to do is streamline the process by incorporating an 
imaging technology for the paperless processing of the BDD 
claims. Our BDD paperless processing began initially as a pilot 
in the Winston-Salem Rating Activity Site in March of 2006, and 
was expanded to the Salt Lake Rating Activity Site in March of 
2007. The goal was to paperlessly process our BDD claims 
through the entire life cycle from initial submission through 
adjudication and, if applicable, through the appeals 
resolution. The advantage to processing BDD claims in a 
paperless environment included reduction of time and cost 
associated with shipment of folders. In August of 2008, we 
began ensuring that all BDD claims were being sent to our 
scanning vendor so that they could be incorporated into the 
paperless environment.
    Talking about the environment that we are using today, what 
we recognize is that our existing Virtual VA architecture and 
configuration are not scalable for all C&P processing. 
Currently we are developing the Veterans Benefits Management 
System as an initiative to establish our large-scale effort so 
that we have an IT solution that will allow us to do all 
processing within that paperless environment.
    We have talked quite a bit about the outreach efforts and 
the things that we are doing jointly with DoD to ensure that 
servicemembers prior to release are getting information. In 
addition to having those brochures, the Web sites, and the 
folks out at the TAP and the DTAP sessions, I want to touch on 
the fact that we are continuing to expand the number of 
servicemembers we are reaching. In fiscal year 2008, there were 
roughly 300,000 servicemembers that, through the myriad or 
programs we have, received information on benefits prior to 
discharge. In fiscal year 2009, that number exceeded 360,000. 
So we are looking to continue to increase that exposure to 
ensure all servicemembers released from active duty are aware 
of the benefits that they have so richly earned.
    I am going to conclude with renewing our commitment to 
providing efficient and timely service to our Nation's 
veterans. We continue to evaluate the BDD and Quick Start 
programs to look for those improvements that we can accomplish 
with current technology, as well as new technology to further 
enhance benefits delivery under these important programs and to 
improve the veteran's experience.
    This concludes my testimony. I would be pleased to answer 
any questions you might have.
    [The prepared statement of Ms. Rubens appears on p. 47.]
    Mr. Hall. Thank you, Ms. Rubens. You are onto something, 
you and Mr. Mayes. And I think we are all impressed with the 
potential and also with what has been realized already with 
these programs.
    Your testimony points out that 65 percent of separating 
servicemembers who filed their claims within 1 year did so 
through BDD and Quick Start. My first question is would there 
be a benefit to keeping statistics of BDD and Quick Start 
utilization separately?
    Mr. Mayes.. Mr. Chairman, we are tracking the utilization, 
in other words, service personnel that are separating and 
filing their claims through the BDD program or the Quick Start 
program as a ratio of all of those servicemembers that are 
filing claims within a year. That is one of the things that we 
have worked with the Department of Defense to come up with a 
utilization rate measure. So we are doing that.
    And we have seen it increase through the years, as Ms. 
Ruben pointed out in her testimony, which we believe is a 
measure of the success. To me that says that we are getting the 
word out. The commands are making the servicemembers available. 
As you mentioned, and I think Under Secretary Koch mentioned, 
for the Marine Corps it is mandatory. We are continuing to push 
that through our collaboration with DoD through the Benefits 
Executive Council and the Joint Executive Council.
    So those are the kinds of things that we are doing, as you 
mentioned, in improving utilization.
    Mr. Hall. Right. Excuse me. There's 12 minutes left on the 
vote, and I just want to ask you a couple more questions, and 
then we will submit further questions in writing. But what do 
you think accounts for the other 35 percent who do not 
participate in the program?
    Mr. Rubens. I would tell you that I think that there are 
some servicemembers who, as they get out, feel as though they 
are healthy, that their period of service hasn't brought them 
to the point where they need to submit a claim.
    Mr. Hall. Okay. And thank you. Sounds like a reasonable 
assumption for many of them. We understand that there are 142 
BDD sites. Are there qualified physicians available to do BDD 
exams at all those sites?
    Mr. Mayes. There are actually 131 sites that are covered by 
a formal Memorandum of Understanding, 95 total MOA. We are 
doing the single separation exam at 153 sites. So there is 
capacity to do those single separation exams at all of those 
sites. As we mentioned, and I think you mentioned in your 
opening statement, servicemembers can still file claims through 
the Quick Start program even if they can't get the single 
separation exam at that site.
    Mr. Hall. What help can we in Congress give you to expand 
BDD and Quick Start?
    Mr. Mayes. Mr. Chairman, I think that Congress help us get 
the word out. We delivered pamphlets. You clearly have a good 
grasp of the program. I think that is helpful. When your staff 
and your local offices understand this program, they have an 
opportunity to interact with veterans, Guard, and Reserve 
units, helping us to continue to do that.
    And as Under Secretary Koch said, us presenting here before 
you and answering these questions forces us to take a look at 
what we are doing. We are going to continue to collaborate with 
the Department of Defense to push so that we have access to 
active duty and Guard and Reserve members service personnel 
before they get out. We would love to see mandatory TAP so that 
we have that opportunity to educate people that are leaving the 
service.
    Mr. Hall. Thank you, Mr. Mayes. And I have one last 
question is regarding the GAO report, which noted a failure to 
effectively track the accuracy of claims that are processed 
through these specific programs. Does the VA view this as a 
significant concern and are there any potential complications 
involved in tracking these programs separately?
    Mr. Mayes. We do look at a valid sample of decisions 
requiring a rating determination for each regional office 
around the country. It is a valid sample, 256 cases per 
regional office per year. That would include the Rating 
Activity Sites at Winston-Salem, Salt Lake, and the site in San 
Diego.
    So within that sampling are cases that are worked through 
the BDD program. All of the sites where there is consolidated 
processing actually had higher quality on average than the 
nationwide average. So we felt that through that National 
Quality Assurance Program that we were capturing how well they 
make an entitlement determination. In the end, the entitlement 
determination for a BDD or a Quick Start claim is grounded in 
the same requirements, the same regulations, the same rules as 
any other claim. So we felt we were properly evaluating the 
quality for those sites.
    Mr. Hall. Well, thank you, Ms. Rubens and Mr. Mayes, for 
your work for our veterans and servicemembers and for your 
testimony today. The Subcommittee may have further questions 
that we will submit in writing to you. Those Members who were 
unable to be here today may have questions, but I want to note 
that there are 5 legislative days for other Members to make 
remarks or submit questions for the record. And thank you to 
all of our witnesses today.
    This hearing is now adjourned.
    [Whereupon, at 3:27 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


           Prepared Statement of Hon. John J. Hall, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs
    Good afternoon.
    Would everyone please rise for the Pledge of Allegiance? Flags are 
located at the front and back of the room.
    Ladies and gentlemen, we are here today to examine the Benefits 
Delivery at Discharge (BDD) and Quick Start programs, two components of 
the pre-discharge program established by the Departments of Defense 
(DoD) and Veterans Affairs (VA) to streamline servicemembers' 
transition from active duty to veterans' status.
    By way of background, any member of the Armed Forces who has seen 
active duty--including those in the National Guard or Reserves--is 
eligible to apply for VA disability benefits prior to leaving military 
service through the BDD program or Quick Start pre-discharge program. 
During the application process, servicemembers can get help in 
completing forms and preparing other required documentation from VA 
personnel located at their bases. Additionally, this pre-discharge 
program combines the health exam required by the DoD upon exiting the 
military and the VA disabilities assessment exam into a single exam.
    Once a BDD or Quick Start claim is approved, veterans may begin 
receiving benefits within 2 to 3 months, instead of the 6 to 7 months 
it would typically take if they had applied after discharge under the 
traditional disability claims process.
    Participation in the BDD program is open to servicemembers who are 
within 60 to 180 days of being released from active duty and who are 
able to complete their scheduled VA medical examinations prior to 
leaving their points of separation. The Quick Start program is 
available to servicemembers within 1 to 59 days of separation from 
service or servicemembers who do not meet the BDD criteria requiring 
availability for all examinations prior to discharge.
    The BDD program started as a pilot program in 1995 at three Army 
bases and three VA regional offices. In 1998, VA and DoD fully rolled 
out the BDD program.
    Last Congress, my friend Rep. Peter Welch (D-VT) introduced H.R. 
2259, legislation to expand the BDD program to members of the National 
Guard and Reserves which was incorporated in the National Defense 
Authorization Act for 2008 (P.L. 110-181). This statute ensures that 
Guardsmen as well as Reservists can participate in the VA/DoD pre-
discharge program.
    In the past 15 years, over 170,000 servicemembers have availed 
themselves to BDD and QuickStart processing. The programs have expanded 
from 3 military bases to more than 153 locations in the United States, 
Germany, and South Korea.
    According to VA, the majority of pre-discharge claims, 46,856 
processed in 2009, were processed in a paperless environment, with an 
average processing time of 95.5 days. It is VA's stated goal to be 
processing all compensation and pension claims in a ``paperless'' 
environment. The Subcommittee is committed to helping VA achieve this 
goal.
    I, along with Congressman Rodriquez, and other Members of this 
Committee and Congress, requested that GAO prepare a report to assess 
the effectiveness of the BDD and Quick Start initiatives. I look 
forward to hearing from the GAO about its report, how its 
recommendations have been implemented, and what, if any impact they 
have had on the pre-discharge program.
    We also look forward to feedback from veteran service organizations 
as well as from VA and DoD on what if any resources are needed to fully 
realize the potential of these two tools.
    The examination of VA and DoD's pre-discharge program follows up 
our last hearing concerning the implementation of the Veterans' 
Benefits Improvement Act of 2008, which was codified in P.L. 110-389. 
P.L. 110-389 paved the way for a number of initiatives also targeting 
the VA claims backlog issue. It is my hope that the BDD and Quick Start 
programs we examine today, coupled with the electronic claims system 
and other business reformation efforts in P.L. 110-389 currently 
underway at VA will together help significantly transform today's VA 
claims processing system so that we may soon play ``Taps'' for the VA 
comp & pen backlog.
    I now recognize Ranking Member Lamborn for his opening statement.

                                 <F-dash>
      Prepared Statement of Hon. Doug Lamborn, Ranking Republican
             Member, Subcommittee on Disability Assistance
    Thank you Mr. Chairman,
    And welcome everyone, to this hearing on the Benefits Delivery at 
Discharge and Quick Start programs.
    These programs are modeled on the concept of providing a seamless 
transition from military service to civilian life.
    I, along with Chairman Hall, my fellow Subcommittee Members, and 
many of you here, are long-time advocates for creating a seamless 
transition.
    Therefore I'm sure we can all recognize the inherent value of 
beginning the VA claims process while service medical records are 
readily available and proof of service connection is easily 
established.
    Allowing veterans to file VA compensation claims prior to 
separation from active duty, is simply a logical approach.
    BDD is more efficient than the traditional VA claims process and it 
eliminates many problems that are created by the time gap that often 
exists between discharge and application for benefits.
    Among the requirements to establish eligibility for VA 
compensation, veterans must be able to show that a condition was 
incurred during service, and that there is continuity of treatment 
between that incurrence and the current condition for which they are 
filing.
    Obviously, with BDD there is no time gap, so it alleviates the need 
to show continuity of treatment.
    This saves both the veteran and VA a lot of time and effort 
obtaining private treatment records.
    One can imagine that such efforts can become quite extensive for 
claims filed several years subsequent to service.
    In 2008, full Committee Ranking Member Steve Buyer requested a U.S. 
Government Accountability Office assessment of the BDD program.
    GAO's findings confirmed that allowing claims to befiled prior to 
discharge is more efficient than the traditional VA claims process.
    While I am optimistic about the overall assessment of the program, 
I encourage VA to make every effort to improve the program and increase 
access to BDD sites.
    I believe that processing as many claims as possible in this manner 
will have a positive impact throughout the entire system--Thank you, I 
yield back.

                                 <F-dash>
 Prepared Statement of Daniel Bertoni, Director, Education, Workforce, 
                                  and
     Income Security Issues, U.S. Government Accountability Office
                     VETERANS' DISABILITY BENEFITS
  Opportunities Remain for Improving Accountability for and Access to 
                 Benefits Delivery at Discharge Program
                             GAO Highlights
Why GAO Did This Study

    Through the Benefits Delivery at Discharge (BDD) program, the 
Department of Veterans Affairs (VA) collaborates with the Department of 
Defense (DoD) to streamline access to veterans' disability benefits by 
allowing some servicemembers to file a claim and undergo a single 
collaborative exam process prior to discharge. BDD is designed for 
servicemembers with conditions that, while disabling, do not generally 
prevent them from performing their military duties. This program can 
shorten the time it takes for veterans to receive benefits by several 
months.
    GAO was asked to discuss issues surrounding VA's and DoD's BDD 
program and related Quick Start program, and identify ways VA and DoD 
could improve these programs for transitioning servicemembers. This 
statement is based on GAO's September 2008 report (GAO-08-901) that 
examined (1) VA efforts to manage the BDD program and (2) how VA and 
DoD are addressing challenges servicemembers face in accessing the BDD 
program. GAO updated some information to reflect the current status of 
claims processing and improvement initiatives in the BDD program.

What GAO Found

    Although VA awards disability benefits more quickly under BDD than 
through its traditional disability claims process, gaps in program 
management and accountability remain. For example, VA does not 
separately measure the total time its personnel spend developing BDD 
claims. As a result, VA has limited information on potential problems 
and improvement opportunities regarding BDD claims. GAO continues to 
believe that VA should measure BDD development time; however, VA told 
GAO it has no plans to capture this information. GAO also found that VA 
implemented two initiatives to improve the BDD program--i.e., 
consolidating BDD processing in two offices and instituting paperless 
processing of BDD claims to increase efficiencies and improve security 
of information--but did not evaluate whether or the extent to which 
desired improvements resulted. Finally, GAO found that VA was not 
completely or consistently monitoring BDD operations at all locations. 
VA has since taken steps to review BDD operations at more sites and has 
revised its protocols to ensure more consistent reviews of BDD 
operations.
    VA and DoD have taken steps to improve servicemembers' access to 
the BDD program; however, opportunities remain for further improvement. 
For servicemembers such as National Guard and Reservists who are 
generally unable to complete the BDD claims process within the required 
time frame, VA established an alternative predischarge program called 
Quick Start. Under this program, servicemembers may still initiate a 
disability application prior to discharge, but can complete the claims 
process, including medical exams, at another location after discharge. 
In response to GAO's recommendation, VA has taken steps to collect 
additional data to determine the extent to which the Quick Start 
program is helping those with limited or no access to the BDD program. 
However, as with BDD claims, VA told GAO it has no plans to measure 
time spent developing these particular claims, and GAO continues to 
believe it should. VA and DoD have coordinated to increase BDD program 
awareness through VA benefits briefings for servicemembers, and DoD 
established a goal that 85 percent of servicemembers attend these non-
mandatory briefings. GAO continues to believe that DoD should establish 
a plan with a specific time frame for meeting this goal, but DoD has 
not developed such a plan. Finally, GAO found that some bases faced 
difficulties maintaining local agreements intended to prevent 
redundancy and inconvenience for servicemembers in obtaining required 
medical exams. In response to GAO's recommendation, DoD reported that 
it is working with VA to identify best practices to address local 
challenges to implementing their cooperative exam process.
                               __________
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to have the opportunity to comment on the Benefits 
Delivery at Discharge (BDD) program and related Quick Start program, 
which are administered by the Department of Veterans Affairs (VA) in 
collaboration with the Department of Defense (DoD). Both programs are 
intended to help servicemembers transition from military service to 
life as civilians and veterans by allowing them to initiate their VA 
disability benefits applications while they are still in the military. 
The BDD program further allows servicemembers to go through one 
collaborative examination process that satisfies DoD's requirement to 
determine their general health and VA's requirement to assess any 
claimed disabilities, instead of separate exam processes for both DoD 
and VA. Under BDD and Quick Start, veterans should begin receiving 
benefits sooner than the 6 to 7 months it would typically take if they 
had applied after discharge under the traditional disability claims 
process. Both programs are designed for servicemembers with conditions 
that, while disabling, do not generally prevent them from performing 
their military duties.\1\
---------------------------------------------------------------------------
    \1\ The military has a separate disability evaluation process for 
servicemembers who are being discharged because they can no longer 
perform their duties because of a disabling condition.
---------------------------------------------------------------------------
    You asked us to discuss issues surrounding VA's and DoD's BDD 
program and related Quick Start program, and identify ways VA and DoD 
could improve these programs for transitioning servicemembers. My 
statement draws on our prior work, which examined (1) VA efforts to 
manage the BDD program and (2) how VA and DoD are addressing challenges 
that servicemembers face accessing the BDD program,\2\ and was 
conducted in accordance with generally accepted government auditing 
standards. We have updated some information to reflect the current 
status of VA claims processing and improvement initiatives in the BDD 
program.
---------------------------------------------------------------------------
    \2\ GAO, Veterans' Disability Benefits: Better Accountability and 
Access Would Improve the Benefits Delivery at Discharge Program, GAO-
08-901. (Washington, D.C.: Sept. 9, 2008).
---------------------------------------------------------------------------
    In summary, we found that although VA awards compensation more 
quickly under BDD than through its traditional disability claims 
process, there are gaps in program management, accountability, and 
access. For example, VA does not track time spent developing a BDD 
claim prior to the servicemember's discharge and therefore lacks 
information on how efficiently its personnel are developing BDD claims. 
In addition, although VA and DoD have made efforts to improve all 
servicemembers' access to the BDD program, we identified additional 
opportunities to help improve access. For example, VA established the 
Quick Start program whereby servicemembers unable to complete exams 
within BDD's required time frames--such as National Guard and 
Reserves--may at least initiate a disability application prior to 
discharge.\3\ However, VA lacked sufficient data to determine whether 
the Quick Start program was helping those with no or limited access to 
the BDD program. In response to our recommendation, VA has updated its 
data system to track participation by National Guard/Reserves. We also 
found that efforts to raise awareness about the BDD program may not 
reach all those who are eligible. DoD has set a goal that 85 percent of 
servicemembers attend Transition Assistance Program (TAP) sessions, but 
it has not implemented our recommendation to establish a plan with a 
specific time frame to meet this goal, and we continue to believe that 
it should.
---------------------------------------------------------------------------
    \3\ At the time of our review, VA referred to this program as its 
new, alternative predischarge program. Today, this program is referred 
to as the Quick Start program.

---------------------------------------------------------------------------
Background

    Through its disability compensation program, VA pays monthly 
benefits to veterans with service-connected disabilities.\4\ Under VA's 
BDD program, any member of the armed forces who has seen active duty--
including those in the National Guard or Reserves--may apply for VA 
disability benefits prior to discharge. The program allows veterans to 
file for and potentially receive benefits earlier and faster than under 
the traditional claim process because medical records are more readily 
accessible and key forms needed to process the claim can be signed 
immediately. Establishing that the claim is related to the member's 
military service may also be easier under the BDD program because the 
member is still on active duty status. In 2008, VA and DoD offered the 
program at 142 bases,\5\ providing access to over 70 percent of 
servicemembers who were discharged in fiscal year 2007.\6\ In July 
2008, VA issued policy guidance allowing servicemembers being 
discharged from any military base to initiate BDD claims at other 
locations where VA personnel were located, such as at all of its 57 
regional offices. VA also established an alternative predischarge 
program, now called Quick Start, to provide members who cannot 
participate in the BDD program an opportunity to initiate claims before 
discharge. Last year, over 51,000 claims were filed through the BDD and 
Quick Start programs.
---------------------------------------------------------------------------
    \4\ The amount of disability compensation depends largely on the 
severity of the disability, which VA measures in 10 percent increments 
on a scale of 0 percent to 100 percent. In 2010, basic monthly payments 
for veterans with no dependents have ranged from $123 for 10 percent 
disability to $2,673 for 100 percent disability.
    \5\ BDD is also present at an additional 11 Coast Guard bases, 
which are administered by the Department of Homeland Security.
    \6\ This percentage does not include members of the National Guard 
or Reserve forces.
---------------------------------------------------------------------------
    To participate in the BDD program, servicemembers generally must 
meet six requirements: (1) be in the process of being honorably 
discharged from military service, (2) initiate their application for VA 
disability benefits between 60 and 180 days prior to their discharge 
date, (3) sign a Veterans Claims Assistance Act (VCAA) form,\7\ (4) 
obtain and provide copies of their service medical records to local VA 
personnel, (5) complete a VA medical exam, and (6) remain near the base 
until the exam process is done. The 60- to 180-day time frame is 
intended to provide sufficient time prior to discharge for local VA 
personnel at BDD intake sites to assist members with their disability 
applications, including scheduling exams.
---------------------------------------------------------------------------
    \7\ The Veterans Claims Assistance Act of 2000 (VCAA) (Pub. L. No. 
106-475) assigns VA the duty to assist veterans in obtaining any 
records relevant to their claims, provided the veterans adequately 
identify such records so that VA is able to request them.
---------------------------------------------------------------------------
    While VA has examination requirements for those applying for 
disability compensation, DoD also has examination requirements for 
those leaving military service. For all servicemembers leaving the 
military, the military services generally require health assessments 
that consist of a questionnaire about the member's general health and 
medical history, among other topics. In some cases, members who are 
separating from the military may receive a physical exam to obtain 
evidence for a particular medical problem or problems that might exist. 
The purpose of the exam is to obtain information on the individual's 
medical history, and includes diagnostic and clinical tests, depending 
on the types of disabilities being claimed. VA's exam for disability 
compensation is more comprehensive and detailed than the military 
services' separation exams, which are intended to document continued 
fitness for duty, whereas the purpose of the VA exam is to document 
disability or loss of function.\8\
---------------------------------------------------------------------------
    \8\ See GAO, VA and DoD Health Care: Efforts to Coordinate a Single 
Physical Exam Process for Servicemembers Leaving the Military, GAO-05-
64 (Washington, D.C.: Nov. 12, 2004).
---------------------------------------------------------------------------
    Under the BDD program, DoD and VA coordinate efforts to perform 
exams for servicemembers being discharged that satisfy requirements of 
both the military and VA. Because of variation in the availability of 
local resources, such as physicians trained to use VA's exam protocols, 
DoD and VA agreed that local military bases should have flexibility to 
determine whether VA or military physicians or some combination of both 
will conduct the exam. In 2004, the agencies signed a memorandum of 
agreement (MOA) delineating their roles and responsibilities. The 
national agreement delegates authority to VA regional offices and 
individual military bases to create memorandums of understanding (MOU) 
that detail how the exam process will be implemented at the local 
level.
    VA's Veterans Benefits Administration (VBA) is responsible for 
administering and monitoring the BDD program.\9\ VBA personnel assemble 
claims-related information and send the claims to be processed at one 
of two regional offices.\10\ VBA is also responsible for the paperless 
BDD claims process, an initiative intended to improve efficiency by 
converting claims-related information stored in paper folders into 
electronic format, as part of VA's effort to have all claims processed 
electronically by the end of 2012.
---------------------------------------------------------------------------
    \9\ While VA administers the BDD program, VA and DoD's Joint 
Executive Council (JEC) oversees joint efforts to eliminate barriers 
that servicemembers may face as they leave the military. Under the JEC, 
the Benefits Executive Council is focused on improving information 
sharing between the agencies and the transition process for 
servicemembers.
    \10\ In 2006 VA completed its consolidation of BDD processing 
activities into two regional offices--Salt Lake City, Utah, and 
Winston-Salem, North Carolina--to increase the consistency of BDD 
claims.
---------------------------------------------------------------------------
    VA has established a performance goal to increase the percentage of 
first-time disability claims filed through the BDD program. 
Servicemembers generally learn of the BDD program through VA-sponsored 
benefits briefings conducted at military bases as part of TAP sessions. 
Led primarily by the Department of Labor, TAP consists of about 3 to 4 
days of briefings on a variety of topics related to benefits and 
services available to servicemembers as they are discharged and begin 
life as veterans. Generally, servicemembers are required to attend a 
short introductory briefing, while all other sessions--including the VA 
benefits segment in which members learn about BDD--are optional.
    In addition to its participation goal for the BDD program, VA has 
three general goals for the timeliness and accuracy of all disability 
claims: average days pending (i.e., waiting for a final decision), 
average days to complete all work to reach a final decision, and 
average accuracy rate (percentage of claims with no processing 
errors).\11\ In 2009, VA reached its performance goal for one measure, 
i.e., average days to complete claims was 161 days compared with a goal 
of 168 days. However VA fell short of two goals last year: Average days 
pending was 117 days compared with a goal of 116 days, and national 
accuracy rates were 83 percent compared with a goal of 90 percent.\12\
---------------------------------------------------------------------------
    \11\ VA has several other measures for claims overall, including 
measures of satisfaction and how well VA keeps veterans informed of 
benefits.
    \12\ National accuracy rate data are through July 2009.

VA's Management of the BDD Program Provides Limited Accountability for 
---------------------------------------------------------------------------
        Results, although Recent Improvements Have Been Made

VA Has a Performance Measure for BDD Participation, but Lacks Adequate 
        Measures for Timeliness of BDD Claims

    VA has established one performance measure for the BDD program that 
tracks participation in the program. Since fiscal year 2005, VA has 
tracked the percentage of all disability claims filed through the BDD 
program within 1 year of discharge. VA's most recent data for fiscal 
year 2008 indicate that 59 percent of claims filed within 1 year of 
discharge were filed through the BDD program--9 percentage points 
higher than its fiscal year 2008 goal of 50 percent. VA recently 
revised this measure so that it accounts only for claims filed by 
members who are discharging from bases covered by the BDD program.\13\
---------------------------------------------------------------------------
    \13\ Previously, VA had included in the denominator claims from 
members who were discharged from non-BDD locations. Using those data, 
in fiscal year 2007, only 43 percent of first-year claims were filed 
through BDD, significantly short of VA's goal. VA will come closer to 
its goal by excluding servicemembers who, being from non-BDD locations, 
will generally be unable to meet BDD program requirements.
---------------------------------------------------------------------------
    Although VA fine-tuned its measure for BDD program participation, 
VA does not adequately measure timeliness of BDD claims. VA tracks the 
days it takes to process traditional claims starting with the date a 
veteran first files a claim, whereas it tracks days to process BDD 
claims starting with the date a servicemember is discharged.\14\ This 
approach highlights a key advantage of the BDD program--that it takes 
less time for the veteran to receive benefits after discharge. However, 
the time VA spends developing a claim before a servicemember's 
discharge--at least 60 days according to VA--is not included in its 
measures of timeliness for processing BDD claims, even though claims 
development is included in VA's timeliness measures for traditional 
disability claims.\15\
---------------------------------------------------------------------------
    \14\ While VA lacks a separate performance measure on BDD 
timeliness, VA officials reported the agency does track the average 
days BDD claims are pending a decision and the average days it takes VA 
to complete work on BDD claims separately from traditional claims. 
However, VA includes only the time after servicemember discharge when 
tracking BDD timeliness.
    \15\ By not including the time it takes to develop BDD claims, VA 
underestimates its overall processing time. However the impact is not 
large because predischarge (BDD and Quick Start) claims represent a 
small portion of all claims processed--about 5 percent in 2009.
---------------------------------------------------------------------------
    VA officials told us the agency does not measure the timeliness of 
BDD claims development for three reasons: (1) VA lacks legal authority 
to provide compensation until a servicemember is discharged and becomes 
a veteran; (2) VA officials perceive most development activities, such 
as obtaining the separation exam and medical records, to be outside of 
their control; and (3) VA officials said that a primary objective of 
the program was to shorten the time from which the member was entitled 
to benefits--by definition, after discharge--to the time he or she 
actually received them.
    While it is useful to know how soon after discharge servicemembers 
begin receiving benefits, excluding the time VA personnel spend on 
developing BDD claims limits VA's information on challenges in this 
stage of the process and may inhibit VA from taking action to address 
them. Personnel in 12 of the 14 BDD intake bases we reviewed indicated 
significant challenges with claims development activities, such as 
scheduling and completing sometimes multiple exams for servicemembers 
who leave an area. Challenges such as these may delay the development 
of servicemembers' claims, putting them at risk of having to drop out 
of the BDD program. The fact that the servicemember is not yet a 
veteran does not absolve VA from tracking the time and resources spent 
developing BDD claims, which could ultimately help VA identify and 
mitigate program challenges. As for lack of control over the claims 
development process, VA also faces similar limitations with traditional 
disability claims, because VA must rely on veterans to submit their 
applications and on other agencies or medical providers for records 
associated with the claim. Nevertheless, VA tracks time spent 
developing these claims and could also do this for BDD claims.

VA Has Not Fully Evaluated Initiatives to Improve the BDD Program

    VA implemented two initiatives to improve the BDD program but did 
not fully evaluate either. In 2006, VA finished consolidating claims 
processing activities for BDD into two regional offices--Salt Lake 
City, Utah, and Winston-Salem, North Carolina--to improve the 
consistency and timeliness of BDD ratings.\16\ In fiscal year 2007, 
each office completed about 11,000 BDD claims. Although VA reported to 
us that it monitors claims workloads between these offices and, in one 
case, sent claims from one office to the other so that claims could be 
processed more quickly, VA had not conducted an evaluation to determine 
whether consistency improved compared with prior practices.
---------------------------------------------------------------------------
    \16\ These two regional offices complete development, rating, award 
actions, and notification actions for BDD claims.
---------------------------------------------------------------------------
    VA also has not evaluated a second BDD initiative, known as the 
paperless claims processing initiative, which is intended to increase 
the timeliness of claims processing and security of BDD claims 
information. Since our report, VA told us that all BDD claims have been 
processed in the paperless environment since August 2008, and that it 
continues to monitor the BDD paperless initiative by hosting monthly 
teleconference calls with all 57 regional offices, intake sites, and 
area offices to provide ongoing guidance and training, as well as 
address any issues or problems the field may be experiencing. However, 
VA has not evaluated the extent to which this initiative improved 
overall timeliness or security.

VA's Review of BDD Operations Has Been Inconsistent, although VA Has 
        Recently Taken Steps to Improve Monitoring

    We identified gaps related to VA's monitoring of the BDD program, 
but VA has since taken some steps to address those gaps. For example, 
we found that between September 2002 and May 2008, VA conducted reviews 
of BDD operations in only 16 of the 40 offices it visited. Further, in 
10 of the offices that were reviewed, VA personnel did not document the 
extent to which BDD claims were fully developed before being passed on 
to the processing office, pursuant to VA policy.\17\ We also found that 
the review protocol did not prompt reviewers to verify the extent to 
which claims were being fully developed before being sent to the 
processing office. In addition, for 14 offices, reviewers did not 
address whether agreements related to processing BDD claims existed 
between the processing office and relevant regional office, even though 
VA's BDD operations review protocol specifically prompts reviewers to 
check for such agreements. In response to our recommendations, VA 
officials reported that they have increased the number of BDD oversight 
visits, including visits to sites that had not been reviewed in several 
years, such as Honolulu, Hawaii, and Louisville, Kentucky. Furthermore, 
VA revised its protocol to require a review of BDD operations as part 
of its site visits to monitor regional offices.
---------------------------------------------------------------------------
    \17\ VA policy directs the processing offices to have agreements 
with all of the regional offices in their jurisdiction to define roles 
and responsibilities for processing BDD claims.

VA and DoD Took Steps to Increase Access to the BDD Program, but Some 
---------------------------------------------------------------------------
        Servicemembers May Still Face Barriers to Participation

Some Servicemembers Have Limited Access to the BDD Program, but May 
        Participate in the Alternative Quick Start Program

    Although the BDD program is designed to provide most servicemembers 
with access, some members may be unable to initiate a claim 60 to 180 
days prior to discharge or remain within the vicinity of the base long 
enough to complete their exams. According to VA officials, this is a 
challenge particularly for demobilizing servicemembers of the National 
Guard and Reserves, who typically remain at a base for only 2 to 5 days 
before returning home, and are generally unable in this brief time to 
complete requisite exams or obtain required copies of their service 
medical records. Servicemembers located in remote locations until just 
a few days prior to discharge may also be unable to participate. 
Finally, we were told that servicemembers going through the DoD Medical 
Board process are ineligible for the BDD program because they typically 
are not given a firm discharge date in advance of the 60- to 180-day 
discharge window, and a firm date is required to avoid servicemembers 
returning to active duty after completing the claims process.\18\
---------------------------------------------------------------------------
    \18\ DoD and VA are piloting a program whereby the assessment used 
to determine a wounded soldier's fitness for duty can be used to 
determine VA disability benefits for those ultimately deemed unfit.
---------------------------------------------------------------------------
    In April 2007, VA established an alternative predischarge program, 
now known as Quick Start, to provide members who cannot participate in 
the BDD program an opportunity to initiate disability claims before 
they are discharged. Under this program, local VA personnel typically 
develop servicemembers' claims as much as possible prior to discharge 
and then send the claims to the San Diego or Winston-Salem regional 
offices, which were designated as consolidated processing sites for 
Quick Start claims in August 2009.\19\ In addition, in 2009, VA also 
created a predischarge Web site, which allows servicemembers to 
initiate either a BDD or Quick Start claim electronically, although 
exams must still be completed in person.
---------------------------------------------------------------------------
    \19\ These designated processing sites complete development, 
rating, award actions, and notification actions for Quick Start claims.
---------------------------------------------------------------------------
    We found VA lacked data to assess the extent to which 
servicemembers benefit from the alternative predischarge program. 
Specifically, we found that VA was unable to assess participation in 
the Quick Start program by National Guard and Reserve servicemembers 
because they could not be distinguished from other servicemembers.\20\ 
In response to our recommendation, the agency reported that it has 
updated its data system to distinguish between National Guard/Reserves 
and full-time active duty servicemembers who file such claims.
---------------------------------------------------------------------------
    \20\ At the time of our review, VA also expressed concern that 
early Quick Start program data might not be accurate because of to the 
newness of the program.
---------------------------------------------------------------------------
    We also found that, like BDD claims, timeliness measures for Quick 
Start claims do not include days spent developing the claim prior to 
discharge. According to VA officials, the timeliness of Quick Start 
claims may vary substantially from both BDD and traditional claims. For 
example, servicemembers who are on base only a few days prior to 
discharge, such as members of the National Guard and Reserves, may have 
enough time only to fill out the application before returning home and 
may need to schedule the VA exam necessary to fully develop their claim 
after discharge. Overall, this will most likely result in less timely 
receipt of VA disability compensation than through the BDD program, but 
more timely than traditional claims. On the other hand, servicemembers 
with more time before discharge may be able to complete more or all of 
the claim development process, including the VA exam. Because VA does 
not adequately track timeliness of Quick Start, it may be unable to 
identify trends and potential challenges associated with developing and 
processing these claims. However, as with BDD claims, VA told us it has 
no plans to measure time spent developing these particular claims, and 
we continue to believe it should.

VA and DoD Have Coordinated to Provide Briefings with Information about 
        BDD, but Military Duties and Other Factors May Hinder 
        Attendance

    VA and DoD have coordinated to provide servicemembers with 
information about the BDD program through VA benefits briefings and 
other initiatives, but attending these briefings is optional for most 
servicemembers. According to DoD and VA personnel, most servicemembers 
learn about the program through VA benefits briefings conducted as part 
of TAP sessions, although some may also learn about BDD through base 
television spots, papers, and word of mouth.\21\ However, the Marine 
Corps is the only service branch to require servicemembers to attend VA 
benefits briefings. For the other service branches, participation 
requirements may vary by base and command.
---------------------------------------------------------------------------
    \21\ In addition, the Benefits Executive Council's BDD Working 
Group has also developed a BDD and Quick Start pamphlet to be 
distributed at all VA intake sites, and VA's recently developed 
predischarge Web site also includes links to the TAP Web site and 
information.
---------------------------------------------------------------------------
    We found that commanders' and supervisors' support for transition 
services, such as VA-sponsored benefits briefings, can vary by 
base.\22\ Even though DoD policy requires commanders to allow 
servicemembers to attend TAP sessions upon the member's request, we 
were told at one base that servicemembers have on occasion not been 
released from their duties to attend the briefings, resulting in VA 
personnel going up the chain of command to obtain permission for the 
members to attend. At two bases, VA officials considered outreach to be 
difficult--because of conflicting missions between VA and DoD and lack 
of support from some base commanders--resulting often in servicemembers 
being called away from the briefings.
---------------------------------------------------------------------------
    \22\ GAO, Military and Veterans' Benefits: Enhanced Services Could 
Improve Transition Assistance for Reserves and National Guard, GAO-05-
544 (Washington, D.C.: May 20, 2005).
---------------------------------------------------------------------------
    Although some military officials recommended that servicemembers be 
required to attend TAP sessions, rather than mandate attendance, DoD 
decided in August 2007 to establish a goal that 85 percent of 
separating servicemembers and demobilizing National Guard and Reserve 
members participate in TAP sessions, including VA benefits briefings. 
We recommended that DoD establish a plan with a specific time frame for 
meeting this goal, but DoD has not developed such a plan. We continue 
to believe that DoD should establish a plan for meeting its goal. In 
the course of our review, we also learned that TAP participation data 
may be inaccurate or overstated because unique identifiers were not 
used to document servicemembers' attendance and servicemembers who 
attend more than one briefing could be double-counted. Currently, the 
Department of Labor (DOL), VA, and DoD track participation in their 
respective TAP sessions separately. We recommended that DoD establish 
an accurate measure of servicemembers' participation in TAP, including 
VA benefits briefings. DoD recently reported it is working in 
collaboration with DOL and VA to determine what improvements can be 
made in measuring servicemembers' participation in all components of 
TAP.

Most BDD Sites Have Local Memorandums of Understanding to Provide a 
        Cooperative Exam Process, but Maintaining Them Has Been a 
        Challenge for Some Bases

    Most BDD sites employ local MOUs to establish a cooperative exam 
process, and implementation of the exam process varies 
significantly.\23\ According to data provided by VA during our review, 
more than 60 percent of bases offering the BDD program had local MOUs 
that called for the exclusive use of VA physicians, 30 percent used VA 
contractors to conduct exams, and 7 percent used a sequential process 
involving resources and exams from both VA and DoD.\24\ At bases 
offering the BDD program overseas, VA exams were conducted by 
physicians under contract with DoD because VA does not have physicians 
at these bases.
---------------------------------------------------------------------------
    \23\ At the time of our review, 130 of the 142 DoD bases that 
offered the BDD program had a local MOU in place; the remaining 12 
bases were newer and had not yet established local MOUs. VA noted that 
its policy guidance (Fast Letter 08-20), signed July 2, 2008, 
eliminated the requirement for a local MOU to be in place in order for 
VA to accept a BDD claim. In this guidance, VA expanded the definition 
of a BDD claim, removing the criterion that BDD claims may be accepted 
only at military bases where local MOUs are in place.
    \24\ For example, at 2 bases, DoD officials started the exam 
process by conducting diagnostic testing, such as hearing and vision 
tests; a VA physician or contractor conducted the remainder of the 
exam, which was then incorporated to meet both VA and DoD separation 
requirements.
---------------------------------------------------------------------------
    At several bases we visited, we identified resource constraints and 
communication challenges that have affected servicemembers' access to 
the program. Resource challenges we identified at five bases included 
no designated VA exam provider for more than 7 months, difficulties 
hiring physicians, and displaced staff because of construction. At 
seven bases, we identified communication challenges or a lack of 
awareness of the local cooperative exam MOU caused by uncertainties 
generally resulting from deployment of a key DoD local official or 
changes in command leadership. In one case, communication between DoD 
and VA personnel was conducted on an inconsistent basis, if at all. 
Such constraints and challenges have caused delays in servicemembers' 
exams or otherwise made it difficult to meet time frames required by 
the BDD program.
    At the time of our review, DoD and VA had provided some guidance on 
implementing and maintaining local MOUs; however, personnel in some 
sites we visited were interested in learning about promising practices 
at other bases. We recommended that VA and DoD identify and disseminate 
information on promising practices that address challenges local 
officials commonly face in ensuring servicemembers have full access to 
a cooperative exam. DoD officials recently reported collaborating with 
VA on a September 2009 conference focusing on seamless transition. DoD 
officials planned to work with conference sponsors to identify best 
practices for dealing with the cooperative exam process as it relates 
to the challenges local personnel commonly face.

Conclusion

    The BDD program appears to be an effective means for thousands of 
separating servicemembers to receive their disability benefits faster 
than if they had filed a claim under VA's traditional process. Despite 
BDD's inherent advantages, VA has not followed through on opportunities 
to ensure accountability and to optimize results. Similarly, although 
DoD and VA have made significant progress in increasing servicemembers' 
access to the BDD and Quick Start programs, opportunities to further 
ensure or improve access remain. At a time when so many servicemembers 
are being discharged with injuries, it is more important than ever to 
process benefits as efficiently and effectively as possible. BDD and 
Quick Start programs have great potential to achieve these goals, as 
long as VA maintains a sharp focus on accountability, and both DoD and 
VA follow through on recommended actions.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or other Members of the 
Subcommittee may have.

Related Products

    Veterans' Disability Benefits: Further Evaluation of Ongoing 
Initiatives Could Help Identify Effective Approaches for Improving 
Claims Processing. GAO-10-213. Washington, D.C.: January 29, 2010.
    Veterans' Disability Benefits: Preliminary Findings on Claims 
Processing Trends and Improvement Efforts. GAO-09-910T. Washington, 
D.C.: July 29, 2009.
    Military Disability System: Increased Supports for Servicemembers 
and Better Pilot Planning Could Improve the Disability Evaluation 
Process. GAO-08-1137. Washington, D.C.: September 24, 2008.
    Veterans' Benefits: Increased Focus on Evaluation and 
Accountability Would Enhance Training and Performance Management for 
Claims Processors. GAO-08-561. Washington, D.C.: May 27, 2008.
    Federal Disability Programs: More Strategic Coordination Could Help 
Overcome Challenges to Needed Transformation. GAO-08-635. Washington, 
D.C.: May 20, 2008.
    VA and DoD Health Care: Progress Made on Implementation of 2003 
President's Task Force Recommendations on Collaboration and 
Coordination, but More Remains to Be Done. GAO-08-495R. Washington, 
D.C.: April 30, 2008.
    VA Health Care: Additional Efforts to Better Assess Joint Ventures 
Needed. GAO-08-399. Washington, D.C.: March 28, 2008.
    DoD and VA: Preliminary Observations on Efforts to Improve Care 
Management and Disability Evaluations for Servicemembers. GAO-08-514T. 
Washington, D.C.: February 27, 2008.
    Information Technology: VA and DoD Continue to Expand Sharing of 
Medical Information, but Still Lack Comprehensive Electronic Medical 
Records. GAO-08-207T. Washington, D.C.: October 24, 2007.
    DoD and VA: Preliminary Observations on Efforts to Improve Health 
Care and Disability Evaluations for Returning Servicemembers. GAO-07-
1256T. Washington, D.C.: September 26, 2007.
    GAO Findings and Recommendations Regarding DoD and VA Disability 
Systems. GAO-07-906R. Washington, D.C.: May 25, 2007.
    Information Technology: VA and DoD Are Making Progress in Sharing 
Medical Information, but Are Far from Comprehensive Electronic Medical 
Records. GAO-07-852T. Washington, D.C.: May 8, 2007.
    Veterans' Disability Benefits: Processing of Claims Continues to 
Present Challenges. GAO-07-562T. Washington, D.C.: March 13, 2007.
    Veterans' Disability Benefits: Long-Standing Claims Processing 
Challenges Persist. GAO-07-512T. Washington, D.C.: March 7, 2007.
    High Risk Series: An Update. GAO-07-310. Washington, D.C.: January 
31, 2007.
    Veterans' Disability Benefits: VA Can Improve Its Procedures for 
Obtaining Military Service Records. GAO-07-98. Washington, D.C.: 
December 12, 2006.
    Military Disability Evaluation: Ensuring Consistent and Timely 
Outcomes for Reserve and Active Duty Service Members. GAO-06-561T. 
Washington, D.C.: April 6, 2006.
    Military Disability System: Improved Oversight Needed to Ensure 
Consistent and Timely Outcomes for Reserve and Active Duty Service 
Members. GAO-06-362. Washington, D.C.: March 31, 2006.
    VA and DoD Health Care: Opportunities to Maximize Resource Sharing 
Remain. GAO-06-315. Washington, D.C.: March 20, 2006.
    Veterans' Benefits: Further Changes in VBA's Field Office Structure 
Could Help Improve Disability Claims Processing. GAO-06-149. 
Washington, D.C.: December 9, 2005.
    Veterans' Disability Benefits: Claims Processing Challenges and 
Opportunities for Improvements. GAO-06-283T. Washington, D.C.: December 
7, 2005.
    Veterans' Disability Benefits: Claims Processing Problems Persist 
and Major Performance Improvements May Be Difficult. GAO-05-749T. 
Washington, D.C.: May 26, 2005.
    Military and Veterans' Benefits: Enhanced Services Could Improve 
Transition Assistance for Reserves and National Guard. GAO-05-544. 
Washington, D.C.: May 20, 2005.
    VA and DoD Health Care: Efforts to Coordinate a Single Physical 
Exam Process for Servicemembers Leaving the Military. GAO-05-64. 
Washington, D.C.: November 12, 2004.
    Veterans' Benefits: Improvements Needed in the Reporting and Use of 
Data on the Accuracy of Disability Claims Decisions. GAO-03-1045. 
Washington, D.C.: September 30, 2003.

                                 <F-dash>
         Prepared Statement of Hon. Noel C. Koch, Deputy Under
       Secretary of Defense (Wounded Warrior Care and Transition
             Policy), U.S. Department Secretary of Defense
    Mr. Chairman, thank you for inviting me to join you today to 
discuss how the Department of Defense (DoD) in collaboration with the 
Department of Veterans Affairs (VA) is working to increase 
transitioning servicemember's participation in the Benefits Delivery at 
Discharge (BDD) and Quick Start Programs. The Departments continue to 
work together to address these issues through the auspices of the DoD/
VA Benefits Executive Council and the Joint Executive Council.
    The Office of Wounded Warrior Care and Transition Policy's (WWCTP) 
mission is to ensure Wounded, Ill, Injured & transitioning Warriors 
receive the highest quality care and seamless transition support. Some 
of our Wounded, Ill or Injured servicemembers may be able to return to 
active duty following their recovery, and may choose to do so, while 
others may leave military service. But while in the care of DoD, it is 
my office's job to develop policy and provide oversight of several 
parts of a servicemember's care, recovery and transition.
    As you are aware, one of the most important efforts we made was in 
response to the recommendations sent forth by the President's 
Commission on Care for America's Returning Wounded Warriors and 
required by the National Defense Authorization Act for Fiscal Year 2008 
(NDAA 2008) to provide a single point of contact for recovering 
servicemembers and their families. In response to the NDAA requirement, 
we launched the Department of Defense Recovery Coordination Program 
(RCP).
    The RCP places Recovery Care Coordinators (RCC) in each Military 
Department's Wounded Warrior Program. The RCCs support eligible 
Wounded, Ill and Injured servicemembers, including members of the 
Reserve Component, and their families, by ensuring their non-medical 
needs are met along the road to recovery.
    My office also has oversight for training the Recovery Care 
Coordinators. To improve outreach to those supported by an RCC, I had 
my staff expand the training curriculum for the DoD Transition 
Assistance Program (TAP) and its TurboTAP Web site. RCCs are told how 
to connect wounded, ill and injured servicemembers with the BDD and 
Quick Start Programs through their supporting TAP office. BDD or Quick 
Start can now be added to the members' comprehensive plan, if 
applicable.
    Servicemembers leaving the military are informed about BDD and 
Quick Start during the Pre-separation Counseling phase of the 
transition process. There are five components of TAP, namely:

        <bullet>  Pre-separation Counseling--sponsored by DoD and the 
        Military Services
        <bullet>  VA Benefits Briefings--sponsored by VA
        <bullet>  Disabled Transition Assistance Program (DTAP)--
        sponsored by VA
        <bullet>  Department of Labor (DOL) TAP Employment Workshops--
        sponsored by DOL
        <bullet>  One-on-one coaching which occurs following the 
        previously mentioned four components.

    Information on BDD and Quick Start is first provided during the 
pre-separation portion of the transition process. These programs are 
addressed again, in greater depth, by VA during the VA sponsored VA 
Benefits Briefing, and a third time during the VA sponsored DTAP. 
Servicemembers meeting the eligibility criteria are given a minimum of 
three opportunities to learn about these vital programs.
    Other actions the Department has taken in conjunction with our 
partners at VA to educate and inform servicemembers about the BDD and 
Quick Start Programs include:

        <bullet>  Launched the VA Pre-Discharge Web site in June 2009 
        and linked it to our DoD TurboTAP Web site.
        <bullet>  Developed a BDD and Quick Start pamphlet.
        <bullet>  Promoted BDD and Quick Start on servicemember's Leave 
        and Earnings Statements (September 2009).
        <bullet>  Convened the Joint Interagency Strategic Working 
        Group for the Transition Assistance Program to assess and 
        update the program.

                <bullet>  One outcome was a recommendation that DoD 
                update its DoD Instruction on Pre-separation Counseling 
                by requiring counselors to cover the BDD and Quick 
                Start Programs. This policy modification will help us 
                close any gaps that may exist.
                <bullet>  Another outcome was to update the Pre-
                separation Counseling Checklist for Active Component 
                and Transitioning Counseling Checklist for 
                Demobilizing/Deactivating Reserve Component Services 
                members by adding BDD and Quick Start. Although our 
                emphasis is on counseling and coaching servicemembers, 
                it is equally important that we document that 
                counseling was conducted. The forms are the tools which 
                allow us to do that.
                <bullet>  Within two weeks following the Joint 
                Interagency Strategic Working Group meeting, DoD TAP 
                joined the social network community by launching the 
                DoD TAP Facebook. We are taking advantage of the 
                popularity of social media as another communications 
                resource to promote transition services and benefits to 
                military personnel and families. One of the first links 
                and resources on our Facebook homepage is to the Pre-
                Discharge Web site.

    So where are we today? What other steps are we taking that will 
continue to foster our commitment and support to our deserving 
warriors?
    The Department will soon issue a Memorandum to the Military 
Departments asking senior leaders and commanders at all levels to 
strengthen their emphasis on the importance of BDD and Quick Start. We 
view this Memorandum as a ``call to action'' to our commanders to 
become more engaged with ensuring eligible servicemembers submit their 
claim for disability compensation through BDD or Quick Start before 
separating from the military.
    As the Co-Chairs of the Benefits Executive Council (BEC), my 
distinguished colleague, the former Under Secretary for Benefits, and I 
wanted to institutionalize and strengthen responsibilities of our Pre-
Discharge Working Group, which falls under our purview. To accomplish 
this we directed this group to develop a ``Pre-Discharge Working Group 
Charter'' for our approval. I am delighted to report, Mr. Chairman that 
I recently signed the Charter as the DoD BEC co-chair and sent it to my 
VA Co-chair counter-part, the Acting Under Secretary for Benefits for 
his signature.
    But these programs and actions notwithstanding, much remains to be 
done. Both DoD and VA are aware that we can improve how we care for our 
servicemembers and Veterans, be it through further research, continuing 
to ease access to benefits for those who earned them, and finding more 
efficient and effective service-delivery systems that will provide 
better support for our warriors and their families.
    Mr. Chairman, we are reminded daily of our obligation to our 
servicemembers and their families, and particularly to the Wounded, Ill 
and Injured, and those who bear the greatest burden of caring for them. 
We are committed to providing the support they need to help ensure a 
successful transition through recovery and rehabilitation and back to 
active duty or reintegration into their communities.
    We appreciate the opportunity to come before you today to discuss a 
subject which the Secretary of Defense has said repeatedly is a 
Departmental priority second only to the wars in which we are engaged. 
I will be happy to answer your questions.
    Thank you.

                                 <F-dash>
          Prepared Statement of Thomas Tarantino, Legislative
          Associate, Iraq and Afghanistan Veterans of America
    Mister Chairman, Ranking Member, and Members of the Subcommittee, 
on behalf of Iraq and Afghanistan Veterans of America's (IAVA) 180,000 
members and supporters, I would like to thank you for the opportunity 
to speak before you today to express the concerns of our membership on 
some very important issues facing veterans of Iraq and Afghanistan and 
their families.
    As an OIF veteran with 10 years of service in the Army, I have seen 
firsthand the difficulties that many face when transitioning from being 
a servicemember to being a veteran. For the wounded warrior, torn from 
service due to their extraordinary sacrifice, and the young veteran, 
who spent most of their formative years in uniform, the transition can 
be difficult. All too often, we leave behind structured and accessible 
care and benefits of the military when seeking care and benefits at the 
Department of Veterans Affairs (VA), where we're left to our own 
devices.
    In response to the need for a more seamless transition from 
servicemember to veteran, the VA and Department of Defense (DoD) have 
embarked on several initiatives that allow servicemembers to walk off 
post with their benefits in hand. However, the potential of these 
programs has yet to be fully realized. And their full impact will not 
be felt until the VA begins aggressive outreach to servicemembers and 
the DoD makes transition programs uniform and mandatory.
    When I left the Army in 2007, I had no idea of the scope and 
availability of the benefits I was entitled to as a veteran. In fact, 
it never occurred to me to seek benefits and health care from the VA 
for the general wear and tear of a decade of military service. If it 
weren't for the advice of a Sergeant Major attending the Army Civilian 
Alumni Program with me I would never have applied.
    But we cannot rely on word of mouth to spread this information. The 
DoD and the VA must integrate their outreach and ensure a smooth 
transition of services before a servicemember is ready to leave the 
uniform behind. Otherwise, more men and women will fall through the 
cracks. The Marine Corps mandates TAPS programs within 90 days of 
separation, while the Army conducts their Civilian Alumni Program 
within 30 days. Both of these programs are useful, but begin far too 
late to effectively utilize the Benefits Delivery at Discharge Program. 
Additionally, neither program has comprehensive and mandatory briefings 
about the availability of VA services.
    The VA must begin to see itself as a military alumni program. Many 
of us remember the guy from our college's alumni society who greeted us 
freshman year and continued to pester us throughout college and for 
years afterward. It may have been annoying at times, but the message 
was communicated clearly and consistently. The VA needs to be 
communicating at least that effectively with our veterans. There should 
be no excuse for a veteran not knowing what services are available to 
them when they separate. Only when the VA integrates its outreach and 
education efforts with the DoD will benefits programs reach their full 
potential.
    Early outreach also requires VA boots on the ground. To effectively 
utilize quick start services the VA must have a presence at all 
military installations in order to provide access and information to 
the benefits and services that the servicemembers have earned. 
Additionally, the VA should offer training to AGR members of the 
National Guard and reserve in order to educate servicemembers who do 
not have the same interaction with the military services as their 
active duty counterparts.
    Just as the VA must rethink the way it conducts outreach, the DoD 
must understand that it has a responsibility to its servicemembers to 
set them up for success whether they retire from service or choose to 
leave. The military is a lifestyle, not a job. Those that choose this 
life must be afforded every opportunity to excel both while in uniform, 
and when they put the uniform away. The DoD must mandate a 
comprehensive and structured Transitional Assistance Program that 
integrates VA benefits and services.
    In addition to integrating outreach and training we need to address 
the expedience and accuracy of the benefits process. The Benefits 
Delivery at Discharge Program generally provides more accurate and 
timely benefits to separating servicemembers than the standard benefits 
approval process. However, this is largely due to the co-location of 
the servicemember with their respective records and DoD medical 
facility. Many of the processing issues that plague the standard system 
still exist. They are mitigated by the fact that the servicemember is 
still in uniform and has full access to DoD care and services, while 
waiting for their rating, thus reducing the time it takes to develop a 
claim.
    Receiving a disability rating at the VA can be a long and confusing 
process for a veteran. Often, a veteran must wait for a rating that 
does not accurately reflect what they are entitled to. The VA currently 
uses a disability evaluation process that was outdated long before many 
Iraq and Afghanistan veterans were born. This has lead to a situation 
where hundreds of thousands of veterans must navigate an antiquated 
system that focuses on the quantity over quality of the processed 
claims. Consequently, 17 percent of cases do not accurately compensate 
veterans for their earned benefits. And as we all know, that leads to 
months, if not years, of delayed payments.
    IAVA applauds some of the innovative initiatives that the VA has 
undertaken to mitigate this problem. Two such programs are the pilot 
that integrates the Virtual VA into the Benefits Delivery at Discharge 
process, establishing online information for quick start programs, and 
the Six Sigma pilot at the Little Rock Regional Office. Now it is time 
to take it to the next level. The Virtual VA is a step in the right 
direction, but it must integrate with VHA records if it is to be 
effective. Informational Web sites are good, but today's veterans 
expect a Web site to offer services as well as information.
    This year IAVA, along with many of our fellow Veterans Service 
Organizations, have selected reform of the disability benefits approval 
process as our number one legislative issue. We believe that our 
veterans and survivors deserve a top quality disability claims system 
and we commit to supporting and passing disability claims reform 
legislation that:

        <bullet>  Develops a work culture at VA that emphasizes quality 
        at all steps by creating a management culture that measures and 
        rewards quality of results, not just quantity, and provides 
        sufficient training of VA's management and workforce in order 
        to achieve this outcome.
        <bullet>  Modernizes the IT infrastructure and optimizes 
        business processes by creating a secure and accessible 
        paperless IT system which rapidly moves and organizes the 
        information necessary for VA to approve claims for benefits, 
        while optimizing workflow and business processes.
        <bullet>  Develops a simpler and more transparent application 
        and approval process by creating a universal and simple 
        application process that provides veterans with regular updates 
        on the progress of their claims and allows them to access their 
        records and the status of their claims.

    Thank you again for the chance to communicate our analysis and 
suggestions on this most important issues facing veterans of Iraq and 
Afghanistan. We look forward to continuing to work with the committee 
and I appreciate your time and attention.

                                 <F-dash>
    Prepared Statement of Gerald T. Manar, Deputy Director, National
    Veterans Service, Veterans of Foreign Wars of the United States
    MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE: On behalf of the 2.1 
million men and women of the Veterans of Foreign Wars of the U.S. (VFW) 
and our Auxiliaries, we appreciate the opportunity to present our views 
and concerns regarding the VA Benefits Delivery at Discharge (BDD) and 
Quick Start Programs.
    In 1973, I spent the last two weeks of active duty in the Navy at 
Treasure Island in San Francisco Bay. During that entire period I did 
not hear a single word about VA disability compensation, VA health care 
or the GI Bill. My experience was, I believe, not at all out of the 
ordinary. Other than education benefits, I knew virtually nothing about 
the services VA provided to veterans until I was hired by VA in 1974 as 
a benefits counselor to work on college campuses in the Detroit area.
    The world has changed tremendously in the decades since my 
discharge from the Navy. DoD and VA have made significant strides to 
ensure that our newest veterans are better prepared for life after 
discharge than any generation of veterans that preceded them. 
Unfortunately, VA fails to reach tens of thousands of those leaving 
active duty and most Reserve and National Guard members. Further, the 
quality of the ratings given these warriors is, in a word, awful.

Background

    The Transition Assistance Program (TAP) and the Disability 
Transition Assistance Program (DTAP) was created in the 1980's to 
better inform servicemembers about benefits and opportunities following 
service. Those programs have expanded significantly so that today, 
classes and briefings start months before release from active duty. The 
TAP and DTAP don't just cover VA benefits. Information on resume 
writing, employment counseling, small business information, personal 
finance, and much more is provided to soon to be released servicemen 
and women.
    From 2005-2007, VA briefed over 1 million servicemen and women and 
interviewed over 318,000.
    The BDD initiative is an outgrowth of the TAP and DTAP programs. It 
began in 1995 as a joint project by VA and DoD at only three Army 
bases. It has expanded to over 150 installations covering all branches 
of service. This program allows servicemembers within 60 to 180 days of 
discharge to file a claim for compensation benefits, receive necessary 
medical examinations, and obtain a rating soon after release from 
active duty.

Veterans of Foreign Wars

    Veteran service organizations have worked hand in hand with the VA 
and DoD to ensure that our nation's newest veterans receive every 
benefit to which they are entitled under the law.
    The VFW began placing national service officers on select military 
installations in 2001. Today, we have 9 Pre-Discharge Claims 
Representatives serving troops at 16 military installations. We also 
have national service officers in San Juan and Las Vegas who perform 
TAP briefings several times a month at nearby military bases and help 
servicemembers who qualify for the BDD and Quick Start programs. Last 
year our service officers briefed over 14,400 servicemembers and helped 
over 8,400 soldiers, sailors, airmen and marines file disability claims 
with VA.
    The VFW also has two full time specialists reviewing BDD ratings at 
the VA regional offices in Winston-Salem and Salt Lake City Rating 
Activity Sites RAS. All told in 2009, our small cadre of national 
service officers helped BDD and Quick Start participants receive over 
$9 million in benefits at or shortly after discharge.

Challenges

    VA reports that it received 51,000 claims from the BDD and Quick 
Start claims programs in 2008, up from 47,000 the year before. Further, 
it reports that nearly 60 percent of those it briefed filed claims.
    These numbers are fascinating for several reasons. First, that at 
least 60 percent believe they were disabled to some degree during their 
military service is significant. While I do not have the exact numbers, 
our experience is that nearly all will receive service connection for 
at least one disability and most will receive compensation at some 
level.
    Second, if 51,000 claimants represent 60 percent of those briefed, 
then VA is briefing only about 85,000 servicemembers. However, it is 
our understanding that each year over 100,000 personnel leave active 
duty and another 100,000 are released from the Reserves and National 
Guard. While some Reserve and National Guard personnel use the BDD and 
Quick Start programs as they depart active duty it is clear that a 
large portion of those serving on active duty and in the reserves are 
not receiving critical information through VA's outreach efforts.
    The most interesting observation is that VA is a victim of its own 
success. It may be merely a coincidence but in the mid-1990s at about 
the time VA expanded its TAP and DTAP programs, VA's workload began to 
increase. While 51,000 claims submitted under the BDD and Quick Start 
programs may constitute only 5 percent of VA's annual claim receipts, 
VA devotes a significant portion of its workforce to educating 
servicemembers and encouraging them to file claims. Further, many 
highly skilled personnel at the Winston-Salem, Salt Lake City and San 
Diego Regional Offices have been tasked to work BDD and Quick Start 
claims exclusively.
    We do not suggest that VA or DoD lessen their efforts in helping 
servicemembers prepare for life after the military. It is absolutely 
the right thing; it may not always be the easiest or cheapest thing. We 
applaud Congress for encouraging these programs and we support VA and 
DoD in their efforts to ensure that every servicemember has an 
opportunity to adequately prepare for their post-discharge life.

As We See It

    VA has several challenges to resolve if it hopes to improve the 
number of servicemembers it reaches and the quality of the service it 
provides them:

         There are too many servicemembers who are not adequately 
        briefed about their benefits prior to discharge. While DoD may 
        require pre-discharge education far too many servicemembers are 
        either not provided, or find some way to avoid these programs. 
        Further, VA has been slow to expand the BDD program to 
        additional installations. In 2004, VA was at 139 military 
        bases; in 2008 the number stood at only 150. VA must move more 
        quickly to expand to other military installations.

         Veteran Service Organizations are a critical partner in the 
        BDD program. VA personnel have neither the time nor, often, the 
        expertise to help servicemembers fill out more than a claim. 
        VFW service officers usually spend an hour with each 
        servicemember, talking with them about their problems and 
        concerns; they go through the service treatment records page by 
        page, identifying chronic problems which originate or are 
        aggravated by military service and ensure that those conditions 
        are both listed and documented on the application. They 
        accomplish Veterans Claims Assistance Act (VCAA) notification 
        which helps shorten the development process. Finally, they 
        provide answers about what to expect in dealing with VA.

         As helpful as veteran service officers are you would think 
        that DoD would welcome us with open arms. Gaining the 
        permission of DoD to work on base requires careful and extended 
        negotiations with both DoD and VA. That's because VA does not 
        anticipate that service organizations may be able to provide 
        service officers to help. As a consequence, space, always at a 
        premium, is often difficult to find.

    As VA and DoD expand the BDD program to other installations, we 
urge them reach out to Veteran Service Organizations to determine 
whether we are able to provide service officers to help them help 
servicemembers.
    Finally, in our experience quality of disability ratings is no 
better in BDD and Quick Start cases than it is for other veterans. The 
VA STAR report for November, 2009, shows that 17 percent of all ratings 
nationally contained at least one substantive error. Winston-Salem met 
the national error rate, while San Diego, where Quick Start claims are 
rated had a 19 percent error rate. Salt Lake City trailed with a 22 
percent error rate. Essentially, one out of every 5 decisions made by 
VA are wrong.
    There are 29 members on the House Veterans Affairs Committee. If 
you all submitted claims for benefits from the VA nearly 6 of you would 
have ratings which were wrong.
    We encourage Secretary Shinseki and his management team to focus 
this year on changing the culture in VBA so that quality is the rule, 
not the exception.
    Aristotle once said: ``We are what we repeatedly do. Excellence 
then is not an act, but a habit.''
    VA needs to create a culture where excellence is a habit.

                                 <F-dash>
           Prepared Statement of Raymond C. Kelley, National
            Legislative Director, American Veterans (AMVETS)
    Chairman Hall, Ranking Member Lamborn, and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to provide AMVETS' views regarding the Benefits Delivery at Discharge 
and Quick Start Programs.
    The Benefits Delivery at Discharge (BDD) program was established to 
allow servicemembers to begin their disability claims process prior to 
discharge. Another benefit to this program is the servicemembers will 
receive a single physical that will satisfy both the requirements for 
DoD separation as well as VA disability claims assessment. By doing 
this, servicemembers who are less than 180 days but more than 60 days 
away from separating from active military service can initiate a VA 
disability claim. This will allow for a more seamless transition for 
the servicemember who may begin receiving disability compensation 
within one to three months after discharge as apposed to six to seven 
months if they file their claim in the tradition manner.
    Despite the fact that tens of thousands of servicemembers have used 
the BDD program at more than 150 locations, there are issues that must 
be addressed to improve the program not only for the veterans who 
utilize it, but also for DoD and VA. If there continue to be 
impediments and inconsistencies for the departments that facilitate the 
program, the real value of the program will be lost.
    The concept of a single separation physical seems simple enough. 
However, the physicals can be facilitated by either DoD, VA, a 
contractor, or a combination of the three. The national agreement 
between VA and DoD set guidelines for local Memorandums of 
Understanding (MOU) that will determine who will be responsible for the 
physical. However, there have been some challenges at the local level 
in communicating and following the content of the local MOU. The 
``Veterans' Disability Benefits'' GAO report (GAO-08-901) found that 
more than half of all BDD intake sites visited had challenges in 
administering a single, comprehensive exam. Often it was a lack of 
communication that failed to reach DoD personnel at the lowest level, 
therefore, duplicate exams continued to take place. Often, local 
leadership of commands did not understand the program and therefore 
they ignored the MOU and continued to administer two physicals.
    Resource changes were also identified as a challenge for local BDD 
facilities. In some locations DoD is responsible for conducting the 
exam, but current physicians were not qualified to conduct exams that 
would meet both DoD and VA requirements. At other locations, when DoD 
is required by the local MOU to conduct the exam, no provisions were 
put in place to accommodate the increase in time and resources it would 
take to conduct the exams. These and other issues make it difficult for 
bases offering BDD to meet time frames set by the program. These MOUs 
must be disseminated to and understood by all personnel who are 
affected by the MOU to ensure proper implementation. Also, if there are 
implementation issues the MOU must be revised to better meet the needs 
of BDD sites
    Because VA does not control or enforce the local BDD sites, AMVETS 
believes VA cannot be expected to account BDD development time in their 
timeliness of claims processing. However, AMVETS believes it is 
important to track the BDD process from intake so efficiencies can be 
indentified and best practices can be developed. A plan should be put 
into place that will allow VA to track the development process of BDD 
claims and conduct periodic reviews so efficiency can be determined.
    Informing servicemembers of this program continues to be difficult. 
Again, local commands' understanding and support for the program 
greatly affects participation. If the military command does not see the 
value in the program, they will not be as likely to disseminate the 
information to the troops. VA and DoD must make a concerted effort to 
educate base command structures so there will be buy-in of the program. 
This is the first step to delivering the information to troops.
    The Transition Assistance Program (TAP) should be an excellent way 
to communicate the BDD program to transitioning servicemembers as well. 
However, only the Marine Corps mandates that TAP participants attend 
the VA presentation. Since this portion is mandatory, servicemembers 
have the perception that it is unimportant, leading to low 
participation. The VA benefits portion of TAP should be mandatory.
    AMVETS also believes each Regional Office (RO) should have the 
authority to rate BDD claims. We understand that as a pilot program, it 
was practical to have only two offices rate these claims, but now with 
more than 150 intake locations allowing the ROs to rate claims should 
increase the timeliness of adjudication.
    AMVETS is also concerned that BDD enrollees must fill out VA Form 
21-526c, the Pre-Discharge Compensation Claim, while veterans who file 
a traditional claim must fill out VA Form 21-526. There are stark 
differences in the two forms. The two most notable differences are the 
length of the form and the depth of the questions asked. The BDD forms 
are four pages shorter and lack the instructions that are present in 
the traditional VA compensation and pension form. Also, the 
respondent's burden of time for filling out the BDD forms is half that 
of the traditional form. This is due in part to the degree of 
explanation that is required. For example, each form asks the veteran 
to state what disabilities they are claiming. The BBD form provides a 
small block with four ``notebook'' style lines for the veteran to state 
their claim, but in the traditional form the veteran is provided with 
an entire page asking for specific details pertaining to each of the 
veterans' claims. A study must be conducted to determine if providing 
servicemembers with a reduced form has any adverse affects on the 
development and the final rating of these claims.
    Mr. Chairman, thank you again for providing AMVETS the opportunity 
to present our views on BDD and Quick Start. This concludes my 
testimony and I will be happy to answer any questions you may have.

                                 <F-dash>
            Prepared Statement of John L. Wilson, Assistant
       National Legislative Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee:
    I am pleased to have this opportunity to appear before you on 
behalf of the Disabled American Veterans (DAV) to address the 
Department of Veteran Affairs (VA) Benefits Delivery at Discharge and 
Quick Start Programs.
    The Benefits Delivery at Discharge (BDD) and Quick Start programs 
provide servicemembers the opportunity to apply for disability 
compensation benefits from the VA prior to retirement or separation 
from military service. Servicemembers who leave the military and file 
disability claims with the VA may be subject to duplicative physical 
exams in order to meet requirements of both the Department of Defense's 
(DoD's) military services and VA. To streamline the process, the 
military services and VA moved to coordinate their physical exam 
requirements by developing a single separation exam program. This 
program found its beginnings in 1995 when VA began accepting disability 
compensation claims from servicemembers in the BDD program at three VA 
regional offices and three Army installations. However, differences in 
the availability of physicians trained to use VA's exam protocols, 
resulted in DoD and VA agreeing that local military bases be given 
flexibility in implementing the exams by allowing either VA or military 
physicians to conduct the exam.
    In 1998, VA and DoD signed a memorandum of understanding (MOU) 
instructing local units to establish single separation exam programs. 
In 2002, the agencies created a Joint Executive Council to oversee 
joint efforts to eliminate barriers servicemembers face as they leave 
the military. The Joint Executive Council's Benefits Executive Council, 
is focused on improving information sharing between the agencies and 
improving the transition process for servicemembers. The agencies 
signed another memorandum of agreement in 2004, laying out roles and 
responsibilities for each agency in establishing a cooperative 
separation exam process. The signing of the National Defense 
Authorization Act for Fiscal Year 2008 mandated BDD services were to 
also be provided to National Guard and Reserve personnel at non-
traditional BDD sites such as armories, military family support center 
to the maximum extent possible.
    Participation in the BDD program is offered to servicemembers who 
are within 60 to 180 days of release from active duty and who remain in 
the area in order to complete the medical examinations. To participate 
in BDD, servicemembers generally must meet six requirements: (1) be in 
the process of being honorably discharged, (2) initiate their VA 
disability benefits application between 60 and 180 days prior to 
discharge, (3) sign a Veterans Claims Assistance Act (VCAA) form, (4) 
provide the VA copies of service medical records, (5) complete a VA 
medical exam, and (6) remain near the base until all exams are 
completed. The BDD claims are then processed at VA Regional Offices at 
Salt lake City, Utah or Winston-Salem, North Carolina.
    Quick Start is offered to all servicemembers with less than 60 days 
remaining on active duty or demobilization. It is well suited for 
National Guard and Reserve members as they can file a claim while 
attending demobilization briefings and continue the claims process 
after returning home. This may make it possible for them to receive VA 
compensation benefits faster after separation or retirement. 
Servicemembers with 1-59 days remaining on active duty or full-time 
Reserve or National Guard (Title 10 or Title 32) or servicemembers who 
do not meet the BDD criteria requiring availability for all 
examinations prior to discharge may apply through Quick Start. There 
are three ways to apply for Quick Start: (1) Download VA Form 21-526, 
Veteran's Application for Compensation and/or Pension, from the VA Web 
site and submit it to the nearest VA Regional Office or any location 
where VA accepts claims; (2) Submit an online application at www.va.gov 
using ``Apply Online'', then click ``Compensation & Pension'' on the 
drop-down menu; (3) Request a claim form be mailed by calling the VA 
toll-free number. The servicemember must submit a paper copy of their 
service treatment records with each of the three options.
    Current BDD program participants include 40 regional offices and 
153 military installations (142 DoD sites and 11 Homeland Security 
Coast Guard sites). This number includes 5 locations overseas (3 in 
Korea and 2 in Germany). VA also issued policy guidance that allows 
servicemembers being discharged from any base to file BDD claims at all 
57 VA Regional Offices and other locations where VA personnel are 
located.
    The Veterans Benefits Administration (VBA) has also established a 
Web site of http://www.vba.va.gov/predischarge/index.htm to provide 
information on the four components of the Pre-Discharge Program:

        <bullet>  BDD
        <bullet>  Quick Start
        <bullet>  Disability Evaluation System (Pilot program)
        <bullet>  Seriously Injured/Very Seriously Injured (SI/VSI)

    The collaboration between the VA and the military services to 
establish single separation exam programs has generally been a 
successful endeavor. According to a Government Accountability Office 
(GAO) Report titled ``Better Accountability and Access Would Improve 
the Benefits Delivery at Discharge Program,'' GAO-08-901, September 9, 
2008, once a BDD application is approved, veterans may begin receiving 
benefits within 2 to 3 months, instead of the 6 to 7 months it 
typically takes if they had applied after discharge under the 
traditional disability claims process. In the past 5 years, about 
140,000 servicemembers have used the BDD program. More than 70 percent 
of servicemembers leaving the military in fiscal year (FY) 2007 were 
discharged at military bases offering the BDD program.
    A primary advantage of this program is that service treatment 
records are more readily accessible to the servicemember and the VA so 
filing a VA disability claim through the BDD program can be faster than 
filing a claim as a veteran under the traditional claim process. 
Establishing service connection for a claimed condition may be easier, 
since the member is still on active duty status. Key forms needed to 
process the claim can also be signed immediately.
    While the programs can generally be viewed as successful, there are 
concerns with performance measures and program management. For example, 
VA's FY 2009 Performance and Accountability Report (PAR) has only one 
supporting measure for BDD and Quick Start. The PAR supporting measure 
is ``out of all original claims filed within the first year of release 
from active duty, the percentage filed at a BDD site prior to a 
servicemember's discharge.'' The strategic goal is 65 percent. Results 
for each of the fiscal years is as follows: FY 2006 result of 46 
percent with a target of 53 percent; FY 2007 result of 53 percent with 
a target of 48 percent; FY 2008 result of 59 percent with a target of 
50 percent; FY 2009 result is unknown with a target of 60 percent. 
While increasing participation seems evident, the measure references 
BDD and Quick Start together, despite their very specific differences. 
Since both programs are measured in a combined fashion, it is difficult 
to determine the utilization rates of the two programs. Also, there is 
no breakout by Service component making it difficult to determine the 
number of National Guard and Reservists who are using these programs.
    While program participation is measured, VA does not adequately 
measure timeliness and accuracy rates separately from claims that go 
through the traditional process. The current bookkeeping rules 
stipulate that BDD claims be tracked from the date of discharge whereas 
traditional claims are tracked beginning from the date a veteran files 
a claim. So, while VA and DoD state a key advantage of the BDD program 
is that it takes less time for the veteran to receive benefits after 
discharge, the accuracy of such a statement remains unclear. While a 
case can be made that the clock should not start ticking until the 
servicemember transitions from the service and attains veteran status 
with the necessary DD-214 form in hand, the actual work done by VA 
employees to complete the rating decision and place the disability 
compensation benefit in the new veterans account is not accurately 
measured. At least 60 days is spent by VA staff developing a claim 
before a servicemember's discharge but this is not included in its 
measures of timeliness for processing BDD claims, even though claims 
development is included in VA's timeliness measures for traditional 
disability claims. According to the aforementioned GAO Report, VA data 
shows that it is not processing claims (including BDD claims) as 
quickly as expected. By the end of FY 2007, it was taking an average of 
76 days to complete BDD claims, even though VA has an informal goal of 
completing work on BDD claims no later than 60 days after discharge. In 
contrast, VA was taking an average of 183 days to complete all claims, 
compared to a goal of 125 days.
    While information detailing the timeliness of receipt of benefits 
after discharge is useful, excluding the time spent on development of 
claims makes it difficult to identify and understand any challenges in 
this stage of the process. This, in turn, impacts VA's ability to 
identify problems in a timely fashion and develop viable solutions to 
address them. The GAO Report GAO-08-901 noted,

         Personnel in 12 of the 14 BDD intake bases we reviewed 
        indicated significant challenges with various claims 
        development activities. For example, personnel on several bases 
        told us they had a hard time scheduling exams, because 
        servicemembers were leaving the area so they could complete 
        their service at home, among other reasons. Also, 
        servicemembers at several bases may have to obtain more than 
        one exam and therefore take more time to complete their BDD 
        claim. Challenges such as these may delay the development of 
        servicemembers' claims, putting them at risk of having to drop 
        out of the BDD program. Unless VA tracks performance related to 
        claims development prior to discharge, it cannot easily 
        identify problems and compare performance across BDD locations.

    The report also noted, ``VA calculates a national accuracy rate, 
based on the percentage of claims that were processed without any 
errors. However, VA's accuracy reviews to date have focused on claims 
overall, and have not targeted specific types of claims, such as BDD. 
VA officials stated that the current sample approach and size are 
sufficient for estimating a national accuracy rate, but are not 
sufficient for obtaining precise results for specific types of claims. 
Consequently, VA is unaware of the extent to which BDD claims are more 
or less accurately processed relative to other claims and has 
incomplete information to help identify problems or challenges that BDD 
locations may face related to accurately developing claims.''
    As mentioned earlier, the servicemember applying for VA benefits 
through BDD or Quick Start must provide either the original or a copy 
of their paper service treatment records. This burden will be overcome 
for them and every other servicemember applying under other programs 
once the Veterans Lifetime Electronic Record is established.
    Another important step would be the implementation of a single 
comprehensive medical examination as a prerequisite to completing the 
military separation process. If and when a single separation physical 
becomes the standard, VA should have this responsibility because it has 
the expertise to conduct a comprehensive examination as part of its 
compensation and pension process.
    The problem with separation physicals identified for active duty 
servicemembers is compounded when mobilized Reserve and Guard forces 
enter the mix. A mandatory separation physical is not required for 
demobilizing Reserve and Guard members. Unfortunately, there have been 
some cases when they were not made aware of this option, which later 
negatively impacted their ability to obtain a favorable service 
connection. While separation physical examinations of demobilizing 
personnel have greatly improved, there are still a number of 
servicemembers who ``opt out'' of the physicals, even when encouraged 
by medical personnel to have them. While the expense and manpower 
needed to facilitate these physical exams might be significant, the 
separation physical is critical to the future care of demobilizing 
servicemembers. Mandatory separation physical examinations would also 
enhance collaboration by the DoD and VA to identify, collect, and 
maintain the specific data needed by each to recognize, treat, and 
prevent illnesses and injuries resulting from military service.
    The DoD and VA have made positive strides in transitioning our 
nation's military to civilian lives and jobs. The Department of Labor's 
(DOL) Transition Assistance Program (TAP) and Disabled Transition 
Assistance Program (DTAP), which are handled by the Veterans Employment 
and Training Service (VETS) are typically the first point of contact 
with the VA and DOL for a separating servicemember. Thanks to the 
insistence of the DoD, local commanders are allowing more of their 
soldiers, sailors, airmen, marines, and coastguardsmen to attend these 
courses well enough in advance to take advantage of the information 
they receive.
    The TAP and DTAP programs have continued to improve, but challenges 
remain at some local military installations, overseas locations and 
with services and information for those with injuries. The prospect of 
a servicemember after having been on multiple deployments to return 
stateside and then be placed on medical or administrative hold has 
persuaded some from filing a claim for VA compensation or other 
ancillary benefits. Also, though individuals are receiving the 
information, the haphazard nature and quick processing time may allow 
some individuals to fall through the cracks. This is of particular 
concern in the DTAP program where those with severe disabilities may 
already be getting health care and rehabilitation from a VA spinal cord 
injury center despite still being on active duty. Because these 
individuals are no longer located on or near a military installation, 
they are often forgotten in the transition assistance process. DTAP has 
not had the same level of success as TAP, and it is critical that 
coordination be closer between the DoD, VA, and VETS to improve this 
disparity.
    Many veterans with significant disabilities are turning to state 
vocational rehabilitation and workforce development systems because of 
these and other impediments to accessing VA's vocational rehabilitation 
and employment benefits. Almost all state vocational rehabilitation 
agencies have entered into memoranda of understanding with VA to serve 
veterans. Disabled Veterans Outreach Program and Local Veterans' 
Employment Representative Program personnel are often housed in state 
One-Stop Career Centers and these positions are often praised as a 
model that should be emulated by the broader workforce system. However, 
all of these vocational programs are under considerable resource 
distress and their ability to serve veterans who are unserved by the 
Vocational Rehabilitation and Employment Service is hindered by their 
own personnel and budgetary limitations.
    Although the achievements of the DoD and VA have been good with 
departing active duty servicemembers, there is a much greater concern 
with the large numbers of Reserve and National Guard servicemembers 
moving through the discharge system. Both the DoD and VA seem ill-
prepared to handle the large numbers and prolonged activation of 
reserve forces for the global war on terrorism. The greatest challenge 
with these servicemembers is their rapid transition from active duty to 
civilian life. If servicemembers are uninjured, they may clear the 
demobilization station in a few days, and little of this time is 
dedicated to informing them about veterans benefits and services. 
Additionally, DoD personnel at these sites are most focused on 
processing soldiers through the site. Lack of space and facilities 
often restricts contact between demobilizing soldiers and VA 
representatives.
    The DoD and VA have made progress in the transition process. 
Unfortunately, limited funding and a focus on current military 
operations interfere with providing for servicemembers who have chosen 
to leave military service. If we are to ensure that the mistakes of the 
first Gulf War are not repeated during this extended global war on 
terrorism, it is imperative that a truly seamless transition be 
created. With this, it is imperative that proper funding levels be 
provided to VA and the other agencies providing services for the vast 
increase in new veterans from the National Guard and Reserves. 
Servicemembers exiting military service should be afforded easy access 
to health care and other benefits that they have earned. This can only 
be accomplished by ensuring that the DoD and VA improve their 
coordination and information sharing to provide a seamless transition.
    A review of the VA/DoD Joint Executive Council's Strategic Plan for 
FY 2009 to 2011 addresses the issue of seamless transition in Goal 3, 
Seamless Coordination of Benefits. Their goal is to ``enhance 
collaboration efforts to streamline benefits application processes, 
eliminate duplicative requirements, and correct other business 
practices that complicate the transition from active duty to veterans 
status.'' Their objective is ``to improve participation in the BDD 
program nationwide and ensure servicemembers are afforded the single 
cooperative examinations where available.'' To achieve this goal, the 
Benefits Executive Council's Benefits Delivery at Discharge Working 
Group is to align BDD with concurrent efforts dedicated to streamlining 
delivery of VA benefits for eligible personnel; calculate and analyze 
BDD participation rates at MOU sites; and instill ownership of BDD with 
operational commanders. While strategic goals and objectives are 
important, they achieve the best results when there are measureable 
outcomes with clear due dates. A review of this objective finds 
neither. So, this successful program may lack the clarity of data from 
the DoD as well, which may delay even greater utilization of this 
important and effective program.
    It is the recommendation of the DAV that:

         1.  DoD and VA ensure that servicemembers have a seamless 
        transition from military to civilian life.
         2.  DoD and VA continue to develop electronic medical records 
        that are interoperable and bidirectional, allowing for a two-
        way electronic exchange of health information and occupational 
        and environmental exposure data. These electronic medical 
        records should also include an easily transferable electronic 
        DD-214.
         3.  In accordance with the recommendation of the FY 2008 
        National Defense Authorization Act and the recommendation of 
        the President's Commission, the DoD and VA implement a single 
        comprehensive medical examination as a prerequisite of promptly 
        completing the military separation process. VA should be 
        responsible for handling this duty.
         4.  DoD and VA encourage active duty servicemembers to seek 
        veterans service organization representation during 
        outprocessing and discharge examinations.
         5.  Congress and the Administration provide adequate funding 
        to support TAP and DTAP which are managed by the DOL Veterans 
        Employment and Training Service to ensure that active duty, as 
        well as National Guard and Reserve, servicemembers do not fall 
        through the cracks while transitioning.
         6.  VA track and account for the time needed for claims 
        development activities that occur prior to discharge in the 
        agency's timeliness calculation for BDD and pre-discharge 
        claims;
         7.  VA separately estimate the accuracy of BDD and 
        predischarge claims;
         8.  VA collect data for all claims filed by Service component 
        and analyze the extent to which different components are filing 
        claims and receiving timely benefits under BDD, Quick Start, 
        predischarge and traditional claims processes;
         9.  VA include program reviews of BDD operations as part of 
        oversight visits to regional offices with BDD operations and 
        ensure such reviews are consistently conducted and reported;
        10.  DoD establish an accurate measure of servicemembers' 
        participation in TAP including VA benefit briefings; and
        11.  DoD establish a plan with specific time frames for meeting 
        its goal of 85 percent participation rate in TAP.

    Mr. Chairman, this concludes my testimony. I will be pleased to 
answer any questions you or the Committee may have.

                                 <F-dash>
  Prepared Statement of Diana Rubens, Associate Deputy Under Secretary
      for Field Operations, Veterans Benefits Administration, U.S. 
                               Department
                          of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, it is my pleasure to 
be here today to discuss our ongoing nationwide Benefits Delivery at 
Discharge (BDD) and Quick Start pre-discharge programs. Joining me 
today is Bradley Mayes, Director of the Department of Veterans Affairs 
(VA) Compensation & Pension (C&P) Service.
    The BDD and Quick Start programs are two elements of the Veterans 
Benefits Administration's (VBA) strategy to provide transitional 
assistance to separating or retiring servicemembers and engage 
servicemembers in the claims process prior to discharge. A pre-
discharge claim is any claim received from a servicemember prior to 
release from active duty. VBA's goal is to ensure that each and every 
servicemember separating or retiring from active duty who wishes to 
file a claim with VA for service-connected disability benefits will 
receive assistance in doing so.
    Participation in the BDD program is open to servicemembers who are 
within 60 to 180 days of being released from active duty and who are 
able to report for a VA examination prior to discharge. However, for 
those servicemembers with 59 days or less before separation, VA 
introduced the ``Quick Start'' pre-discharge claims process in July 
2008. This provides servicemembers within 59 days of separation, or 
servicemembers within 60-180 days of separation who are unable to 
complete all required examinations prior to leaving the point of 
separation, to be assisted in filing their disability claim.
    The BDD and Quick Start pre-discharge programs offer advantages to 
Veterans. Minimal development is required because service records are 
readily available and examinations are requested prior to discharge. 
Once service treatment records are obtained, the servicemember 
acknowledges that notification required by the Veterans Claims 
Assistance Act of 2000 has been provided and is offered the opportunity 
to acknowledge that no additional medical evidence needs to be 
submitted. After the VA examination is conducted, the claim can be 
rated in a timely manner. This process has generated a very high 
participation rate among servicemembers because disability benefits are 
received shortly after separation from service. During fiscal year (FY) 
2009, BDD and Quick Start claims represented just over 20 percent of 
all original compensation claims received nationwide. However, during 
this same period, approximately 65 percent of separating servicemembers 
who filed their claims within one year of their discharge did so 
through the BDD and Quick Start programs.
    The average processing time, or average days to complete (ADC), for 
BDD and Quick Start claims continues to show gradual improvement. At 
the end of FY 2009, ADC for BDD claims was 70.8 days. At the end of FY 
2009, ADC for Quick Start claims was 105.9. ADC for both programs 
remains significantly lower than the nationwide ADC (160.7 days at the 
end of FY 2009) for all disability rating claims received.

Background

    VBA established the BDD program at three VA regional offices and 
three Army installations in 1995, and nationwide expansion began in 
1998. Expansion promoted the development of claims and the conduct of 
physical examinations sufficient for VA rating purposes prior to 
separation with a disability rating to be completed as closely 
proximate as possible to separation from active duty.
    As the program gained momentum, the Department of Defense (DoD) and 
VA signed a national memorandum of agreement in 2004 to establish the 
specific responsibilities of each department. At the same time, a team 
of VBA leaders from central office, area offices, and regional offices 
(ROs) developed a proposal in November 2004 for consolidation of BDD 
claims processing. This provided an opportunity to improve consistency 
in the way BDD claims are received and processed. It also allowed VBA 
to reach a greater number of servicemembers as well as improve the 
quality and accuracy of rating decisions. The Winston-Salem and Salt 
Lake City ROs were selected as consolidated processing locations. BDD 
claims from the Eastern and Southern Areas were consolidated to 
Winston-Salem, while the BDD claims from the Central and Western Areas 
were transferred to Salt Lake City. This consolidation was completed in 
April 2007.
    BDD claims processing was further streamlined by incorporating 
imaging technology to enable paperless processing of these claims. 
Paperless BDD claims processing began as a pilot at the Winston-Salem 
Rating Activity Site (RAS) in March 2006 and was expanded to the Salt 
Lake City RAS in March 2007. The goal was to paperlessly process BDD 
claims through their entire life cycle, from initial submission through 
adjudication and if applicable, appeal resolution. The advantages to 
processing BDD claims in a paperless environment included the reduction 
of time and costs associated with shipment of claims folders. In August 
2008, all BDD claims were sent to our scanning vendor for paperless 
claims processing at the two RAS, and the expansion of BDD paperless 
claims processing was complete.
    Consolidation of pre-discharge claims continued with the 
consolidation of Quick Start claims to the San Diego RO and Winston-
Salem RO in 2009. The San Diego RO handles claims filed within VA's 
central and western areas and also those filed from military 
installations in Korea. The Winston-Salem RO handles claims filed 
within VA's eastern and southern areas and also those filed from 
military installations in Germany.

Current Technology Environment

    Currently, all BDD claims are sent to VBA's scanning vendor, Hands 
On Ventures Services. All information located within a BDD claims 
folder is scanned and uploaded into Virtual VA. Virtual VA is the 
current image repository and provides image capture, storage, and 
retrieval. The existing Virtual VA architecture and configuration are 
not a scalable solution for all C&P processing or VBA. The Veterans 
Benefits Management System (VBMS) initiative is a large-scale effort to 
develop an IT solution that is built on a scalable, agile architecture. 
Coupled with VBA's business transformation strategy, the VBMS 
initiative will enable our organization to reach its goal of a benefits 
delivery model that provides world-class service to our nation's 
Veterans.

Staffing

    VBA currently has 143 employees dedicated to processing BDD claims 
at the Winston-Salem and Salt Lake City RAS, and 129 employees at 
Winston-Salem and San Diego dedicated to processing Quick Start claims. 
Additional management and administrative staff are assigned to support 
BDD and Quick Start claims processing. These employees are dedicated 
and provide excellent service to participants in both programs.

Outreach Efforts

    To ensure that servicemembers are aware of both the BDD and Quick 
Start programs, VA developed several outreach initiatives. Brochures 
describing the BDD and Quick Start processes are distributed to 
servicemembers approaching separation. They are provided to all 
military installations involved with the programs and are handed out to 
servicemembers during pre-discharge workshops describing VA benefits. 
In addition, a Web page on VA's Internet site describes the pre-
discharge programs and explains all requirements. To simplify the 
actual claims process, BDD and Quick Start claimants can now apply 
online. These outreach initiatives increase servicemembers' access to 
VA benefits and improve claims processing timeliness.
    In addition to the BDD and Quick Start programs, VA continues to 
collaborate with DoD in the seamless transition initiative, promoting a 
smooth and efficient transition for individuals separating from the 
military. This includes National Guard and Reserve members who are 
demobilizing from overseas deployment and returning to their home 
units. VBA and the Veterans Health Administration conduct joint 
briefing sessions at military bases designed to provide information on 
the entire range of VA benefits and health care services.
    One formal pre-discharge outreach program conducted by VA and the 
Departments of Defense and Labor is the Transition Assistance Program 
(TAP). During TAP briefings, VBA personnel explain the disability 
compensation process and provide assistance to servicemembers 
interested in filing a claim. The Disabled Transition Assistance 
Program (DTAP) is specifically designed to assist servicemembers facing 
separation because of disability incurred during service. In addition 
to TAP and DTAP briefings, VA conducts informational sessions for 
demobilized National Guard and Reserve members at the unit's community 
location.
    Another major seamless transition project resulting from DoD and VA 
collaboration is the Disability Evaluation System (DES) for the 27,000 
servicemembers who enter the medical evaluation board process on an 
annual basis. The goals are to improve consistency of outcomes, 
establish an increased sense of equity by DES participants, increase 
transparency, reduce the time servicemembers are in the process, and 
ease their transition to civilian life. This joint effort reduced the 
time from separation to receipt of initial VA disability payment to an 
average of 25 days. By end of March 2010, the pilot will be at 27 
installations, accounting for 46 percent of all DES participants. Plans 
are underway for full deployment of the pilot process, pending 
authorization of the VA/DoD Senior Oversight Committee.

Conclusion

    VBA is committed to providing efficient and timely service to our 
nation's Veterans. We will continue to evaluate the BDD and Quick Start 
programs to identify improvements that can be accomplished with the 
current technology platform and to capture requirements for new 
technology capabilities to further enhance benefits delivery under 
these important programs and improve Veterans' experience. This 
concludes my testimony. I would be pleased to address any questions you 
may have.

                                 <F-dash>
       Statement of American Federation of Government Employees,
           AFL-CIO and AFGE National Veterans Affairs Council
    Thank you for the opportunity to present the views of members of 
the American Federation of Government Employees (AFGE) and the AFGE 
National Veterans Affairs Council (AFGE NVAC) who process claims under 
the Benefits Delivery at Discharge (BDD) and Quick Start Programs.

Recommendation: Eliminate Redundancy

    One of the most significant problems plaguing the BDD and Quick 
Start Program is the redundancy created by two separate programs that 
essentially perform the same task. The only real difference between the 
two programs is application deadlines, i.e. between 60 and 180 days 
prior to separation for BDD, and 60 days or less for Quick Start.
    The operation of two similar program results in the unnecessary 
duplication of resources, including supervisory and support personnel. 
This arrangement also creates inequities: Since the Quick Start team 
works exclusively on claims filed within 60 days prior to separation; 
they are necessarily completing more recent claims than those being 
processed in BDD.
    It would be more efficient and equitable to place both programs 
under the BDD umbrella and eliminate the arbitrary restriction that BDD 
claims cannot be filed within 60 days prior to separation. In addition, 
all claims processed from active military service under the pre-
discharge processes should be processed via a Paperless Claims 
Processing System. As the VA is transitioning into the paperless 
environment, to continue processing claims outside of the paperless 
system, as Quick Start does, will only result in further delays in the 
transition.

Recommendation: Improve Training

    Our VBA members express great frustration at the lack of adequate 
training generally, and specifically for these programs. Current 
training requirements for VBA employees processing BDD and Quick Start 
claims is minimal, consisting exclusively of emails that list 
references to review. Employees are denied the opportunity for 
interaction or discussion about many of the complicated tasks required 
to process these pre-discharge claims.

Recommendation: Stop consolidation of paperless pre-discharge claims

    With regard to claims handled through Supplemental Paperless Claims 
Processing, AFGE and AFGE NVAC recommend that all claims be maintained 
in the VARO of jurisdiction. Consolidation of paperless pre-discharge 
claims to centralized locations is a disservice to veterans, especially 
since the paperless claims processing system is now available for use 
by all offices. Consolidation results in unnecessary delays in 
processing when the need for additional development or examinations 
arises, and the claim is no longer located in the state where the 
veteran resides.
    The current practice of isolating paperless claims (following the 
initial rating action) at the VARO Winston Salem and VARO Salt Lake 
also results in unnecessary delays in filing supplemental claims. 
Veterans who participate in the Quick Start program have their claims 
forwarded to the VARO of jurisdiction. Veterans should not be treated 
differently due to the time in which they filed their claim during 
separation.

Recommendation: Increase the quality and consistency of C&P Exams

    The poor quality of many C&P exams, and thus, the need for re-
examination, results in further processing delays. These exam 
deficiencies particularly impact pre-discharge claims.

Recommendation: Improve tracking of pre-discharge claims

    Currently, BDD and Quick Start claims are only tracked after 
discharge, when most of the development is already complete. AFGE and 
AFGE NVAC concur with GAO's recommendation to track BDD and Quick Start 
claims during the development process. Tracking during claims 
development would enable VBA to identify areas of deficiencies.
    For example, a common problem with pre-discharge cases is the 
difficulty of obtaining service treatment records (STRs). The current 
practice of requesting a copy of the veteran's STR at his or her DTAP 
briefing works well for those who are part of the regular armed forces. 
However, some of these veterans have prior periods of service; before 
the case can be rated, VBA must obtain the STRs for all periods of 
service. This results in additional delay because VBA must then request 
STRs from the National Personnel Records Center or Records Management 
Center.
    Tracking during the development process would enable VBA to spot 
deficiencies, such as how many veterans have prior periods of service 
and the timeliness delays that are caused by not requesting all STRs up 
front.
    Another problem concerning STRs involves veterans from the National 
Guard or Reserve. They are not required to submit STRs with their 
application and the obligation falls on VBA to obtain the STRs from the 
state adjutant general or from the reserve unit. This often causes 
delays in the claims process because the employee frequently has to 
send multiple requests to get these records. Often times records for 
these veterans are never received.
    Therefore, VBA should be tracking how many cases are submitted by 
National Guard and Reservists and the amount of time required to obtain 
their STRs, as well as how often the STR is unavailable. Tracking would 
also enable VBA to identify improper denials resulting from missing 
STRs.
    Thank you.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                     March 25, 2010
Daniel Bertoni
Director, Education, Workforce, and Income Security Issues
U.S. Government Accountability Office
441 G Street, NW
Washington, DC 20548

Dear Mr. Bertoni:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on the ``Examination of the Benefits Delivery at 
Discharge and Quick Start Programs,'' held on February 24, 2010. I 
would greatly appreciate if you would provide answers to the enclosed 
follow-up hearing questions by Monday, April 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                                     U.S. Government Accountability
                                                    Washington, DC.
                                                     April 16, 2010
The Honorable John J. Hall
Chairman
Subcommittee on Disability and Memorial Affairs
Committee on Veterans' Affairs
House of Representatives

Subject: Responses to Questions for the Record--Hearing Entitled 
Examination of the Benefits Delivery at Discharge and Quick Start 
Programs

Dear Mr. Chairman:

    This letter responds to your March 25, 2010 request that we address 
questions for the record related to the Subcommittee's February 24, 
2010 hearing examining the Benefits Delivery at Discharge and Quick 
Start Programs. Our responses to the questions, which are in the 
enclosure, are based on our previous work and knowledge of the subjects 
raised by the questions.
    If you have any questions about the letter or need additional 
information, please contact me at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294b4c5b5d4647404d694e4846074e465f07">[email&#160;protected]</a>
            Sincerely yours,

                                                     Daniel Bertoni
         Director, Education, Workforce, and Income Security Issues
    Enclosure

                               __________

  Response to Questions from the House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
 Oversight Hearing the ``Examination of Benefits Delivery at Discharge 
                       and Quick Start Programs''
                           February 24, 2010
        1.  In your testimony, you recommended that DoD expand 
        mandatory Transition Assistance Program (TAP) briefings beyond 
        the Marine Corps to all military service branches.

    In our 2008 report, we recommended that to ensure that potentially 
eligible participants are aware of the BDD program, DoD should 
establish a plan with specific time frames for meeting its goal of 85 
percent participation in TAP. Increased participation in the VA 
benefits session in TAP may allow more members to self-identify their 
eligibility for these programs. Although DoD reported to us in 
September 2009 that it is preparing to develop a plan and specific time 
frames in the coming months, the longer the agencies lack a plan or a 
way to accurately measure progress toward meeting the TAP participation 
goal, the less information they will have on the extent to which VA 
benefits briefings are reaching all transitioning servicemembers may 
benefit from VA's pre-discharge programs.

    In your opinion, what are the pros and cons of this proposed 
expansion of TAP?

    In our 2008 report \1\, we note that according to DoD and VA 
personnel, servicemembers most commonly learn about the program through 
VA benefits briefings conducted as part of TAP sessions. We found that 
without such briefings, some members may not recognize they are 
entitled to receive VA benefits, and may file claims through BDD or 
Quick Start programs. However, because briefings are not mandatory for 
all service branches, whether commanders and supervisors encourage 
servicemembers to attend briefings varies by base. Moreover, some DoD 
officials told us that servicemembers may not recognize the importance 
of the VA benefits briefings if participation is not required, because 
members have a host of discharge requirements and limited time to 
complete them.
---------------------------------------------------------------------------
    \1\ GAO, Veterans' Disability Benefits: Better Accountability and 
Access Would Improve the Benefits Delivery at Discharge Program, GAO-
08-901 (Washington, D.C.: Sept. 9, 2008).
---------------------------------------------------------------------------
    While VA and DoD have explored the expansion of TAP, they have not 
made participation in TAP sessions mandatory for servicemembers. We 
reported in a 2005 report \2\ that command supervisors may feel that 
mission needs are too pressing to allow some servicemembers to 
participate in TAP. In addition, DoD officials have indicated that 
because TAP sessions involve components from three federal agencies--
DoD, VA, and DOL--the coordination of a mandated program could be 
challenging.
---------------------------------------------------------------------------
    \2\ GAO, Military and Veterans' Benefits: Enhanced Services Could 
Improve Transition Assistance for Reserves and National Guard, GAO-05-
544 (Washington, D.C.: May 20, 2005).

    Could VA's disability claims process be improved by establishing 
the BDD or Quick Start programs as automatic components of the 
discharge process for all servicemembers, whether they are claiming a 
---------------------------------------------------------------------------
service connected disability or not?

    Filing a VA disability claim through the BDD program can be faster 
than filing a claim as a veteran under the traditional claim process, 
because medical records are more readily accessible and key forms 
needed to process the claim can be signed immediately. Moreover, 
establishing that the claim is related to the member's military service 
may be easier, since the member is still on active duty status. On the 
other hand, expanding the number of claims processed through the BDD 
and Quick Start programs to include all servicemembers who are 
discharged regardless of whether they have a service connected 
disability will likely result in processing ineligible claims, which in 
turn may negate some of the programs' efficiencies. Any decrease in the 
overall speed of claims processing may result in less timely receipt of 
VA disability compensation for all servicemembers participating in the 
programs. This is especially true since, over the last several years, 
VA has experienced an increase in disability compensation claims, which 
in turn has contributed to a growing number of pending claims.

        2.  A Veteran Service Organization (VSO) representative 
        testified that the BDD and Quick Start programs could be 
        improved by allowing servicemembers to start the pre-discharge 
        process earlier, perhaps as early as six months before 
        discharge. What impact would such a move have on further 
        improving the BDD and Quick Start programs? Do you think that 
        an earlier start date for the pre-discharge process might 
        permit disabled veterans to begin receiving benefit 
        compensation within a month after discharge rather than 180 
        days after discharge, on average, as is the case now?

    Under the BDD program's current structure, servicemembers may 
initiate a claim as early as 180 days (6 months) prior to discharge or 
as late as 60 days (2 months) prior to discharge. According to VA, 
these times frames allow for sufficient time prior to discharge for 
local VA personnel at BDD intake sites located on or near the base to 
assist members with their disability applications, including scheduling 
their exam(s). While a claim may be developed prior to discharge, VA 
cannot authorize the award until the member is discharged. To the 
extent that 180 days provides sufficient time to process BDD claims and 
VA is legislatively restricted regarding when it can authorize and 
award payments until discharge, it is unclear how allowing a member to 
file a claim earlier than the 180 days currently allowed would improve 
the BDD program or expedite receipt of benefits.
    Quick Start claims are available for servicemembers--such as 
National Guard and Reservists--who are not able to meet BDD program 
requirements, such as remaining on base long enough to complete exams 
within the 60-180 day time window. Unlike BDD claims, Quick Start 
claims generally require additional development after discharge, which 
can delay award decisions and receipt of payment. Our prior work did 
not explore the feasibility or efficacy of initiating the process 
earlier for servicemembers--such as National Guard and Reservists--who, 
because they are deactivated quickly after returning to their home 
base, generally have difficulty meeting BDD program requirements.

        3.  In your testimony, you note that most VA and DoD Memos of 
        Understanding (MOU) require a VA physician to administer the 
        joint physical exam required by the BDD and Quick Start 
        programs. As a result, you observe that many servicemembers 
        stationed on bases with no access to VA physicians cannot 
        secure the joint exam needed for the BDD program. How should 
        this problem be fixed, and what can Congress do to assist the 
        resolution of this issue?

    Most VA and DoD BDD MOUs require a VA physician to administer the 
joint physical exam offered under the BDD program. However, a physical 
exam prior to discharge is not a requirement for participation in the 
Quick Start program. In our 2008 report, we recommended that to ensure 
that servicemembers have full access to a cooperative exam process that 
is convenient, efficient, and consistent for servicemembers, the Chairs 
of the Joint Executive Council should direct the Benefits Executive 
Council to identify and disseminate information on promising practices 
that address challenges local officials commonly face. VA and DoD have 
taken some steps to implement this recommendation, including 
collaborating to identify best practices for dealing with the 
cooperative exam process as it relates to the challenges local 
personnel commonly face.
    In addition, DoD and VA are piloting a joint disability evaluation 
process involving a single physical exam for servicemembers who may 
need to be discharged due to a disabling condition. The pilot is 
currently taking place at 27 military facilities, many of which are 
also BDD facilities, and DoD and VA are considering whether to expand 
the pilot DoD-wide. The pilot may present an additional opportunity to 
improve collaboration and communication between DoD and VA. However, it 
could also present challenges, for example, by increasing local VA 
offices' exam caseloads. GAO has a review underway of the disability 
evaluation system pilot.

        4.  Your testimony noted that VA consolidated the claims 
        processing operations for the BDD program into two VA Regional 
        Offices (ROs), in Winston-Salem, NC and Salt Lake City, UT. 
        Quick Start claims are also processed in two locations, the 
        Winston-Salem RO and the San Diego RO. One VSO representative 
        recommended that the processing of these claims could be 
        expedited by permitting all ROs to process BDD and Quick Start 
        claims. Do you agree with this recommendation, or do you 
        recommend another approach?

    In our 2008 report, we noted that in 2006 VA completed its effort 
to consolidate rating activities for BDD claims in two regional 
offices--Salt Lake City, Utah, and Winston-Salem, North Carolina--in 
order to improve the consistency and timeliness of BDD ratings. We 
noted that VA had not evaluated whether consistency or timeliness had 
improved compared to prior practices, although VA officials told us 
they monitored claims workloads between the rating offices and in one 
case sent claims from one office to the other so claims could be 
processed more quickly. Since our report, in August 2009, VA 
consolidated the processing of Quick Start claims to two locations, 
Winston-Salem, North Carolina and San Diego, California. Consistent 
with our prior recommendation related to another initiative \3\, before 
VA considers making changes to its Quick Start processes, such as 
adding additional rating sites, it would be prudent for VA to evaluate 
the impact of consolidation on timeliness as well as on consistency of 
Quick Start claims processing.
---------------------------------------------------------------------------
    \3\ In our 2008 report, we recommended that VA conduct an 
evaluation of the paperless claims processing initiative to determine 
which adjustments, if any, are needed to improve implementation of the 
program.

        5.  In 2009, a reported 65 percent of separating servicemembers 
        who filed a claim within one year of their discharge did so 
        through one of these programs. Is this an acceptable level of 
---------------------------------------------------------------------------
        participation? If not, what should be the proper target?

    For several years, VA has had a strategic target that 65 percent of 
separating servicemembers who filed a claim within one year of 
discharge would file through the BDD program. According to VA, while 
the agency has yet to reach that goal, it is striving to do so by 2011. 
VA recently modified the measurement of BDD participation by including 
only those members who discharge from BDD locations (in the past, it 
had included members discharging from any location, including those 
that did not accept BDD claims). This change reduces the number of 
servicemembers counted in the denominator without changing the 
numerator, and therefore makes VA's target of 65 percent easier to 
reach.
    Beyond this change, VA may also have begun to include claims filed 
under the Quick Start program in the BDD participation rate numerator. 
In its 2009 Performance and Accountability Report, VA reported that the 
BDD participation rate now includes those whose ``date of claim'' is 
before discharge, which presumably would include servicemembers who use 
the Quick Start program. Because Quick Start claims can be filed from 
any location, this adjustment could result in some servicemembers being 
counted in the numerator (for filing Quick Start Claims) and not in the 
denominator (for filing from non-BDD locations). Further, if the BDD 
participation rate does include Quick Start claims, then it may make 
sense to have a target that is higher than 65 percent participation, 
since the current target was set before Quick Start existed.
    In our prior work, we were unable to obtain data from DoD on the 
number of servicemembers discharged from BDD versus non-BDD locations 
and therefore did not assess the appropriateness of the adjusted 65 
percent target. Regardless of the target rate, we continue to believe 
that--because servicemembers generally learn about BDD through TAP--it 
is important that VA and DoD make progress toward developing a plan and 
an accurate measure for achieving their TAP participation goal.

                                 <F-dash>
                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                     March 25, 2010
The Honorable Noel Koch
Deputy Under Secretary of Defense
Office of Wounded Warrior Care and Transition Policy
U.S. Department of Defense
1400 Defense Pentagon
Washington, DC 20301

Dear Mr. Koch:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on the ``Examination of the Benefits Delivery at 
Discharge and Quick Start Programs,'' held on February 24, 2010. I 
would greatly appreciate if you would provide answers to the enclosed 
follow-up hearing questions by Monday, April 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

        Questions From the House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
    Oversight Hearing the ``Examination of the Benefits Delivery at 
                  Discharge and Quick Start Programs''
                           February 24, 2010
    Question 1: Your testimony pointed out that servicemembers learn of 
the BDD and Quick Start programs during Transition Assistance Program 
(TAP) briefings. However, a 2008 report issued by the U.S. Government 
Accountability Office (GAO) entitled Veterans' Disability Benefits: 
Better Accountability and Access Would Improve the Benefits Delivery at 
Discharge Program, revealed that only the Marines have made these 
briefings mandatory. The Subcommittee has learned that while Department 
of Defense (DoD) policy requires commanders to allow servicemembers to 
attend TAP sessions upon the member's request, in some cases 
servicemembers have not been released from their duties to attend the 
briefings. Why aren't TAP briefings mandatory for all branches, and 
what additional resources, if any, does DoD need to make TAP briefings 
mandatory for all of the service branches?

    Answer: The Department would have to defer to the Departments of 
Labor and Veterans Affairs regarding modifying mandatory servicemember 
participation in TAP. DoD does not have the authority to make those 
sessions mandatory.
    The Joint Executive Committee (JEC) requested the TAP Steering 
Committee, an inter-agency body (representatives from Departments of 
Defense, Labor, Veterans Affairs, Homeland Security, the Military 
Departments, and the Office of Personnel Management) responsible for 
monitoring all aspects of TAP, to develop a plan for mandatory TAP 
briefings. This plan will be presented at the June JEC meeting.

    Question 2: At what point does the pre-discharge process begin once 
a servicemember approaches the date of their discharge? Are 
servicemembers transferred out of theatre to have their physicals, get 
TAP briefings, and complete other decommissioning procedures?

    Answer: Servicemembers can file a BDD claim no more than 180-days 
but not less than 60 days prior to separation, retirement, or in the 
case of a National Guardsman/Reservist, release from active duty. It is 
VA policy that the Servicemember filing under BDD must: (1) have a 
known separation date; (2) complete a single joint examination; (3) 
turn in a complete copy of their medical record at the time they submit 
their BDD claim.
    Quick Start program claims can be filed no more than 59-days before 
but not less than 1 day prior to separation, retirement, or in the case 
of a National Guardsman/Reservist, release from active duty. The same 
requirements for BDD are applicable to Quick Start claims.
    In regard to location, no, DoD does not transfer servicemembers out 
of theater to complete physical exams, get TAP briefings, or complete 
other decommissioning requirements.
    These pre-discharge program requirements were established by the 
Department of Veterans Affairs.

    Question 3: A veteran service organization (VSO) representative 
testified that the BDD and Quick Start programs could be improved by 
allowing servicemembers to start the pre-discharge process earlier, 
perhaps as early as 6 months before discharge. What are the pros and 
cons of starting the pre-discharge process earlier in DoD's opinion?

    Answer: The following pros and cons reflect the opinions, not DoD 
policy.

    Pros of starting the pre-discharge process earlier:

        1.  Servicemembers would have more time to assimilate the 
        enormous volume of information on the benefits, services, and 
        resources they may be entitled to receive.
        2.  A higher percentage of servicemembers re-enlist the earlier 
        they start the transition process compared to those starting 
        the transition process much later (findings from an Informal 
        Navy survey conducted in the 1990s).
        3.  Allows servicemembers to submit applications for VA 
        compensation claims in a timely manner before separating or 
        retiring.
        4.  Servicemembers would have more time to compare and weigh 
        their options for staying in the military vs. actually 
        separating or retiring.
        5.  Stressors normally associated with the entire transition 
        process and experience may be reduced if servicemembers start 
        the process earlier.
        6.  More spouses may become actively involved in the transition 
        process if the servicemember began the pre-discharge process 
        earlier.
        7.  Professional staffs should be able to manage clients 
        better, devote more time to those who need the most attention, 
        and provide more individualized assistance in counseling and 
        coaching servicemembers.

    Cons of starting the pre-discharge process earlier:

        1.  Will require the Services to increase resources. 
        Servicemembers who begin the process earlier tend to go back 
        multiple times for individualized counseling/coaching, compared 
        to the number of repeat visitors to transition offices when 
        servicemembers have little time remaining on Active Duty. (This 
        may be problematic for operations)
        2.  Demobilizing National Guard and Reservists would begin the 
        process in theatre. This would require additional facilities, 
        equipment, personnel, etc. to be permanently placed in theatre 
        to assist in the early transition process.
        3.  Conducting pre-discharge counseling in theater may not be 
        conducive for Servicemembers receiving and assimilating the 
        information and assistance.
        4.  For National Guard and Reservists, providing the transition 
        process earlier at home station would mean increasing the 
        number of non-training days a member would be called on Active 
        Duty to receive the necessary counseling and coaching. This 
        could also be a problem for employers.
        5.  For deployed National Guard/Reservists, they would not be 
        able to complete the joint DoD/VA physical examination while in 
        theater to take advantage of an earlier submission date. For 
        that reason, DoD would have to defer to the Department of 
        Veterans Affairs (VA) regarding changes in policy that would 
        allow earlier acceptance of pre-discharge claims and earlier 
        administration of the joint DoD/VA physical examination under 
        VA's program.

    Question 4: In your opinion, are there other ways for improving the 
pre-discharge process to facilitate increased usage of the BDD and 
Quick Start program for transitioning disabled servicemembers?

    Answer: Yes, there are other ways to improve the pre-discharge 
process. The Department is undertaking several initiatives to improve 
usage of BDD and Quick Start, for example Recovery Care Coordinators 
will be trained to inform transitioning disabled Servicemembers who 
they need to contact for assistance in applying for BDD/Quick Start. 
Also, we are modifying the pre-separation counseling checklist for 
Active Duty and the transitioning checklist for the Reserve Components 
so BDD/Quick Start items will be addressed by transitioning counselors. 
Lastly, we have added the pre-discharge link to the official DoD 
TurboTAP Web site and are doing strategic messaging on our social 
networking sites (i.e., Facebook and Twitter) to encourage early 
participation where services are available.

    Question 5: GAO noted in its testimony, that most VA and DoD Memos 
of Understanding (MOU) require a VA physician to administer the joint 
physical exam required by the BDD and Quick Start programs. GAO thus 
observed that many servicemembers stationed on bases with no access to 
VA physicians cannot secure the joint exam needed for the BDD program. 
How should this problem be fixed, and what can Congress do to assist 
the resolution of this issue?

    Answer: If the military installation is not located near a 
Department of Veterans Affairs (VA) hospital, VA can contract out the 
joint DoD/VA examination to meet the required examination protocol. At 
those military locations where the necessary resources are available 
(sufficient medical personnel/type of specialty equipment), DoD 
providers can also be trained to conduct the joint DoD/VA examination. 
The Department is closely monitoring these situations, and making the 
adjustments when needed.
    The Department appreciates Congressional support, and we will 
continue to work with Congress to provide legislative requests through 
the formal legislative request channels.

    Question 6: How many military bases are there, and what percentage 
of these bases enables servicemembers to access joint DoD/VA exams?

    Answer: The joint DoD/VA exam is provided at 131 military 
installations, which is 16 percent of the 820 U.S. military 
installations.

    Question 7: The Quick Start program was created to ensure that our 
soldiers serving in active duty from Guard and Reserve units can also 
take advantage of the benefits of the pre-discharge program. Are we 
offering Quick Start examinations at Guard bases, such as the NY 
National Guard's Camp Smith? If so, how many Guard bases have the 
resources to perform these Quick Start exams? What resources do you 
need to ensure that Quick Start exams can be offered at all bases that 
Guard Members and Reservists return after their active duty service?

    Answer: Yes, the Department offers examinations at 53 military 
installations where demobilization/deactivation of National Guard and 
Reserves takes place and there is a VA presence. NY National Guard Camp 
Smith is not currently one of those installations.

    The Department defers to VA on additional resources required for 
expanding the Quick Start program as VA is the administrator of the 
program.

    Question 8: How much time is needed, on average, to administer a 
joint DoD/VA exam?

    Answer: The Department of Veterans Affairs reports from October 1, 
2009 through March 31, 2010, took an average of 33.2 days to administer 
the joint DoD/VA exam.

                               __________

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                     March 25, 2010
Thomas Tarantino
Legislative Associate
Iraq and Afghanistan Veterans of America
292 Madison Avenue, 10th Floor
New York, NY 10017

Dear Mr. Tarantino:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on the ``Examination of the Benefits Delivery at 
Discharge and Quick Start Programs,'' held on February 24, 2010. I 
would greatly appreciate if you would provide answers to the enclosed 
follow-up hearing questions by Monday, April 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________


TO:                                 House Veterans Affairs Committee
                                     (DAMA)
RE:                                 Follow-Up Questions from IAVA's
                                     Testimony on February 24, 2010
PREPARED BY:                        Tom Tarantino, Legislative Associate


        1.  How would it help VA if the Transition Assistance Program 
        (TAP) briefings and BDD or Quick Start exams were mandatory for 
        all decommissioning servicemembers? Do you believe VA has the 
        resources needed for this expansion?

    Over the past year, VA has engaged in an ever-increasing effort to 
reach out to veterans in hopes of enrolling them into the VA Heath Care 
system. Mandatory TAP briefings would provide a captive audience to 
reach out to new veterans and explain how the VA can be used as a 
resource. Most servicemembers do not have a clear idea as to what the 
VA does, or what services it provides. Mandatory briefings at or near 
the point of discharge should be a key component to achieving a 
seamless transition from DoD to VA Care. These briefings should be 
uniform across all services and within a time frame that use of BDD and 
Quick Start programs are feasible.
    The VA has regional offices all over the Nation that cover every 
military base where out-processing is conducted, yet, there is no 
established procedure for having VA representatives liaising with DoD 
out-processing services. The VA should have a team in every VISN whose 
sole function is to be a new veterans first contact with the VA while 
processing out of the military. They should be experts in VA services 
and have the ability to either enroll them into VA health care, or 
direct them to a service officer for assistance with VBA claims. A new 
veteran shouldn't have to search to find the benefits that they have 
earned.

        2.  What can Congress do to assist VA and DoD in expanding TAP 
        briefings and BDD or Quick Start exams to all discharging 
        servicemembers?

    Congress needs to enact legislation that requires TAP briefings for 
all exiting servicemembers. While each service will have service 
specific components to the briefing, the timeline and the VA benefits 
portion should be uniform and explicit in statute. These briefings 
should be conducted by a VA expert and mandated in such a time frame 
where utilization of BDD and Quick Start programs are both convenient 
and realistic.

        3.  The Memo of Understanding (MOU) between VA and DoD largely 
        permits only VA physicians to conduct single exams. Is this a 
        problem and if so, should more training be provided to DoD 
        physicians so that they can conduct these exams more often?

    While it would be ideal for expedience and convenience to have both 
DoD and VA physicians conduct the exit physical evaluations, it isn't 
realistic. VA physicians are the only ones consistently qualified to 
conduct Compensation and Pension examinations and apply the VA schedule 
of rating. As the ultimate disability rating is under VA regulations, 
the examination should remain a VA function.

        4.  You testified that even when comprehensive physical exams 
        are administered, there is not enough time or resources to 
        complete them effectively. What might Congress do to resolve 
        this issue?

    As mentioned in my answer to question 2, TAP briefings must be 
mandatory with uniform benefits briefings. These briefings should be 
conducted within a time frame where utilization of BDD is realistic and 
covenant. In these briefings servicemembers should be able to begin the 
BDD or quick start process. This way, all parties have sufficient time 
to conduct the exams and evaluate the results.

        5.  GAO reported that VA has established only one measure for 
        gauging the effectiveness of the BDD and Quick Start programs. 
        However, it seams that VA has several means for measuring 
        general disability claims. Do you agree additional quality 
        measurements could assist VA in fully implementing BDD?

    Yes. However, the VA does not have a particularly good method for 
measuring quality in any of its disability claims. With a 17 percent 
error rate in the regular claims process, it's clear that this is an 
area that the VA must improve on as a whole. The STAR program is 
largely a quality assurance method, which is procedural in nature and 
does very little to ensure that the decisions themselves were correct. 
The VA needs to reassess its entire quality control program before 
extending the current broken evaluation system to BDD and Quick Start.

        6.  Some Veteran Service Organizations (VSOs) express 
        frustration by VA's lack of efforts in collaborating with them 
        in increasing utilization of BDD and Quick Start programs. 
        Please expand upon the challenges faces by your organization in 
        this regard? What can Congress do to increase the cooperation 
        between VA and VSOs with respect to the BDD and Quick Start 
        Programs?

    IAVA helps veterans by raising awareness, advocating for reforms 
and assisting veterans and their families to find the best services 
available. However, we do not provide traditional services and do not 
employ service officers. As such, we have not seen too many 
organizational challenges in this regard. We do believe that VSO 
Service Officers are invaluable resources for veterans navigating the 
VA system. Service officers should be a component to TAP programs and 
be included in local BDD and Quick Start Programs. Local service 
offices can act as a knowledgeable interface between the veteran, the 
DoD and the VA during the process.

        7.  Are you aware of any unique challenges by members of the 
        National Guard and Reservists in gaining information about the 
        Quick Start program and filing claims through this program?

    Members of the National Guard and Reserve components are being 
mobilized at unprecedented rates. As a result, more members of the 
Select Reserve are eligible for a wider range of VA benefits than ever 
before. Yet, members of the Select Reserve do not have the same access 
to information and benefits, as do their Active Duty peers. To help 
bridge this gap IAVA recommends that VA offer training to selected AGR 
members of the National Guard and Reserve so that each unit has a 
benefits and resources councilor organic to the unit.

                                 <F-dash>
                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                     March 25, 2010
Gerald T. Manar
Deputy Director of National Veterans Service
Veterans of Foreign Wars of the United States
200 Maryland Avenue, SE
Washington, DC 20002

Dear Mr. Manar:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on the ``Examination of the Benefits Delivery at 
Discharge and Quick Start Programs,'' held on February 24, 2010. I 
would greatly appreciate if you would provide answers to the enclosed 
follow-up hearing questions by Monday, April 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

        Questions from the House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
    Oversight Hearing the ``Examination of the Benefits Delivery at 
                  Discharge and Quick Start Programs''
                           February 24, 2010
    This is in response to the questions submitted by the House 
Committee on Veteran's Affairs in conjunction with the oversight 
hearing on the ``Examination of the Benefits Delivery at Discharge and 
Quick Start Programs'' held on February 24, 2010.

        1.  How would it help VA if the Transition Assistance Program 
        (TAP) briefings and BDD or Quick Start exams were mandatory for 
        all decommissioning servicemembers? Do you believe VA has the 
        resources needed for this expansion?

    Response: ``How would it help VA'' is not, in our view, the 
appropriate question. Rather, we believe that the question to ask is 
``how would it help discharging servicemembers if the TAP briefings 
were mandatory and BDD and Quick Start examinations required?''
    Clearly, making TAP briefings mandatory for all discharging 
servicemembers, including deactivating National Guard and Reserve 
personnel would impose an additional and substantial burden on VA. 
Although VBA has received substantial increases in FTE over the past 
few years, the focus has been on training them to develop, process and 
finalize pending claims. Outreach, while very important, only attracts 
more claims; it doesn't resolve any. Should Congress decide to make TAP 
briefings mandatory, additional FTE would be required for both the 
outreach efforts AND claims processing.
    We do not believe that VBA currently has the resources to increase 
outreach nor the staff to process the additional claims generated from 
outreach efforts. FTE provided by Congress in the last few years has 
been allocated to processing claims. Claims receipts increased by 14 
percent in FY 2009 and, reportedly, by another 10 percent FYTD. 
Clearly, they need to focus on the current work at this time.
    However, VBA estimates that pending inventories will peak in FY 
2012 and begin to fall in the years that follow. Rather than decrease 
FTE as anticipated in FY 2014 and beyond, VBA could reallocate staff to 
improving outreach to departing servicemembers. While this is not the 
ideal approach, it is, in our view, the most practical.\1\
---------------------------------------------------------------------------
    \1\ Presentation by Acting Under Secretary for Benefits to the 
Advisory Committee on Disability Compensation, April 20, 2010.

        2.  What can Congress do to assist VA and DoD in expanding TAP 
        briefings and BDD or Quick Start exams to all discharging 
---------------------------------------------------------------------------
        servicemembers.

    Response: There are several issues here:

        <bullet>  What can Congress do to expand TAP briefings? The 
        simplest thing is to pass legislation requiring every 
        discharging servicemember, including Guard and reserve 
        personnel, to participate in mandatory TAP briefings. These 
        briefings are designed to provide discharging servicemembers 
        essential information on a wide variety of subjects which help 
        ease transition from active duty to civilian life.

           Since VA does not, in our opinion, currently have the 
        resources to provide staff to conduct additional TAP briefings, 
        it would be necessary to either plus-up the Veterans Benefits 
        Administration (VBA) FTE or utilize alternative methods, such 
        as computerized training modules or videoconferencing, to 
        provide this information.

        <bullet>  Should Congress require a discharge physical 
        examination for all discharging servicemembers? At one time 
        discharging servicemembers were required to undergo a complete 
        physical examination at discharge. This examination provided a 
        coda to military service by providing a snapshot at the point 
        of discharge of the servicemembers physical and mental 
        condition. It also complimented the entrance examination and 
        provided VA with information that documented changes, whether 
        acute or chronic, new or old, at discharge. We believe it is an 
        extremely useful tool which should be required of all.
        <bullet>  A literal reading of the question suggests the 
        possibility of requiring BDD and Quick Start claims from all 
        servicemembers at discharge. We believe this to be overly broad 
        and, frankly, unnecessary. Discharging members must be 
        thoroughly briefed on the various programs that may be 
        available to them as they transition from active duty. However, 
        not everyone leaves service with a chronic condition 
        potentially entitling them to benefits. Such a requirement 
        would be overly burdensome on VA and its associates and 
        wasteful of scarce government resources. We would not endorse 
        such a proposal.

        3.  The Memo of Understanding (MOU) between VA and DoD largely 
        permits only VA physicians to conduct the single exams. Is this 
        a problem and if so, should more training be provided to DoD 
        physicians so that they can conduct these exams more often?

    Response: We have insufficient information to respond substantively 
to this question. We do know that VA uses some QTC contracted 
physicians to conduct BDD and Quick Start exams.

        4.  You testified that even when comprehensive physical exams 
        are administered, there is not enough time or resources to 
        complete them effectively. What might Congress do to resolve 
        this issue?

    Response: We regularly receive reports from veterans that the 
examinations provided them were quick and, in the veterans lay opinion, 
not thorough. These reports come from both discharging servicemembers 
undergoing BDD/Quick Start exams and veterans undergoing exams at VA 
facilities. Of particular concern are psychiatric examinations which, 
by their very nature, rely heavily on a review of medical records, 
extensive interviews and testing, all of which take time. Examinations 
which experts in the field indicate should normally take 60-90 minutes 
are completed in 15-20 minutes. Unfortunately, simply reviewing 
examination reports does not provide any indication of the amount of 
time afforded servicemembers or veterans since the report invariably 
appears to be complete.
    We believe that a study of scheduling practices at military 
installations where BDD/Quick Start examinations are given would 
quickly indicate what the average examination time allotted is, 
together with outliers, by body system. We urge a study of scheduling 
of psychiatric examinations for compensation purposes, both original 
and claims for increase. Further, the study could include post 
examination surveys of those examined to better understand what went on 
during the examination. This should provide objective data so as to 
better inform VA and this Committee.

        5.  GAO reported that VA has established only one measure for 
        gauging the effectiveness of the BDD and Quick Start programs. 
        However, it seems that VA has several means for measuring 
        general disability claims. Do you agree additional quality 
        measurements could assist VA in fully implementing the BDD and 
        Quick Start programs.

    Response: Yes.

        6.  Some Veteran Service Organizations express frustration by 
        VA's lack of efforts in collaborating with them in increasing 
        utilization of BDD and Quick Start programs. Please expand upon 
        the challenges faced by your organization in this regard? What 
        can Congress do to increase the cooperation between VA and 
        VSO's with respect to the BDD and Quick Start programs?

    Response: Our testimony reflected our experiences with VA and DoD 
with regards to the BDD and Quick Start programs. The rank and file 
workers, even many VA supervisors on military bases, recognize that 
VSO's can provide valuable assistance in educating and assisting 
discharging servicemembers. Once we are on a military base, VA staff 
and base officials quickly see the positive impact we have on the 
claims intake portion of the BDD/Quick Start programs.
    Where we have difficulty is getting on a military base in the first 
place. VA must negotiate for space and access with local DoD officials, 
individuals who are often distracted by the realities of housing and 
training servicemembers who are either preparing for deployment or 
returning from overseas. Their focus is on the war and the warriors who 
fight for our nation. It is our opinion that many within DoD do not 
adequately recognize that ensuring a quality transition from military 
service to civilian life is just as essential as recruiting, training 
and leading men and women in the defense of our nation. As a 
consequence, they look on VA, and by extension, VSO's, with suspicion, 
thinking that our very presence will somehow distract them and their 
troops from their primary mission.
    As a consequence, VA often finds it difficult to obtain adequate 
space on a military base for its own workers. Since VA fails to include 
service organizations in its BDD/Quick Start expansion plans, it is no 
surprise that space for service officers is not usually included in 
their planning. Once a VSO offers to place a service officer on a base 
to help, it must negotiate with both base officials and the VA.
    Please allow me to offer the following as an example of the 
problems we experience with military personnel when seeking entry to a 
base to help servicemembers. Several years ago we became concerned that 
Army personnel going through the DES program at Walter Reed were not 
adequately represented and, as a result, were receiving decisions which 
significantly under evaluated the chronic problems for which they had 
to leave service. We decided to place a highly qualified service 
officer at Walter Reed to assist interested Army personnel. We met with 
a dozen civilian and military officials at the base seeking a minimum 
amount of space in which to work. We were rebuffed at every turn. Even 
a meeting between high level VA officials, senior VSO executives 
representing the major VSO's and DoD personnel at Walter Reed failed to 
produce positive results. As a consequence, soldiers at Walter Reed do 
not have the opportunity to consult a VFW service officer during the 
DES process.
    Interestingly, when we decided to shift our efforts to the Bethesda 
Naval Hospital, we were able to gain access and office space with 
minimal effort. As a consequence, our service officer has started 
helping Navy and Marine personnel with BDD and Quick Start claims.
    What we would like to see is DoD and VA actively include at least 
the major VSO's in planning when BDD/Quick Start expansion is 
considered. VA should ask us if we are able to provide service officers 
at those military bases to which they are expanding. While we may not 
be able to place a service officer at every base where VA has a 
presence because of budget reasons, we would certainly appreciate the 
opportunity to participate.

        7.  Are you aware of any unique challenges encountered by 
        members of the National Guard and Reservists in gaining 
        information about the Quick Start program and filing claims 
        through this program?

    Response: We know that National Guard and Reservists returning from 
deployment are quickly returned to their communities and released from 
active duty. Therefore they are often unable to participate in TAP 
briefings and do not have the opportunity to participate in the BDD 
program because of the short time remaining on active duty.
    Much of VA's outreach to servicemembers is focused on over 100 
military installations. With Guard units scattered across the United 
States and Puerto Rico, it is a challenge for VA to find the resources 
to provide TAP style briefings and claims assistance to them.
    Many VSO's conduct outreach to Guard and Reserve centers. Some of 
these visits are coordinated with VA. At other times we visit at the 
request of the Guard or Reserves. However, we are not aware of any 
program by VA to ensure that all returning Guard and Reserve personnel 
receive a timely TAP briefing along with assistance in completing 
claims.
    There is no doubt that this is problematic for VA. Outreach is 
performed by VA regional office staff, sometimes hundreds of miles 
distant from a Guard or Reserve center. Further, the service to be 
provided is two-fold: first, brief them on what benefits and services 
are available to them; then assist individuals with completing 
compensation claims. The first can be done in a matter of hours. 
Helping individuals file claims, if done right, will take much longer.
    At BDD sites, VFW service officers usually spend about an hour with 
each servicemember, helping them fill out the claim, pouring over 
service treatment records and ensuring that all chronic conditions 
related to service are claimed. It is much more difficult to provide 
this service to Guard and Reserve personnel because of the number of 
personnel filing all at once and their distance from VA and VSO 
personnel.
    We believe that VA could construct a plan for conducting systematic 
outreach and claims assistance to Guard and Reserve personnel who have 
been recently deactivated. VA should work with the VSO's who work in 
their regional offices in order to coordinate activities. In this way 
it would be possible for a number of VA and VSO personnel to appear at 
a Guard or Reserve center and provide information and services to 
appropriate personnel. Once such a plan is developed, it could be 
tested in a number of states in order to determine the efficacy of the 
plan. Data could be gathered and a report provided your Committee.

                                 <F-dash>
                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                     March 25, 2010
Raymond C. Kelley
National Legislative Director
AMVETS
4647 Forbes Boulevard
Lanham MD, 20706

Dear Mr. Kelley:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on the ``Examination of the Benefits Delivery at 
Discharge and Quick Start Programs,'' held on February 24, 2010. I 
would greatly appreciate if you would provide answers to the enclosed 
follow-up hearing questions by Monday, April 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

        Questions from the House Committee on Veteran's Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
    Oversight Hearing on ``Examination of the Benefits Delivery at 
                  Discharge and Quick Start Programs''
                           February 24, 2010
        1.  How would it help VA if the Transition Assistance Program 
        (TAP) briefings and BDD or Quick Start exams were mandatory for 
        all decommissioning servicemembers? Do you believe VA has the 
        resources needed for this expansion?

    It would help transitioning servicemembers if VA TAP briefings were 
mandatory. AMVETS doesn't believe this will cause a resource issue, 
because VA is present at most TAP briefings but servicemembers don't 
participate. Not all transitioning servicemembers leave service with a 
disability; therefore, AMVETS does not believe that BDD or Quick Start 
exams need to be mandatory. However, we would like to see the 
Disability Evaluation System (DES) program expand and become mandatory 
for all transitioning servicemembers.

        2.  What can Congress do to assist VA and DoD in expanding TAP 
        briefings and BDD or Quick Start exams to all discharged 
        servicemembers?

    Congress should mandate that all transitioning servicemembers must 
attend VA TAP briefings.

        3.  The Memorandum of Understanding (MOU) between VA and DoD 
        largely permits only VA physicians to conduct the single exam. 
        Is this a problem and if so, should more training be provided 
        to DoD physicians so they can conduct these exams more often.

    The MOU between DoD and VA is a general agreement that allows local 
DoD facilities to enter into MOUs with local VA facilities. These local 
MOUs dictate who is responsible for what aspects of the single exams. 
The issues that arise are often ones of logistics. For instance: the 
MOU states VA will conduct the physicals and DoD will provide 
examination rooms. This seams benign enough; however, DoD may not 
understand what equipment will be needed for VA to conduct a thorough 
exam. A clearer explanation of what needs and expectations are for each 
location so there is not a lack of resources. In cases where DoD will 
be conducting the exams, it is important that they provide a medical 
evaluation that is complete and in a format that is usable by VA. 
AMVETS suggests that VA design medical condition templates for DoD and 
civilian doctors to use to ensure all pertinent information is included 
so VA will not have to conduct a second exam because critical 
information is not included.

        4.  You testified that even when comprehensive physical exams 
        are administrated, there is not enough time or resources to 
        complete them effectively. What might Congress do to resolve 
        this issue?

    Again, AMVETS attributes this to vague MOUs between local DoD and 
VA facilities. AMVETS believes this is a problem that can be easily 
solved by the two agencies. If upon their recommendations it is 
believed that more funding for these programs is needed then Congress 
should appropriate sufficient funding.

        5.  GAO reported that VA has established only one measure for 
        measure for gauging the effectiveness of the BDD and Quick 
        Start programs. However, it seems that VA has several means for 
        measuring general disability claims. Do you agree additional 
        quality measurements could assist VA in fully implementing the 
        BDD and Quick Start programs?

    Yes, there needs to be a more emphasis on quality. AMVETS is 
working with other VSOs to construct a metric to more evenly evaluate 
effectiveness.

        6.  Some Veterans Service Organizations (VSOs) express 
        frustration by VA's lack of efforts in collaborating with them 
        in increasing utilization of BDD and Quick Start programs. 
        Please expand upon the challenges faced by your organization in 
        this regard? What can Congress do to increase the cooperation 
        between VA and VSOs with respect to the BDD and Quick Start 
        programs?

    This is more of a problem between DoD and the VSOs. For our service 
officers to assist servicemembers with a Quick Start of BDD claim they 
need access to them on military installations. This requires 
cooperation between the Commanders on each of the bases and the VSOs.

        7.  Are you aware of any unique challenges encountered by 
        members of the National Guard and reservists in gaining 
        information about the Quick Start program and filing claims 
        through this program?

    Time is the largest factor in all Guard and reserve transition 
issues. Most demobilizations take less than one week. It is impossible 
to conduct a complete physical for hundreds to thousands of returning 
servicemembers. The simple solution is to provide a VA briefing prior 
to Guard and reserve member's exit exam. This will provide them with 
the knowledge to tell the medical professional conduction the 
evaluation every condition that started or got worse while on active 
duty. As long as the information is in their medical records and the 
veteran files for disability within one year they will have a very 
quick claims process.

                                 <F-dash>
                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                     March 25, 2010
John L. Wilson
Assistant National Legislative Director
Disabled American Veteran
807 Maine Avenue, NW
Washington, DC 20024

Dear Mr. Wilson:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on the ``Examination of the Benefits Delivery at 
Discharge and Quick Start Programs,'' held on February 24, 2010. I 
would greatly appreciate if you would provide answers to the enclosed 
follow-up hearing questions by Monday, April 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

       Post-Hearing Questions For John Wilson, Assistant National
         Legislative Director of the Disabled American Veterans
 Following the February 24, 2010 Hearing of the United States House of
  Representatives, House Veterans' Affairs, Subcommittee on Disability
                    Assistance and Memorial Affairs
        1.  How would it help VA if the Transition Assistance Program 
        (TAP) briefings and BDD or Quick Start exams were mandatory for 
        all decommissioning servicemembers? Do you believe VA has the 
        resources needed for this expansion?

    Response: Mandatory TAP, Disability Transition Assistance Programs 
(DTAP) briefings and Benefits Delivery at Discharge (BDD) and Quick 
Start medical examinations would ensure all separating military 
personnel would be better informed as to the variety of benefits for 
which they qualify. Additionally, all medical evidence necessary to 
determine service connection for claimed disabilities would be readily 
available, which would expedite the claims adjudication process and 
facilitate placing any disability compensation that is due in the 
``hands'' of the member shortly after transitioning into veterans 
status.
    Regarding the question of resources, if all decommissioning 
servicemembers were required to complete TAP/DTAP and BDD/Quick Start 
programs, the Department of Veterans Affairs (VA) would likely need 
additional resources to ensure the timely delivery of these services.

        2.  What can Congress do to assist VA and Department of Defense 
        (DoD) in expanding TAP briefings and BDD or Quick Start exams 
        to all discharging servicemembers?

    Response: We recommend Congress provide sufficient funding, 
staffing and oversight for TAP/DTAP to ensure these services are 
available to support all routine discharges per year from each branch 
of service.
    We further recommend Congress provide sufficient funding to ensure 
that members of the National Guard and Reserve forces who are activated 
for 12 months or longer be afforded a period of active duty of five 
days, within 90 days of separation, in order to attend TAP and DTAP 
workshops. Additionally, Congress should require completion of a 
separation physical exam and attending TAP/DTAP as mandatory conditions 
for all separating military personnel to receive the DD Form 214, 
Certificate of Release or Discharge from Active Duty.

        3.  The Memo of Understanding (MOU) between VA and DoD largely 
        permits only VA physicians to conduct the single exams. Is this 
        a problem and if so, should more training be provided to DoD 
        physicians so they can conduct the exams more often?

    Response: The DoD's role in providing separation physical exams was 
modified because of previous instances where DoD improperly applied 
disability standards specified in the VA Schedule for Rating 
Disabilities and also because transitioning personnel who file 
disability claims with the VA were subject to duplicative physical 
exams in order to meet requirements of both the DoD and VA. A study in 
1994 of the Navy and Marine Corps' mandated separation exams found that 
while they met the services' needs for a separation physical, 75 
percent of the exams' findings were insufficient for the purpose of 
disability ratings. Often the diagnosis or findings were not in line 
with the requirements of the VA rating schedule.
    Maximizing the use of available physician resources whether from 
DoD, VA or others provides the greatest flexibility to ensure that 
transitioning personnel obtain this critical medical exam. To maximize 
their use, duplicative exams can be eliminated by DoD and VA 
establishing the use of medical examination templates, as is currently 
being done in certain VA pilots, to ensure that all examinations are 
adequate for rating purposes regardless of source. It seems prudent to 
further clarify MOU procedures accordingly.

        4.  You testified that even when comprehensive physical exams 
        are administered, there is not enough time or resources to 
        complete them effectively. What might Congress do to resolve 
        this issue?

    Response: DAV recommends Congress provide the DoD and VA the 
necessary resources to ensure all transitioning military personnel 
applying for disability compensation receive separation physicals, 
whether active duty, mobilized Reserve or Guard forces. We further 
recommend Congress provide sufficient funding to ensure that members of 
the National Guard and Reserve forces who are activated for 12 months 
or longer be afforded a period of active duty of five days, within 90 
days of separation, in order to attend TAP and DTAP workshops.

        5.  GAO reported that VA has established only one measure for 
        gauging the effectiveness of the BDD and Quick Start programs. 
        However, it seems that VA has several means for measuring 
        general disability claims. Do you agree additional quality 
        measurements could assist VA in fully implementing the BDD and 
        Quick Start programs?

    Response: The inclusion of additional quality measures could 
provide the VA with information that would further enhance the 
effectiveness of this important program. For example, monitoring all 
actions taken from the date VA receives a claim, as opposed to the 
current practice of monitoring all actions taken from the date of 
receipt of the DD Form 214, may provide both DoD and VA with important 
information that resolves other process problems that are not presently 
apparent.
    The VA/DoD Joint Executive Council has only a general focus on this 
area. Its objective as found in its Strategic Plan for FY 2009 to 2011 
is ``to improve participation in the BDD program nationwide and ensure 
servicemembers are afforded the single cooperative examinations where 
available.'' The plan to streamline benefits application processes, 
eliminate duplicative requirements and correct various business 
practices that complicate the process will prove more useful however 
when there are measureable outcomes. Congressional oversight of the 
success of this strategic plan is also recommended.

        6.  Some Veteran Service Organizations (VSOs) express 
        frustration by VA's lack of efforts in collaborating with them 
        in increasing utilization of BDD and Quick Start programs. 
        Please expand upon the challenges faced by your organization in 
        this regard. What can Congress do to increase the cooperation 
        between VA and VSOs with respect to the BDD and Quick Start 
        programs?

    Response: VSOs at a number of military installations were given 
access to provide free assistance to military personnel in various 
stages of preparation for separation from military services. In 1998, 
for example, VSOs at the national, state and county level were 
acknowledged as playing an important role with VAROs in VBA 
predischarge claims development, examinations and rating decisions (VA 
Circular 20-98-2, Change 1 dated January 25, 1999). VSOs were 
encouraged to participate with VAROs and to be made an integral part of 
the planning and execution of these programs. VSOs were authorized to 
conduct TAP and DTAP briefings, consult with personnel on VA benefits, 
and conduct reviews of service treatment records in order to advise 
claimants and to assist them in preparing benefit applications. In 
Appendix A, section 10 of this same circular VSOs were identified as 
partners and ``full integration of the veterans' service organizations 
is important for the support of the pre-discharge examination and 
claims adjudication process.''
    Today, VSOs' access to military installations varies, with some 
simply not allowing VSOs access. Congressional action directing VSOs' 
access to conduct TAP and DTAP briefings, consult with personnel on VA 
benefits, and conduct reviews of service treatment records in order to 
advise claimants and to assist them in preparing benefit applications 
is critical. If VSOs are incorporated as full partners in this area, we 
could provide transitioning military personnel a critical adjunct to 
existing programs and could offer constructive comments to DoD and VA 
on delivery of services to ensure best practices are adopted and less 
constructive initiatives discarded.

        7.  Are you aware of any unique challenges encountered by 
        members of the National Guard and Reservists in gaining 
        information about the Quick Start program and filing claims 
        through this program?

    Response: A unique challenge that National Guard and Reserve 
personnel often face is their rapid demobilization from active duty 
status which may preclude their being fully informed about benefits 
potentially available to them. Additionally, since separation physical 
exams are not mandatory, this may later impact their eligibility for 
disability compensation for service-connected conditions.

                                 <F-dash>
                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                     March 25, 2010
Diana Rubens
Associate Deputy Under Secretary for Field Operations
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

Dear Ms. Rubens:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on the ``Examination of the Benefits Delivery at 
Discharge and Quick Start Programs,'' held on February 24, 2010. I 
would greatly appreciate if you would provide answers to the enclosed 
follow-up hearing questions by Monday, April 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                        Questions for the Record
                  House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
   Hearing on Examination of the U.S. Department of Veterans Affairs 
        Benefits Delivery at Discharge and Quick Start Programs
                           February 24, 2010
    Question 1: What percentage of VA's current inventory of disability 
claims includes first-time claims from Servicemembers returning from 
Iraq and Afghanistan?

    Response: As of March 31, 2010, the 15,932 initial claims submitted 
by Servicemembers returning from Iraq and Afghanistan represent 3.2 
percent of VA's inventory of 493,732 disability compensation claims.

    Question 2: Would it help VA if the Transition Assistance Program 
(TAP) briefings and BDD or Quick Start exams were mandatory for all 
decommissioning servicemembers, and if so, how? If VA favors this 
expansion, does VA have the resources needed to achieve this objective? 
What can Congress do to assist you in expanding TAP briefings and BDD 
or Quick Start exams to all discharging servicemembers?

    Response: Mandatory TAP briefings would significantly help support 
VA's mission. TAP briefings provide VA the opportunity to promote the 
BDD and Quick Start programs and provide information about Veterans' 
benefits and services. If all separating Servicemembers were required 
to attend TAP briefings, VA would need additional resources to reach 
all Servicemembers, particularly those separating from remote 
locations. VA is working to develop innovative ways of delivering TAP 
briefings for Servicemembers in situations and locations where 
briefings are difficult to conduct, including those separating from 
naval vessels while on deployment, remote locations, Guard and Reserve 
units returning from theater, and Servicemembers serving in small 
detachments such as embassy guard personnel and recruiters.
    VA supports mandatory separation physicals for all separating, 
deactivating reserve component personnel and all retirees. Examinations 
adequate for use in the claims process are conducted to VA standards 
for Veterans who participate in BDD, Quick Start, the Joint DoD/VA 
Disability Evaluation System Pilot, and for those Veterans who file a 
claim within a year of separation from service. This represents 
approximately one half of all initial claims VA receives. The remainder 
of the claims are received from Veterans many years post service. 
Mandatory separation physicals need not be as extensive as an 
examination for a compensation claim, but they would serve critical 
needs that are currently not being met. Those needs include the 
following: 1. The examination results, if automated, would aid in 
predicting future claim activity and would materially aid in VA's 
efforts to project future requirements in a manner similar to Social 
Security; and 2. The examination results would provide a critical 
baseline of the state of a Servicemember's health at time of separation 
that could document his/her state of hearing and vision, and determine 
whether isolated reports of treatment for routine medical events, such 
as strains, have resolved or continue to have residuals that justify an 
award of service connection.

    Question 3: Despite the Memo of Understanding (MOU) between the VA 
and DoD, many units are still failing to execute a single physical exam 
that will meet both the VA and DoD's standards. How can we help local 
units to get a single examination process established? Can this problem 
be solved simply through education and training, or should the policy 
be fundamentally changed?

    Response: The existing MOUs regarding single examinations do not 
mandate separation physicals for all separating Servicemembers. Rather, 
they are an agreement as to the standard to which examinations will be 
conducted (and by whom) when they are needed for a specific purpose 
such as a disability claim or a retirement physical. The policy should 
be fundamentally changed. Mandatory separation physicals for all 
Servicemembers leaving a period of active duty should be instituted for 
those individuals who do not file a claim for disability benefits prior 
to separation. It must be recognized that this core baseline reading is 
a foundational piece to any future disability decision rendered on a 
Veteran who chooses to file a disability claim many years after 
service.

    Question 4: How does the effectiveness of these programs suffer 
through having MOUs with DoD that largely permit only VA physicians to 
conduct the single exams? If this is a problem, should more training be 
provided to DoD physicians so that they can conduct these exams more 
often?

    Response: The memorandum of agreement between VA and DoD does not 
specify that the examination must be conducted by a VA physician, only 
that the examination be conducted in accordance with VA examination 
protocols. In this period of conflict, it is not surprising that DoD, 
with its own clinical staffing challenges, believes that its primary 
focus must be on forward-deployed health and health maintenance of the 
force. Locally, individual VA regional offices, VA medical centers and 
military treatment facilities (MTFs) will sign a memorandum of 
understanding, defining each agency's responsibilities. Responsibility 
for completing the exam (or aspects of the exam) is based largely on 
the availability of each agency's resources at or near the location.
    If DoD physicians are available at MTFs, training in many cases is 
provided through VHA's examiner testing protocol to enable DoD 
clinicians to conduct examinations in accordance with VA's examination 
protocols.

    Question 5: The Government Accountability Office (GAO) testified 
that VA has established only one measure for gauging the effectiveness 
of the BDD and Quick Start programs. However, it seems that VA has 
several means for measuring general disability claims including: (a) 
how much time a veteran has to wait for a final decision, (b) average 
days to complete all work to reach a final decision, and (c) percentage 
of claims with no processing errors. I understand that if VA performed 
these surveys, such as tracking total time to develop a claim, the 
results may suggest that VA has more work to do to achieve its goals. 
However, can't these additional performance measurements assist VA in 
fully implementing the BDD and Quick Start programs?

    Response: The effectiveness of the BDD and Quick Start programs is 
generally gauged utilizing the same measurements applied to all other 
disability claims. These measurements include ``average days to 
complete'' (average days to complete all work) and ``average days 
pending'' (average age of the currently pending workload). VA conducts 
the same quality assurance reviews for the sites that process BDD and 
Quick Start claims as are used for other regional offices.
    BDD claims present unique issues with regard to measuring ``average 
days to process'' and ``average days pending'' in that there are 
significant differences when compared to normal Veterans claims 
processing. If VA were to measure from the date the Servicemember filed 
his/her claim, both of these measures would be meaningless since they 
would be controlled by: (a) when the Servicemember filed his/her claim 
in relation to his/her expected separation date; and (b) the fact that 
VA cannot influence this time since VA has no legal authority to 
finalize the decision and make payment until the member separates. 
Thus, we believe that the true measure of the success and effectiveness 
of the pre-discharge programs is the time delay between separation and 
notification of entitlement.

    Question 6: Veterans Service Organizations (VSOs) suggest they can 
play a critical role in improving the implementation of BBD and Quick 
Start programs. What can we do to increase your cooperation with VSO's 
in this regard? What challenges might you face in forging this 
cooperation?

    Response: At the Transition Assistance Program briefings, VA 
advises Servicemembers about the opportunity to be represented by a 
VSO. There is no inherent legal or VA-imposed process limitation in the 
ability of service organizations to represent Servicemembers in the VA 
claims process while they are still on active duty. In fact, 
partnerships exist with various organizations, including state 
Departments of Veterans' Affairs, at some BDD sites. We are aware, 
however, that service organizations sometimes have difficulty obtaining 
office space on military installations due to the widespread space 
scarcity on most installations following consolidation of facilities 
through the BRAC activities.

    Question 7: What unique challenges does VA encounter with educating 
members of the National Guard and Reservists about the BDD and Quick 
Start programs, and processing the Quick Start claims? How many Quick 
Start claims do you process each year? How many do you complete 
annually?

    Response: Normally, deployed members of the reserve components 
cannot participate in the BDD program because of the extremely brief 
period of time that they have on active duty following return from 
theater. VA often receives limited notice of the demobilization events 
and has limited time to interact with the Servicemembers.
    When VA reaches Servicemembers at the demobilization events, there 
is insufficient time to conduct medical examinations and gather 
evidence while on active duty. VA accepts Quick Start claims at 
demobilization events, but locating and obtaining service treatment 
records from individual units can be time consuming. Frequently there 
is a delay, sometimes significant, in associating in-theater treatment 
records with their medical jacket. VA completed 16,162 Quick Start 
claims during FY08, and 22,021 Quick Start claims during FY09. This 
fiscal year 11,712 Quick Start claims have been completed through the 
end of March. We do not have a report that identifies which of those 
claims was from reserve component Servicemembers.

    Question 8: What can this Committee do to assist VA in addressing 
any technical or training issues related to the BDD and Quick Start 
programs? Will the 4,000 additional disability raters requested in the 
Administration's FY11 budget make any impact in the ability to expand 
the BDD and Quick Start programs?

    Response: VA requests the House Committee on Veterans' Affairs 
maintain its current level of support to ensure the continuing success 
of the BDD and Quick Start programs. The additional staffing in VA's 
2011 budget submission are primarily focused on addressing the 
increasing demand for services as represented by the unprecedented 
claim rate, including claims received through the BDD and Quick Start 
programs. VA continues to seek opportunities to reach out and assist 
separating Servicemembers while they are on active duty and is 
committed to supporting the smooth transition from military to civilian 
life.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
